No. _______
IN THE

Supreme Court of the United States
DON HIGGINSON,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA; CITY OF POWAY,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
William S. Consovoy
Counsel of Record
Jeffrey M. Harris
J. Michael Connolly
Bryan K. Weir
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

Counsel for Petitioner

i
QUESTION PRESENTED
In Thornburg v. Gingles, 478 U.S. 30 (1986),
this Court held that a municipality’s at-large voting
system does not violate Section 2 of the Voting Rights
Act merely because there is racially polarized voting.
Dissatisfied with this interpretation of Section 2,
California adopted the California Voting Rights Act
(“CVRA”), which creates “a broader basis for relief
from vote dilution than available under the federal
Voting Rights Act.” Jauregui v. City of Palmdale, 172
Cal. Rptr. 3d 333, 350 (Cal. Ct. App. 2014). To that
end, the CVRA requires municipalities to dismantle
at-large voting systems whenever there is racially
polarized voting in the community—i.e., when the
race of voters tends to correlate with the selection of
certain candidates. The CVRA, in other words, makes
race not just the dominant factor but the only factor
for determining whether municipalities may use atlarge systems.
The question presented is:
Whether the California Voting Rights Act
violates the Equal Protection Clause of the
Fourteenth Amendment.

ii
PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS
The parties to the proceeding below are as
follows:
Petitioner is Don Higginson. Petitioner was the
plaintiff in the district court and appellant in the court
of appeals.
Respondents are Xavier Becerra, in his official
capacity as Attorney General of California, and the
City of Poway. Respondents were defendants in the
district court and appellees in the court of appeals.
Respondent-Intervenors are California League
of United Latin American Citizens, Hiram Soto, Judy
Ki, and Xavier Flores. Respondent-Intervenors were
intervenors in the district court and the court of
appeals.
The following are directly related proceedings
as defined in Rule 14.1(b)(iii).
United States District Court (S.D. Cal.)
Higginson v. Becerra, 17-cv-02032 (S.D. Cal.)
(judgment entered March 5, 2019)
Higginson v. Becerra, 17-cv-02032 (S.D. Cal.)
(order granting motion to dismiss filed March 5, 2019)
Higginson v. Becerra, 17-cv-02032 (S.D. Cal.)
(order granting motion to dismiss filed February 4,
2019)

iii
Higginson v. Becerra, 17-cv-02032 (S.D. Cal.)
(order denying motion for preliminary injunction filed
October 2, 2018)
Higginson v. Becerra, 17-cv-02032 (S.D. Cal.)
(order denying motion for preliminary injunction and
granting motion to dismiss filed February 23, 2018)
United States Court of Appeals (9th Cir.)
Higginson v. Becerra, No. 19-55275 (9th Cir.)
(opinion filed December 4, 2019)
Higginson v. Becerra, No. 18-56062 (9th Cir.)
(opinion filed August 9, 2018)
Higginson v. Becerra, No. 18-55455 (9th Cir.)
(amended opinion filed July 31, 2018)
Higginson v. Becerra, No. 18-55455 (9th Cir.)
(opinion filed June 14, 2018)

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS ................................. ii
TABLE OF CONTENTS ........................................... iv
TABLE OF APPENDICES ....................................... vi
TABLE OF CITED AUTHORITIES ....................... viii
INTRODUCTION ........................................................1
OPINIONS BELOW ....................................................3
JURISDICTION ..........................................................3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ....................................3
STATEMENT OF THE CASE ....................................4
A.

Section 2 of the Voting Rights Act ................4

B.

The California Voting Rights Act ..................6

C.

The City of Poway’s abandonment of atlarge voting to comply with the CVRA........10

D.

Proceedings below ........................................14

REASONS FOR GRANTING THE PETITION .......17
I.

The constitutional issues presented in
this case are critically important ................17

v
II.

The decision below contravenes the
Equal Protection Clause and this
Court’s precedents .......................................24

III. This case is an ideal vehicle for
resolving the question presented. ...............29
CONCLUSION ..........................................................31

vi
TABLE OF APPENDICES
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, FILED
DECEMBER 4, 2019 ............................................1a
APPENDIX B — JUDGMENT OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA,
FILED MARCH 5, 2019 .......................................5a
APPENDIX C — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA,
FILED MARCH 5, 2019 .......................................7a
APPENDIX D — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA,
FILED FEBRUARY 4, 2019 ..............................10a
APPENDIX E — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA,
FILED OCTOBER 2, 2018.................................32a
APPENDIX F — AMENDED MEMORANDUM
OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED JULY 31, 2018 .......................................55a
APPENDIX G — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, FILED
JUNE 14, 2018 ...................................................59a

vii
APPENDIX H — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA,
FILED FEBRUARY 23, 2018 ............................63a
APPENDIX I — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED JULY 31, 2018 .......94a
APPENDIX J — RELEVANT CONSTITUTIONAL
PROVISIONS AND STATUTES .......................98a
APPENDIX K — COMPLAINT TO THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA,
FILED OCTOBER 4, 2017 ...............................111a

viii
TABLE OF AUTHORITIES
Page(s)
Cases
Abrams v. Johnson,
521 U.S. 74 (1997) ............................................5, 26
Alabama Legislative Black Caucus v. Alabama,
575 U.S. 254 (2015) ........................................18, 19
Bartlett v. Strickland,
556 U.S. 1 (2009) .......................................... passim
Bethune-Hill v. Virginia State Bd. of Elections,
137 S. Ct. 788 (2017) ................................ 19, 27, 28
Board of Trs. of University of Alabama v.
Garrett,
531 U.S. 356 (2001) ..............................................21
C.I.R. v. McCoy,
484 U.S. 3 (1987) ..................................................30
City of Mobile v. Bolden,
446 U.S. 55 (1980) ................................................21
Cooper v. Harris,
137 S. Ct. 1455 (2017) .......................... 2, 18, 20, 24
Edmonson v. Leesville Concrete Co., Inc.,
500 U.S. 614 (1991) ..............................................20
Georgia v. Ashcroft,
539 U.S. 461 (2003) ................................................4
Gratz v. Bollinger,
539 U.S. 244 (2003) ..............................................20

ix
Growe v. Emison,
507 U.S. 25 (1993) ................................ 6, 21, 25, 26
Hirabayashi v. United States,
320 U.S. 81 (1943) ................................................18
Jauregui v. City of Palmdale,
172 Cal. Rptr. 3d 333 (Cal. Ct. App. 2014) .....6, 28
Johnson v. De Grandy,
512 U.S. 997 (1994) ..........................................6, 21
LULAC v. Perry,
548 U.S. 399 (2006) ..............................................21
Miller v. Johnson,
515 U.S. 900 (1995) ...................................... passim
Nw. Austin Mun. Utility Dist. No. One v. Holder,
557 U.S. 193 (2009) ..............................................19
Plumley v. Austin,
135 S. Ct. 828 (2015) ............................................30
Ricci v. DeStefano,
530 F.3d 88 (2d Cir. 2008) ...................................31
Ricci v. DeStefano,
557 U.S. 557 (2009) ..............................................30
Rice v. Cayetano,
528 U.S. 495 (2000) ..............................................18
Sanchez v. City of Modesto,
51 Cal. Rptr. 3d 821 (Cal. Ct. App. 2006) ...........30
Shaw v. Hunt,
517 U.S. 899 (1996) .............................. 5, 17, 24, 27

x
Shaw v. Reno,
509 U.S. 630 (1993) ..........................................4, 20
Smith v. United States,
502 U.S. 1017 (1991) ............................................30
Texas Dep’t of Hous. & Cmty. Affairs v.
Inclusive Cmtys. Project, Inc.,
135 S. Ct. 2507 (2015) ..........................................16
Thornburg v. Gingles,
478 U.S. 30 (1986) ........................................ passim

Statutes and Other Authorities
U.S. Const. amdt. 14, § 1...................................3, 4, 17
1 Alexis de Tocqueville, Democracy in America
(Henry Reeve trans., Colonial Press 1899) .........19
28 U.S.C. § 1254(1) ......................................................3
42 U.S.C. § 1973 ..........................................................4
52 U.S.C. § 10301 ........................................................8
52 U.S.C. § 10301(a) ....................................................4
52 U.S.C. § 10301(b) ............................................ 20-21
Assem. Comm. on Judiciary, Analysis of Sen.
Bill No. 976 (2001-2002 Reg. Sess.)............. 6-7, 28
Bradley Zint, SCWD Mulls Switch to By-District
Elections, Laguna Beach Independent
(Mar. 13, 2020) .....................................................22
Cal. Elec. Code § 10010 ...............................................3

xi
Cal. Elec. Code § 10010(e)(1) ......................................9
Cal. Elec. Code § 10010(e)(2) ......................................9
Cal. Elec. Code § 10010(e)(3)(A) ...............................10
Cal. Elec. Code § 10010(e)(3)(B) ...............................10
Cal. Elec. Code § 10010(f)(3) .....................................10
Cal. Elec. Code § 14026 ...............................................3
Cal. Elec. Code § 14026(d)...........................................8
Cal. Elec. Code § 14026(e) .....................................8, 25
Cal. Elec. Code § 14027 ................................. 3, 7, 9, 25
Cal. Elec. Code § 14028 .....................................3, 9, 25
Cal. Elec. Code § 14028(a).....................................8, 25
Cal. Elec. Code § 14028(c) ...........................................8
Cal. Elec. Code § 14028(d)...........................................8
Cal. Elec. Code § 14028(e) ...........................................9
Cal. Elec. Code § 14029 .....................................3, 9, 25
Cal. Elec. Code § 14030 ...........................................3, 9
Carly Graf, First Draft Maps Suggest
Boundaries for New Napa City Council
Districts, Nava Valley Register
(Mar. 13, 2020) .....................................................22
City Council Staff Report,
City of Citrus Heights (Jan. 10, 2019) ................23

xii
Douglas Johnson, The California Voting Rights
Act and Districting: The Demographer’s
Perspective, National Demographics
Corporation (May 9, 2016) ...................................23
Howard Yune, Napa School District Tries to
Garner Public Input on New Voting System
as Coronavirus Keeps People Home, Napa
Valley Register (Mar. 30, 2020) ...........................22
Natalie Hanson, School Board Talks District
Elections in Special Virtual Meeting,
Enterprise-Record (Mar. 30, 2020) ......................22
Perry Smith, Santa Clarita to Consider Move to
District-Based Elections, The Signal
(Mar. 18, 2020) ...............................................22, 23
Public Hearings About Proposed Move to District
Elections in Malibu, The Patch
(Mar. 14, 2020) .....................................................22
Public Hearings Regarding District Elections,
Canyon News (Mar. 10, 2020) .............................22
Rick Hasen, Election Law Blog (Dec. 4, 2019) .........31
Sarah Wright, School Board to Finalize
Redistricting, Half Moon Bay Review
(Mar. 11, 2020) .....................................................22
Sen. Rules Com., Off. of Sen. Floor Analyses, 3d
reading analysis of Sen. Bill No. 976 (20012002 Reg. Sess.)................................................7, 28

xiii
Sherry Barkas, Coronavirus: Palm Desert
Residents Can Telephone Comments to City
Council During Today's Meeting, Palm
Springs Desert Sun (Mar. 9, 2020) ......................22
Sup. Ct. Rule 10(c).....................................................17
The Federalist No. 17 (Alexander Hamilton)
(Jacob E. Cooke ed., 1961) ...................................19
Thy Vo, The Accidental Advocate, Voice of OC
(Sept. 12, 2016) ....................................................23
Updated Counts of CVRA-Driven Changes,
National Demographics Corporation .................21

1
INTRODUCTION
To avoid serious constitutional concerns, this
Court has imposed stringent requirements that must
be met before an at-large voting system will be held to
violate Section 2 of the Voting Rights Act. Specifically,
the minority group alleging vote dilution must be
“sufficiently large and geographically compact to
constitute a majority in a single-member district,” the
minority group must be “politically cohesive,” and the
majority group must vote “sufficiently as a bloc to
enable it ... usually to defeat the minority’s preferred
candidate.” Thornburg v. Gingles, 478 U.S. 30, 50-51,
56 (1986). These requirements are critical to ensuring
that Section 2 does not contravene the Equal
Protection Clause by entitling minority groups to the
“maximum possible voting strength.” Bartlett v.
Strickland, 556 U.S. 1, 16 (2009) (plurality).
California adopted the California Voting Rights
Act (“CVRA”) for the express purpose of overriding
this limiting interpretation. Under the CVRA, all that
matters is whether racially polarized voting exists in
the community. If it does, the locality will be liable for
vote dilution and must abandon its at-large elections,
full stop. No other showing—such as compactness or
a history of intentional discrimination—is needed. Put
simply, the California legislature—in order to
maximize minority representation—ignored this
Court’s repeated warnings that making race the
dominant
focus
of
redistricting
would
be
unconstitutional.

2
In 2017, the City of Poway was threatened with
suit under the CVRA based on the purported presence
of racially polarized voting. Like so many California
municipalities, the City abandoned its decades-old, atlarge electoral system and adopted a district-based
system (Map 133) to elect city councilmembers. The
day after the City adopted its new system, Petitioner
Don Higginson, a Poway voter, filed a lawsuit seeking
a declaration that the CVRA and Map 133 violate the
Equal Protection Clause. Despite the CVRA’s
exclusive focus on racial considerations and the
absence of any constitutional safeguards, the Ninth
Circuit—in a cursory four-page opinion—upheld Map
133 on the theory that the CVRA is constitutional
under rational-basis review.
This Court’s intervention is plainly warranted.
The Equal Protection Clause prohibits any state law—
including one governing local districting—in which
“racial considerations predominated over others”
unless it can “withstand strict scrutiny.” Cooper v.
Harris, 137 S. Ct. 1455, 1464 (2017). The CVRA
makes race the only factor in determining whether a
locality may use an at-large electoral system. And it
does not come close to meeting strict scrutiny. The
notion that a law this pervasively race-focused would
be subject to rational-basis review is untenable.
This petition would be worthy of the Court’s
review even if the reach of the CVRA were limited to
the City of Poway. But that is not remotely the case.
The CVRA has forced nearly 200 political subdivisions
across California to abandon their at-large systems.
And because the CVRA contains a broad fee-shifting

3
provision that leaves municipalities on the hook for
millions of dollars in attorney’s fees, there is no end in
sight. Review is urgently needed.
OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Ninth Circuit is unreported and is reproduced in the
Appendix (“App.”) at 1a-4a. The opinion of the U.S.
District Court for the Southern District of California
is unreported and is reproduced at App. 10a-31a.
JURISDICTION
The Ninth Circuit issued its opinion on
December 4, 2019. This Court granted an extension to
file a petition for certiorari to and including April 2,
2020. This Court has jurisdiction under 28 U.S.C.
§1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment to the United
States Constitution provides in relevant part:
“No State shall … deny to any person
within its jurisdiction the equal
protection of the laws.”
U.S. Const. amend. XIV, § 1. The relevant provisions
of the CVRA, Cal. Elec. Code §§ 10010, 14026, 14027,
14028, 14029, 14030, are reproduced at App. 98a110a.

4
STATEMENT OF THE CASE
A.

Section 2 of the Voting Rights Act

The “central purpose” of the Equal Protection
Clause of the Fourteenth Amendment “is to prevent
the States from purposefully discriminating between
individuals on the basis of race.” Shaw v. Reno, 509
U.S. 630, 642 (1993) (“Shaw I”). “Laws that explicitly
distinguish between individuals on racial grounds fall
within the core of that prohibition.” Id. “Express racial
classifications are immediately suspect because,” as
this Court has explained, “absent searching judicial
inquiry, there is simply no way of determining what
classifications are ‘benign’ or ‘remedial’ and what
classifications are in fact motivated by illegitimate
notions of racial inferiority or simple racial politics.”
Id. at 642-43 (cleaned up).
This Court has recognized that Section 2 of the
Voting Rights Act of 1965 is in tension with these
principles. See Miller v. Johnson, 515 U.S. 900, 92728 (1995); Georgia v. Ashcroft, 539 U.S. 461, 491
(2003) (Kennedy, J., concurring). Section 2 prohibits
practices “imposed or applied … in a manner which
results in a denial or abridgement” of the right to vote.
52 U.S.C. §10301(a) (formerly 42 U.S.C. §1973). When
it is invoked to remove racially discriminatory voting
restrictions, Section 2 enforces citizens’ right under
the Fourteenth Amendment to vote free from racial
discrimination. The statute is uncontroversial when
deployed in this fashion.

5
But Section 2 also has been interpreted to
protect minority voters against “vote dilution.” This
Court has held that a municipality’s use of at-large
districts can “dilute[] minority voting strength by
submerging [minority] voters into the white majority,
denying them an opportunity to elect a candidate of
their choice.” Bartlett, 556 U.S. at 11 (plurality).
Section 2 thus can require States and localities to
draw majority-minority districts. See Shaw v. Hunt,
517 U.S. 899, 906-08 (1996) (“Shaw II”). This focus on
ensuring minority groups can “elect representatives of
their choice”—which significantly increases the role of
race in the design of voting systems—raises serious
constitutional concerns because it expressly classifies
voters by their race. Bartlett, 556 U.S. at 20-21
(plurality). As a consequence, the Court has tried to
interpret Section 2 in a way that prevents it from
violating the Equal Protection Clause.
Specifically, the Court has identified three
“necessary preconditions” for a Section 2 claim that
use of multimember or at-large districts constitutes
actionable vote dilution: “(1) The minority group must
be ‘sufficiently large and geographically compact to
constitute a majority in a single-member district,’ (2)
the minority group must be ‘politically cohesive,’ and
(3) the majority must vote ‘sufficiently as a bloc to
enable it ... usually to defeat the minority’s preferred
candidate.’” Id. (quoting Gingles, 478 U.S. at 50-51,
56). The second and third Gingles factors are
sometimes referred to collectively as “racially
polarized voting.” See Abrams v. Johnson, 521 U.S. 74,
92 (1997). Under Section 2, “only when a party has
established the Gingles requirements does a court

6
proceed to analyze whether a violation has occurred
based on the totality of the circumstances.” Bartlett,
556 U.S. at 11-12 (plurality).
The Court has emphasized the importance of
the first Gingles factor—i.e., that the minority group
be sufficiently large and geographically compact to
constitute a majority in a single-member district—in
ensuring that Section 2 enforces the right to vote
instead of requiring racial gerrymandering. Without
this showing, “there neither has been a wrong nor can
be a remedy,” since a finding of compactness
establishes “that the minority has the potential to
elect a representative of its own choice in some singlemember district.” Growe v. Emison, 507 U.S. 25, 40-41
(1993). Absent this requirement, that is, Section 2
would entitle “minority groups to the maximum
possible voting strength,” Bartlett, 556 U.S. at 16
(plurality), which “causes its own dangers, and they
are not to be courted,” Johnson v. De Grandy, 512 U.S.
997, 1016 (1994).
B.

The California Voting Rights Act

The California Legislature was dissatisfied
with this Court’s interpretation of Section 2 and
wanted to “provide a broader basis for relief from vote
dilution than available under the federal Voting
Rights Act.” Jauregui v. City of Palmdale, 172 Cal.
Rptr. 3d 333, 350 (Cal. Ct. App. 2014). The Legislature
concluded
that
this
Court’s
“[r]estrictive
interpretations” of Section 2, which were adopted to
avoid racial-gerrymandering concerns, were simply
wrong. Assem. Comm. on Judiciary, Analysis of Sen.

7
Bill No. 976 (2001-2002 Reg. Sess.), as amended Apr.
9, 2002, p.2. Paying no heed to this Court’s repeated
warnings about the constitutional concerns with
Section 2, the Legislature decided that “geographical
compactness would not appear to be an important
factor in assessing whether the voting rights of a
minority group have been diluted or abridged by an
at-large election system.” Id. at 3.
The CVRA was enacted in 2001 to “avoid that
problem” from this Court’s jurisprudence. Id. at 2.
The CVRA was expressly designed to “make it
easier to successfully challenge at-large districts”
by eliminating the Gingles precondition that “a
minority community be sufficiently concentrated
geographically to create a district in which the
minority community could elect its own candidate.”
Sen. Rules Com., Off. of Sen. Floor Analyses, 3d
reading analysis of Sen. Bill No. 976 (2001-2002
Reg. Sess.) as amended Jun. 11, 2002, p.4. The
statute overrides the “[r]estrictive interpretations
given to the [federal VRA]” by allowing a plaintiff
to establish “[vote] dilution or abridgement of
minority voting rights” merely “by showing the
[other] two [Gingles] requirements.” Assem. Comm.
on Judiciary, supra, at 2-3.
To that end, the CVRA provides that “[a]n atlarge method of election may not be imposed or
applied in a manner that impairs the ability of a
protected class to elect candidates of its choice or its
ability to influence the outcome of an election, as a
result of the dilution.” Cal. Elec. Code §14027. A
“protected class” is defined as “a class of voters who

8
are members of a race, color, or language minority
group, as this class is referenced and defined in the
federal Voting Rights Act of 1965.” Id. §14026(d); see
52 U.S.C. §10301.
Importantly, “[a] violation … is established if it
is shown that racially polarized voting occurs in
elections for members of the governing body of the
political subdivision or in elections incorporating
other electoral choices by the voters of the political
subdivision.” Cal. Elec. Code §14028(a). “Racially
polarized voting,” in turn, means “voting in which
there is a difference, as defined in case law regarding
enforcement of the federal Voting Rights Act, in the
choice of candidates or other electoral choices that are
preferred by voters in a protected class, and in the
choice of candidates and electoral choices that are
preferred by voters in the rest of the electorate.” Id.
§14026(e).
The CVRA contains additional provisions that
make clear that if racially polarized voting exists, no
other showing is needed to establish a violation. “The
fact that members of a protected class are not
geographically compact or concentrated may not
preclude a finding of racially polarized voting, or a
violation …, but may be a factor in determining an
appropriate remedy.” Id. §14028(c). In addition,
“[p]roof of an intent on the part of the voters or elected
officials to discriminate against a protected class is
not required.” Id. §14028(d). Factors “such as the
history of discrimination … are probative, but not

9
necessary factors to establish a violation of Section
14027 and this section.” Id. §14028(e).
Once there is a finding of racially polarized
voting, the political subdivision must discard its
at-large system. “Upon a finding of a violation of
Section 14027 and Section 14028, the court shall
implement appropriate remedies, including the
imposition of district-based elections, that are tailored
to remedy the violation.” Id. §14029. The CVRA also
makes the political subdivision liable for attorneys’
fees and costs. “In any action to enforce Section 14027
and Section 14028, the court shall allow the prevailing
plaintiff party, other than the state or political
subdivision thereof, a reasonable attorney’s fee … and
litigation expenses including, but not limited to,
expert witness fees and expenses as part of the costs.”
Id. §14030. “Prevailing defendant parties shall not
recover any costs, unless the court finds the action to
be frivolous, unreasonable, or without foundation.” Id.
Finally, the CVRA provides a “safe harbor” to
political subdivisions in violation of the CVRA that
allows them to limit the attorney’s fees they must pay.
Under the CVRA, a prospective plaintiff may not
commence an action until 45 days after providing
written notice to the political subdivision that its
method of conducting elections may violate the CVRA.
Id. §10010(e)(1)-(2). If the political subdivision passes
a resolution “outlining its intention to transition from
at-large to district-based elections, specific steps it
will undertake to facilitate this transition, and an
estimated timeframe for doing so,” then the
prospective plaintiff may not commence an action

10
within 90 days of the resolution’s passage. Id.
§10010(e)(3)(A)-(B). Therefore, a political subdivision
can limit its exposure under the CVRA only by quickly
agreeing to abandon its at-large system and
transitioning to by-district elections. If the political
subdivision capitulates, the prospective plaintiff will
have his or her attorney’s fees “capped at [$30,000].”
Id. §10010(f)(3). This safe harbor gives municipalities
a powerful incentive to abandon at-large voting
systems immediately upon receiving a demand letter,
to avoid the risk of incurring staggering fee awards.
C.

The City of Poway’s abandonment of
at-large voting to comply with the
CVRA

Like many California municipalities, the City
of Poway for decades used an at-large voting system
to elect its City Council. On June 7, 2017, the City
received a certified letter from Kevin Shenkman, a
private attorney, asserting that the City’s at-large
system violated the CVRA. App. 122a, ¶32. According
to Shenkman, “voting within Poway is racially
polarized, resulting in minority vote dilution, and
therefore Poway’s at-large elections violate the
[CVRA].” Id. 122a-23a, ¶33. Shenkman noted that the
CVRA is “different” from the federal Voting Rights Act
“in several key respects, as the [California]
Legislature sought to remedy what it considered
restrictive interpretations given to the federal act.” Id.
123a, ¶33. “The California Legislature dispensed with
the requirement in Gingles that a minority group
demonstrate that it is sufficiently large and
geographically compact to constitute a ‘majority-

11
minority district.’ Rather, the CVRA requires only
that a plaintiff show the existence of racially polarized
voting to establish that an at-large method of election
violates the CVRA, not the desirability of any
particular remedy.” Id.
According to Shenkman, “Poway’s at-large
system dilutes the ability of Latinos (a ‘protected
class’) to elect candidates of their choice or otherwise
influence the outcome of Poway’s council elections.”
Id. ¶34. Unless the City “voluntarily change[d] its atlarge system of electing council members,” he would
“be forced to seek judicial relief.” Id. Shenkman
reminded the City that he had sued “the City of
Palmdale for violating the CVRA,” and that “[a]fter
spending millions of dollars, a district-based remedy
was ultimately imposed upon the Palmdale city
council, with districts that combine all incumbents
into one of the four districts.” Id. Shenkman gave the
City until July 21, 2017 to notify him whether it would
come into compliance with the CVRA. Id.
On June 20, 2017, in response to the Shenkman
letter, the Poway City Council held a closed session to
discuss the threatened CVRA litigation. Id. 123a-24a,
¶35. At the meeting, the City Council directed its staff
to prepare a resolution of intention for establishing
and implementing by-district elections for the City
Council members for consideration at the July 18,
2017 City Council meeting. Id. In recommending that
the City adopt the resolution, the City Attorney
subsequently explained that “the risks and costs
associated with protracted CVRA litigation—
particularly in light of results in all other cities that

12
have fought to retain at-large voting—cannot be
ignored. The public interest may ultimately be better
served by a by-district electoral system if converting
to that system avoids significant attorneys’ fees and
cost award.” Id. 124a, ¶36.
At the July 18 City Council meeting, the City’s
attorney outlined the difficulty in defending CVRA
lawsuits. Id. ¶37. He provided examples of prior
attorney’s fees awards under the CVRA, and he
explained that the CVRA “effectively removed
burdens of proof that exist under the federal Voting
Rights Act,” which meant that “it is virtually
impossible for governmental agencies to defend
against lawsuits brought under the CVRA.” Id. That
was why “cities throughout the State [were]
converting … in the face of these demand letters.” Id.
Each member of the City Council expressed
strong disapproval of the changes that the CVRA was
forcing the City to make. Id. 125a, ¶41.
Councilmember Jim Cunningham explained that “the
[safe-harbor provision] is truly the shield … we are
using to avoid attorney’s fees, and costs, and
protracted litigation.” Id. ¶42. Councilmember Dave
Grosch explained that he had previously supported
by-district elections, but his experience as an at-large
councilmember where he serves and supports the
entire community—and not just one district—
convinced him that at-large elections were better. Id.
125a-26a, ¶43. In reference to Shenkman’s letter, he
added, “I really hate that the City is … being told to
do this by someone who doesn’t live in Poway,” and he

13
made clear that the letter was the only reason the City
was changing to by-district elections. Id.
Councilmember Mullin concluded: “We’ve gone
through denial, and we’ve gone through anger, and
now we’re into acceptance. So, to those of you in the
audience who think that we should be fighting this,
we concur, we were there awhile back as well. I have
no illusions that this will lead to better government
for our city. I’m pretty proud of the job we do as we are
now constituted … But having said all of that, again
we have a gun to our heads and we have no choice.”
Id. 126a, ¶44.
Deputy Mayor Barry Leonard added, “I get it. I
hate it but I get it.” Id. ¶45. Under the existing
at-large system, City Council members “respond to
everybody in the City. We don’t pick certain people in
certain neighborhoods and say we’ll treat them any
differently. There is no evidence of that whatsoever.
So, I feel like we’re already being found guilty of
something and we don’t have a chance to prove our
innocence. It’s just the deck is stacked. So, rather than
spend a million dollars of the taxpayers’ money, we
roll over to these bullies.” Id. Mayor Steve Vaus
concluded, “I’ll just echo that this council does a
remarkable job [with at-large elections]. … But we’ve
got to do what we’ve got to do. And job one is to protect
the treasure of our constituents. And it’s their money
we’d be putting at risk [with litigation] and none of us
are willing to do that.” Id. 127a, ¶46.
The City Council adopted a resolution that set
forth its intention to transition from at-large to by-

14
district elections. Id. ¶47. According to the Resolution,
“the City [had] received a letter threatening action
under the California Voting Rights Act,” and it had
“determined that it is in the best interest of the City
to move from its current at-large electoral system to a
by-district election for members of the City Council, in
furtherance of the purposes of California Voting
Rights Act.” Id.
On October 3, 2017, the Council adopted an
ordinance enacting Map 133, an election plan that
divided the City into four districts. Id. 127a-28a, ¶¶49,
51. In voting for the ordinance, councilmember Mullin
reiterated, “I don’t want my affirmative vote on this
item to be construed in any way as my support for this
notion for district elections.… I will support the
motion because we have no choice not because I think
district elections are what’s best for the city.” Id. 128a,
¶51.
D.

Proceedings below

Petitioner Don Higginson is a resident of Poway
and a registered voter. Under the longstanding atlarge system, Higginson could vote for all four City
Council seats, but under the new by-district plan he is
able to vote only in District 2. Id. 113a-14a, ¶7.
In October 2017, Higginson filed a complaint
against the California Attorney General and the City
of Poway, seeking to have the CVRA and Map 133
declared unconstitutional and to enjoin their
enforcement. Shortly thereafter, Higginson moved for
a preliminary injunction seeking interim relief for the

15
2018 election cycle, and the Attorney General filed a
motion to dismiss. Docs. 11, 33. For its part, the City
of Poway took a “neutral position,” stating that it
would not “defend the constitutionality of the CVRA
or otherwise actively support or oppose” Higginson’s
motion for a preliminary injunction. Doc. 16, at 1.
Numerous California municipalities that had faced (or
were facing) similar predicaments filed amicus briefs
in support of the preliminary injunction. See Doc. 49
(Mission Viejo); Doc. 53 (San Gabriel Valley Council of
Governments, Arcadia, Barstow, Fullerton, Glendora,
Huntington Beach, Murrieta, South Pasadena, and
West Covina).
On February 23, 2018, the district court denied
Higginson’s motion for a preliminary injunction and
granted the Attorney General’s motion to dismiss on
the ground that Higginson lacked Article III standing
to challenge the CVRA and Map 133. App. 63a-93a.
Higginson immediately appealed. Given the need for
a prompt decision before the upcoming election, the
Ninth Circuit granted Higginson’s motion to expedite
and reversed the dismissal of Higginson’s claims on
June 14, 2018. See App. 59a-62a. The Ninth Circuit
held that Higginson had standing to challenge the
City’s adoption of Map 133 and to press “his argument
that the City violated his rights because the CVRA,
with which the City sought to comply, is
unconstitutional under the Equal Protection Clause.”
Id. 61a. The Ninth Circuit also reversed the dismissal
of the claims against the Attorney General, concluding
that he was a proper defendant in the case. Id. 61a62a.

16
On remand, the district court again denied
Higginson’s motion for preliminary injunction, which
caused the November 2018 election to go forward
under Map 133. The district court then granted the
Attorney General’s motion to dismiss the complaint.
App. 10a-31a. The court held that Map 133 and the
CVRA do not violate the Equal Protection Clause
because, in its view, the CVRA does not “classif[y] any
voter according to that voter’s membership in a
particular racial group.” Id. 28a. As a result,
“Higginson’s allegations do not support the inference
that state actors—those who passed the CVRA, or
those who implemented it through Map 133—
classified Higginson into a district because of his
membership in a particular racial group.” Id.
The Ninth Circuit affirmed. In an unpublished,
four-page opinion, the court held that Higginson’s
complaint failed to state a claim because he alleged
“no facts concerning the City’s motivations for placing
him or any other Poway voter in any particular
electoral district” and because the CVRA does not
“mandate[] how electoral districts can or should be
drawn.” Id. 3a-4a. The Ninth Circuit acknowledged
that “a finding of racially polarized voting triggers the
application of the CVRA,” but found this requirement
permissible since “it is well settled that governments
may adopt measures designed ‘to eliminate racial
disparities through race-neutral means.’” Id. 4a
(quoting Texas Dep’t of Hous. & Cmty. Affairs v.
Inclusive Cmtys. Project, Inc., 135 S. Ct. 2507, 2524
(2015)). Because the court concluded that strict
scrutiny did not apply, it held that Higginson’s
complaint was properly dismissed. Id.

17
REASONS FOR GRANTING THE PETITION
Review is warranted because the Ninth Circuit
“decided an important question of federal law that has
not been, but should be, settled by this Court.” Sup.
Ct. Rule 10(c). This case presents an important
question under the Equal Protection Clause: whether
a State can use the mere existence of racially polarized
voting to force localities to abandon at-large electoral
systems. The Ninth Circuit disregarded longstanding
equal-protection principles and this Court’s decisions
concerning the use of race in districting in upholding
the CVRA under rational-basis review. The statute is
flagrantly unconstitutional, and this Court’s
intervention is warranted to prevent California from
evading the important limits on the use of race in
government decisionmaking.
I.

The constitutional issues presented in this
case are critically important.

The Equal Protection Clause of the Fourteenth
Amendment provides that no State shall “deny to any
person within its jurisdiction the equal protection of
the laws.” U.S. Const. amdt. 14, §1. “The Framers of
the Fourteenth Amendment desired to place clear
limits on the States’ use of race as a criterion for
legislative action, and to have the federal courts
enforce those limitations.” Shaw II, 517 U.S. at 908
(cleaned up). “At the heart of the Constitution’s
guarantee of equal protection lies the simple
command that the Government must treat citizens as
individuals, not as simply components of a racial,

18
religious, sexual or national class.” Miller, 515 U.S. at
911 (citation omitted).
The harms that occur from improper race-based
decision-making are well documented. “Distinctions
between citizens solely because of their ancestry are
by their very nature odious to a free people.’” Rice v.
Cayetano, 528 U.S. 495, 517 (2000) (quoting
Hirabayashi v. United States, 320 U.S. 81, 100 (1943)).
“Race-based assignments embody stereotypes that
treat individuals as the product of their race,
evaluating their thoughts and efforts—their very
worth as citizens—according to a criterion barred to
the Government by history and the Constitution.”
Miller, 515 U.S. at 912 (citation omitted). That is why
“any person, of whatever race, has the right to demand
that any governmental actor subject to the
Constitution justify any racial classification
subjecting that person to unequal treatment under
the strictest of judicial scrutiny.” Gratz v. Bollinger,
539 U.S. 244, 270 (2003) (citation omitted).
These same equal protection principles govern
a State’s decisions regarding elections. Miller, 515
U.S. at 905. The harms that flow from racial sorting
“include being personally subjected to a racial
classification, as well as being represented by a
legislator who believes his primary obligation is to
represent only the members of a particular racial
group.” Alabama Legislative Black Caucus v.
Alabama, 575 U.S. 254, 263 (2015) (cleaned up). The
Court thus has not hesitated to find electoral systems
that violate these principles to be unconstitutional.
See, e.g., Cooper, 137 S. Ct. 1455 (North Carolina

19
congressional districts); Bethune-Hill v. Virginia State
Bd. of Elections, 137 S. Ct. 788 (2017) (Virginia House
of Delegates districts); Alabama Legislative Black
Caucus, 575 U.S. 254 (Alabama House of
Representatives and Senate districts).
The Court should be equally concerned about
the use of race in districting at the local level. “[L]ocal
assemblies of citizens constitute the strength of free
nations.” 1 Alexis de Tocqueville, Democracy in
America 60 (Henry Reeve trans., Colonial Press 1899).
Indeed, “without the spirit of municipal institutions,
[a nation] cannot have the spirit of liberty.” Id. Local
governments are responsible for law enforcement,
public education, libraries, sanitation, fire protection,
streets, local transportation, sewage, building codes,
zoning, parks and recreation, and countless other
basic functions of government. Municipalities, in sum,
tend to “all those personal interests and familiar
concerns to which the sensibility of individuals is [the
most] immediately awake.” The Federalist No. 17, at
107 (Alexander Hamilton) (Jacob E. Cooke ed., 1961).
California’s decision to make racially polarized
voting the only factor in determining how
municipalities may structure themselves politically is
troubling. To begin, racially polarized voting—in
which the race of voters tends to correlate with the
selection of certain candidates—“is not evidence of
unconstitutional discrimination, [and] is not state
action.” Nw. Austin Mun. Utility Dist. No. One v.
Holder, 557 U.S. 193, 228 (2009) (Thomas, J.,
concurring). It is instead the aggregated effect of
individual political choices. Indeed, racially polarized

20
voting does not even prove that political preferences
are being driven by race. There are many reasons
besides race that might lead to racially polarized
voting, such as voters’ “education, economic status, or
the community in which they live.” Shaw I, 509 U.S.
at 647. It is, by itself, simply not one of those rare and
grave acts of discrimination that would permit the
sorting of voters by race.
The CVRA also assumes that race is the only
factor motivating a person’s voting and thus reinforces
pernicious stereotypes. As this Court has recognized,
“a racial gerrymander may exacerbate the very
patterns of racial bloc voting that majority-minority
districting is sometimes said to counteract.” Id. at 648.
Forcing municipalities to abandon at-large elections
because votes are being cast along racial lines
“reinforces the perception that members of the same
racial group … think alike, share the same political
interests, and will prefer the same candidates at the
polls.” Id. at 647. “If our society is to continue to
progress as a multiracial democracy,” however, “it
must recognize that the automatic invocation of race
stereotypes retards that progress and causes
continued hurt and injury.” Edmonson v. Leesville
Concrete Co., Inc., 500 U.S. 614, 630-31 (1991). This is
why strict scrutiny applies to all racially-motivated
laws. See, e.g., Gratz, 539 U.S. at 270; Cooper, 137
S. Ct. at 1464.
It is problematic enough that Section 2 of the
Voting Rights Act is employed so that minority voters
are guaranteed the ability “to elect a candidate of their
choice.” Bartlett, 556 U.S. at 11 (plurality); 52 U.S.C.

21
§10301(b). Because the Constitution prohibits only
purposeful racial discrimination, City of Mobile v.
Bolden, 446 U.S. 55, 62 (1980), there is a serious
question whether Congress’s enforcement powers
extend to mere disparate impact, Board of Trs. of
University of Alabama v. Garrett, 531 U.S. 356, 37274 (2001). That is why the Court has gone to great
lengths to construe Section 2 more narrowly. See
Bartlett, 556 U.S. at 15, 21 (plurality); Growe, 507 U.S.
at 40-41; LULAC v. Perry, 548 U.S. 399, 446 (2006)
(Kennedy,
concurring)
(explaining
that
an
interpretation of Section 2 that would “infuse race into
virtually every redistricting” would raise “serious
constitutional questions”); Johnson, 512 U.S. at 102829 (Kennedy, J., concurring in part and concurring in
the judgment).
These serious constitutional concerns all have
come to pass in California. Indeed, the City of Poway’s
abandonment of its at-large system in the face of
allegations of racially polarized voting is not an
isolated event. Nearly 200 political subdivisions have
changed to by-district elections as a result of the
CVRA, including 131 school districts, 28 cities, 1
county, 27 community college districts, and 8 other
special districts. See Updated Counts of CVRA-Driven
Changes, National Demographics Corporation (last
visited Mar. 31, 2020), https://bit.ly/2J2gaGc. And this
number is continuing to grow. In March 2020 alone,
numerous municipalities were in the process of
transitioning from at-large districts to by-district
elections because of the CVRA, including Santa

22
Clarita,1 Malibu City,2 the City of Napa,3 the South
Coast Water District,4 the Cabrillo Unified School
District,5 the City of Malibu,6 Palm Desert,7 the Napa
Valley Unified School District,8 and the Chico Unified
School District.9

1 Perry Smith, Santa Clarita to Consider Move to DistrictBased
Elections,
The
Signal
(Mar.
18,
2020),
https://bit.ly/2UotEkz.

Public Hearings About Proposed Move to District
Elections in Malibu, The Patch (Mar. 14, 2020),
https://bit.ly/2QwqzOu.
2

Carly Graf, First Draft Maps Suggest Boundaries for
New Napa City Council Districts, Nava Valley Register (Mar. 13,
2020), https://bit.ly/33u6w8G.
3

Bradley Zint, SCWD Mulls Switch to By-District
Elections, Laguna Beach Independent (Mar. 13, 2020),
https://bit.ly/2WsLKEJ.
4

Sarah Wright, School Board to Finalize Redistricting,
Half Moon Bay Review (Mar. 11, 2020), https://bit.ly/3de9WAP.
5

Public Hearings Regarding District Elections, Canyon
News (Mar. 10, 2020), https://bit.ly/2QrzTTG.
6

Sherry Barkas, Coronavirus: Palm Desert Residents
Can Telephone Comments to City Council During Today's
Meeting, Palm Springs Desert Sun (Mar. 9, 2020),
https://bit.ly/2xfdVwj.
7

Howard Yune, Napa School District Tries to Garner
Public Input on New Voting System as Coronavirus Keeps People
Home,
Napa
Valley
Register
(Mar.
30,
2020),
https://bit.ly/2yivGLL.
8

Natalie Hanson, School Board Talks District Elections
in Special Virtual Meeting, Enterprise-Record (Mar. 30, 2020),
https://bit.ly/343qBTp.
9

23
Indeed, not even the recent COVID-19
pandemic can slow the race-based changes forced by
the CVRA. The City of Santa Clarita, for example, has
been holding hearings to transition to by-district
elections even though the city “is primarily focused on
the response to [the coronavirus] and ensuring that all
of our vital city services are still operating.” Perry
Smith, Santa Clarita to Consider Move to DistrictBased Elections, The Signal (Mar. 18, 2020),
https://bit.ly/2UotEkz. The CVRA has forced the city
to hold hearings and draw new maps to transition to
a by-district system—even though the process is
“taking away … our time from our current efforts” at
protecting the city’s residents. Id.
That so many municipalities are abandoning
their at-large districts is not surprising. There is a
“small cottage industry of lawyers and advocacy
groups” dedicated to “suing jurisdictions under the
[CVRA].” Thy Vo, The Accidental Advocate, Voice of
OC (Sept. 12, 2016), https://bit.ly/33XsPnq. And it is
“virtually impossible” for political subdivisions to
prevail in a CVRA lawsuit. App. 36a-37a. Those that
try have been forced to pay staggering attorney’s fees,
including, among others, Palmdale ($4.7 million),
Modesto ($3 million), Anaheim ($1.2 million), Whittier
(more than $1 million), and Santa Barbara
($600,000).10 Countless municipalities will continue to
See Douglas Johnson, The California Voting Rights Act
and Districting: The Demographer’s Perspective, National
Demographics
Corporation
at
5
(May
9,
2016),
https://bit.ly/39awfnW; City Council Staff Report, City of Citrus
Heights at 1-4 (Jan. 10, 2019), https://bit.ly/2UjaUDa.
10

24
be forced to abandon their at-large electoral systems
because of the CVRA’s race-based mandates absent
the Court’s intervention.
II.

The decision below contravenes the Equal
Protection Clause and this Court’s
precedents.

Not only is the question presented important,
but the Ninth Circuit’s decision is plainly wrong. The
Equal Protection Clause bars “racial gerrymanders in
legislative districting plans.” Cooper, 137 S. Ct. at
1463. Thus, “if racial considerations predominated
over others, the design of the district must withstand
strict scrutiny.” Id. at 1464; see also Shaw II, 517 U.S.
at 907 (“[S]trict scrutiny applies when race is the
‘predominant’ consideration in drawing the district
lines such that ‘the legislature subordinates
traditional race-neutral districting principles … to
racial considerations.’” (quoting Miller, 515 U.S. at
916)). Once strict scrutiny is triggered, the burden
“shifts to the State to prove that its race-based sorting
of voters serves a ‘compelling interest’ and is ‘narrowly
tailored’ to that end.” Cooper, 137 S. Ct. at 1464.
Race unquestionably predominated over all
other factors in the enactment of Map 133. Indeed,
race was the only factor in the City’s decision to
abandon its at-large voting system in favor of
by-district elections. The City was required, as a
matter of state law, to comply with the CVRA. The
CVRA, in turn, commands California localities
(including the City) to abandon at-large systems upon
a showing of racially-polarized voting—period. See

25
Cal. Elec. Code §14027 (“An at-large method of
election may not be imposed or applied in a manner
that impairs the ability of a protected class … to
influence the outcome of an election.”); id. §14028(a)
(“A violation of Section 14027 is established if it is
shown that racially polarized voting occurs in
elections for members of the governing body of the
political subdivision.”); id. §14029 (“Upon a finding of
a violation of Section 14027 and Section 14028, the
court shall implement appropriate remedies,
including the imposition of district-based elections.”).
In other words, the locality must change its electoral
system solely because the race of voters tends to
correlate with the selection of certain candidates. Id.;
see id. §14026(e); Gingles, 478 U.S. at 74. It is difficult
to imagine a law more pervasively dominated by racial
considerations than the CVRA.
For Map 133 to withstand equal-protection
review, then, the CVRA must pass strict scrutiny. It
cannot do so. To start, the California Attorney General
has never attempted to defend the CVRA on strict
scrutiny grounds. For good reason. California does not
have a compelling interest in forcing localities to adopt
new electoral systems based on the mere existence of
racially polarized voting. There is a serious
constitutional question as to whether Section 2 of the
Voting Rights Act can require that minority groups
have “the potential to elect a representative of [their]
own choice in some single-member district.” Growe,
507 U.S. at 40; supra 4-6. But a statute that focuses
only on racially polarized voting does not even pursue
that anti-vote-dilution interest. The CVRA instead
entitles “minority groups to the maximum possible

26
voting strength.” Bartlett, 556 U.S. at 16 (plurality).
And maximizing the voting power of minority groups
is not a compelling interest. See Miller, 515 U.S. at
926; Abrams, 521 U.S. at 85-86 (1997) (explaining that
Miller held that the Department of Justice’s “maxblack policy” violated the Equal Protection clause
because of its “entirely race-focused approach to
redistricting”).
Nor is the CVRA narrowly tailored to remedy
racial discrimination in voting. In particular, the
CVRA does not include a limitation akin to the one in
Section 2 of the Voting Rights Act, which requires that
the minority group be sufficiently “compact” such that
it would have “the potential to elect a representative
of its own choice in some single-member district.”
Growe, 507 U.S. at 40. “Without such a showing, ‘there
neither has been a wrong nor can be a remedy.’”
Bartlett, 556 U.S. at 15 (plurality) (quoting Growe, 507
U.S. at 41). Eliminating the compactness
requirement, in other words, is not narrowly tailored
to eliminate discrimination in voting because it would
“unnecessarily infuse race into virtually every
redistricting.” Id. at 21 (citation omitted).
The Ninth Circuit ignored these core principles
of the Equal Protection Clause, narrowly focusing on
whether Higginson had alleged that race was the
predominant “motivation[] for placing him or any
other Poway voter in any particular electoral district.”
App. 3a. But that conflates the elements of an equal
protection violation with the evidence needed to prove
the violation. Challengers “may show predominance
‘either through circumstantial evidence of a district’s

27
shape and demographics or more direct evidence going
to legislative purpose.’” Bethune-Hill, 137 S. Ct. at 798
(quoting Miller, 515 U.S. at 916). “Race may
predominate,” the Court has explained, “even when a
reapportionment plan respects traditional principles,”
because “the Equal Protection Clause does not
prohibit misshapen districts. It prohibits unjustified
racial classifications.” Id. (quoting Shaw, 517 U.S. at
907). Challengers can “establish racial predominance
in the absence of an actual conflict by presenting
direct evidence of the legislative purpose and intent or
other compelling circumstantial evidence.” Id. at 799.
For these reasons, strict scrutiny applies “if
‘[r]ace was the criterion that, in the State’s view, could
not be compromised,’ and race-neutral considerations
‘came into play only after the race-based decision had
been made.’” Id. at 798. That is exactly the way the
CVRA works. The CVRA focuses exclusively on race—
by putting voters into racial groups and imposing
liability on cities when those groups tend to vote for
different candidates. Under the statutory scheme,
such “racially polarized voting” is the sole reason why
a city like Poway may be forced to discard its at-large
electoral map. Whether “race-neutral considerations”
drive the way municipalities draw their district lines
after they have been found to violate the CVRA is
irrelevant; any such line-drawing comes “into play
only after the race-based decision ha[s] been made.”
See id. at 798-99 (rejecting argument that “race does
not have a prohibited effect on a district’s lines if the
legislature could have drawn the same lines in
accordance with traditional criteria”). Because strict
scrutiny applies “if race for its own sake is the

28
overriding reason for choosing one map over others,”
id. at 799, it applies to the decision to choose a bydistrict map over an at-large map solely for racial
reasons.
Moreover, there is “direct evidence of legislative
purpose and intent” that confirms what the CVRA’s
text makes explicit. Id. This Court’s jurisprudence
interpreting Section 2 of the Voting Rights Act is
grounded in principles of constitutional avoidance,
ensuring that any use of race remains within
constitutional constraints. Yet the California State
Legislature expressly sought to override those
constraints in order to “provide a broader basis for
relief from vote dilution than available under the
federal Voting Rights Act.” Jauregui, 172 Cal. Rptr.
3d at 350. The CVRA was intentionally designed to
“make it easier to successfully challenge at-large
districts” by eliminating the precondition that “a
minority community be sufficiently concentrated
geographically to create a district in which the
minority community could elect its own candidate.”
Sen. Rules Comm., supra, at 4. The CVRA thus
overrides the “[r]estrictive interpretations given to the
federal [VRA]” by allowing a plaintiff to establish
“[vote] dilution or abridgment of minority voting
rights” merely by showing racially polarized voting.
Assem. Com. on Judiciary, supra, at 2-3. The
legislature made clear, then, that it wanted the CVRA
to make race a more prominent factor than does the
federal Voting Rights Act, notwithstanding the
serious constitutional concerns that has informed the
Court’s interpretation of the Voting Rights Act.

29
The Ninth Circuit thus was wrong to suggest
that the CVRA was “race-neutral” and merely
operating “with consciousness of race.” App. 4a. Race
is the entire raison d’etre of the statutory scheme.
Racial considerations are the sole trigger for the
CVRA’s draconian remedies, and the statute was
expressly enacted to override federal jurisprudence
that carefully limits the role of race in designing
electoral systems. It blinks reality to brush all of this
aside as a mere “consciousness of race.” Id. Map 133
and the CVRA violate the Equal Protection Clause.
III.

This case is an ideal vehicle for resolving
the question presented.

This case presents an ideal vehicle for the Court
to address the question presented. Most important,
the legal issue is squarely presented. The sole basis
for the Ninth Circuit’s decision was that the California
Voting Rights Act is constitutional. According to the
court, Higginson’s complaint failed to state a claim
because the CVRA does not distribute “burdens or
benefits” based on racial classifications, and racially
polarized voting merely “triggers the application” of
the CVRA’s remedies. App. 4a. Granting the petition
will allow the Court to cleanly address the
constitutionality of the CVRA.
Moreover, there is no reason to wait for further
developments in the lower courts. There obviously is
no chance for a circuit split because this is a challenge
to a California-specific law. Both the federal and state
courts—which provided weak reasoning and never
grappled with these difficult racial-gerrymandering

30
issues—have made clear that future challenges to the
CVRA will fail. App. 3a-4a; Sanchez v. City of Modesto,
51 Cal. Rptr. 3d 821 (Cal. Ct. App. 2006). Meanwhile,
the financial strain that challenging the law imposes
creates a powerful incentive for municipalities to
surrender. Supra 11-14, 21-24. There is thus an
urgent need for the Court to decide this issue now.
Finally, that the decision below is unpublished
should “carr[y] no weight in [the Court’s] decision to
review the case.” C.I.R. v. McCoy, 484 U.S. 3, 7 (1987);
see, e.g., Ricci v. DeStefano, 557 U.S. 557, 576 (2009).
This is for good reason. “An unpublished opinion may
have a lingering effect in the Circuit and surely is as
important to the parties concerned as is a published
opinion.” Smith v. United States, 502 U.S. 1017, 1020
n.* (1991) (Blackmun, O’Connor & Souter, JJ.,
dissenting). And a circuit court decision can be wrong,
and worthy of reversal, “regardless of nonpublication
and regardless of any assumed lack of precedential
effect.” C.I.R., 484 U.S. at 7.
Further, a rule against reviewing unpublished
decisions would create “a convenient means to prevent
review.” Smith, 507 U.S. at 1020 n.*; see Plumley v.
Austin, 135 S. Ct. 828, 831 (2015) (Thomas & Scalia,
JJ., dissenting) (that “the decision below is
unpublished … is yet another disturbing aspect of the
Fourth Circuit’s decision, and yet another reason to
grant review”). That concern exists here. The
constitutionality of the CVRA is a weighty issue.
Yet the Ninth Circuit disposed of the case with a fourpage unpublished opinion. App. 1a-4a. The Ninth
Circuit’s decision to treat this case so dismissively

31
is unfortunate. See Rick Hasen, Election Law Blog
(Dec. 4, 2019), https://bit.ly/2U3PnQ5 (expressing
“surprise[] that [Higginson’s] arguments did not get
greater analysis” from the Ninth Circuit in this “major
case” challenging the CVRA).
Higginson’s claims deserved better from the
lower courts. But because the Ninth Circuit “failed to
grapple with the questions of exceptional importance
raised in this [case],” if Higginson is “to obtain such
an opinion from a reviewing court, [he] must now look
to the Supreme Court.” Ricci v. DeStefano, 530 F.3d
88, 101 (2d Cir. 2008) (Cabranes, J., dissenting from
denial of rehearing en banc). His claims are worthy of
that review.
CONCLUSION
The Court should grant the petition for a writ
of certiorari.
Respectfully submitted.
William S. Consovoy
Counsel of Record
Jeffrey M. Harris
J. Michael Connolly
Bryan K. Weir
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Petitioner

APPENDIX

1a
A
APPENDIX A —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED DECEMBER 4, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-55275
D.C. No. 3:17-cv-02032-WQH-MSB
DON HIGGINSON,
Plaintiff-Appellant,
v.
XAVIER BECERRA, IN HIS OFFICIAL
CAPACITY AS ATTORNEY GENERAL
OF CALIFORNIA; CITY OF POWAY,
Defendants-Appellees,
CALIFORNIA LEAGUE OF UNITED LATIN
AMERICAN CITIZENS; et al.,
Intervenor-Defendants-Appellees.
MEMORANDUM*
Appeal from the United States District Court
for the Southern District of California
William Q. Hayes, District Judge, Presiding

2a
Appendix A
Argued and Submitted November 5, 2019
Pasadena, California
Before: MURGUIA and HURWITZ, Circuit Judges, and
GUIROLA,** District Judge.
Don Higginson appeals the district court’s dismissal
on remand of his complaint for failure to state a claim.
See Higginson v. Becerra, 363 F. Supp. 3d 1118 (S.D.
Cal. 2019).1 We have jurisdiction under 28 U.S.C. § 1291.
Agreeing with the decision of the California Court of
Appeal in Sanchez v. City of Modesto, 145 Cal. App. 4th
660, 51 Cal. Rptr. 3d 821 (Cal. Ct. App. 2006), we affirm.
In June 2017, the City of Poway, California received
a letter from a private attorney threatening a lawsuit,
claiming the City had violated the California Voting Rights
Act (“CVRA”), Cal. Elec. Code §§ 14025-32. In response,
the City Council determined that instead of defending the
threatened litigation and incurring significant expenses in
doing so, it would adopt a resolution that would transition
the City from at-large to district-based elections.
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Louis Guirola, Jr., United States District
Judge for the Southern District of Mississippi, sitting by
designation.
1 We previously held that Plaintiff has standing to assert
an as-applied challenge to the City’s adoption of Map 133, the
district-based electoral map adopted by the City in October 2017.
Higginson v. Becerra, 733 Fed. Appx. 402, 403 (9th Cir. 2018).

3a
Appendix A
Higginson’s complaint alleges that he, a resident
of the City, lives in a racially gerrymandered electoral
district because: (1) “[t]he City would not have switched
from at-large elections to single-district[] elections but
for the prospect of liability under the CVRA;” and (2)
“[t]he CVRA makes race the predominant factor in
drawing electoral districts” by compelling a political
subdivision to “abandon its at-large system based on the
existence of racially polarized voting and nothing more.”
Reviewed de novo and viewed in the light most
favorable to him, the allegations of the operative complaint
fail to plausibly state that Higginson is a victim of racial
gerrymandering. See Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009); In re Nat’l
Football League’s Sunday Ticket Antitrust Litig., 933
F.3d 1136, 1149 (9th Cir. 2019) (stating standard of review).
Racial gerrymandering occurs when a political subdivision
“intentionally assign[s] citizens to a district on the basis of
race without sufficient justification.” Abbott v. Perez, 138
S. Ct. 2305, 2314, 201 L. Ed. 2d 714 (2018) (citing Shaw
v. Reno, 509 U.S. 630, 641, 113 S. Ct. 2816, 125 L. Ed. 2d
511 (1993)). Plaintiff alleges no facts concerning the City’s
motivations for placing him or any other Poway voter in
any particular electoral district. See Bethune-Hill v. Va.
State Bd. of Elections, 137 S. Ct. 788, 797, 197 L. Ed. 2d 85
(2017) (“[A] plaintiff alleging racial gerrymandering bears
the burden ‘to show . . . that race was the predominant
factor motivating the legislature’s decision to place a
significant number of voters within or without a particular
district.’”) (quoting Miller v. Johnson, 515 U.S. 900, 916,
115 S. Ct. 2475, 132 L. Ed. 2d 762 (1995)). Similarly, he

4a
Appendix A
fails to cite any language in the CVRA that mandates how
electoral districts can or should be drawn. See Cal. Elec.
Code §§ 14025-32.
The operative complaint does not allege that the City
or the CVRA “distribute[d] burdens or benefits on the
basis of individual racial classifications.” Parents Involved
in Cmty. Sch. v. Seattle Sch. Dist. No. 1, 551 U.S. 701,
720, 127 S. Ct. 2738, 168 L. Ed. 2d 508 (2007). Although a
finding of racially polarized voting triggers the application
of the CVRA, it is well settled that governments may
adopt measures designed “to eliminate racial disparities
through race-neutral means.” Texas Dep’t of Hous. &
Cmty. Affairs v. Inclusive Cmtys. Project, Inc., 135 S. Ct.
2507, 2524, 192 L. Ed. 2d 514 (2015); see also Bush v. Vera,
517 U.S. 952, 958, 116 S. Ct. 1941, 135 L. Ed. 2d 248 (1996)
(plurality) (“Strict scrutiny does not apply merely because
redistricting is performed with consciousness of race.”).
Because Plaintiff’s allegations do not trigger strict
scrutiny, see Cooper v. Harris, 137 S. Ct. 1455, 1464, 197
L. Ed. 2d 837 (2017), and he does not contend the City
lacked a rational basis for its actions, see FCC v. Beach
Commc’ns, Inc., 508 U.S. 307, 314-15, 113 S. Ct. 2096, 124
L. Ed. 2d 211 (1993), he fails to state a claim for relief.
He also therefore was not entitled to injunctive relief. See
Short v. Brown, 893 F.3d 671, 675-76 (9th Cir. 2018).
AFFIRMED.

5a
Appendix B of the United
Appendix B — JUDGMENT
States District Court for the SOUTHERN
DISTRICT OF CALIFORNIA, FILED
MARCH 5, 2019
United States District Court
SOUTHERN DISTRICT OF CALIFORNIA
Civil Action No. 17-cv-02032-WQH-MSB
Don Higginson,
Plaintiff,
v.
Xavier Becerra, in his official capacity
as Attorney General of California;
City of Poway; see attachment,
Defendant.
JUDGMENT IN A CIVIL CASE
Decision by Court. This action came to trial or hearing
before the Court. The issues have been tried or heard and
a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED:
Pursuant to the request of Plaintiff Don Higginson, the
Complaint is dismissed with prejudice. Final judgment
in this matter is entered against Plaintiff and in favor of
all defendants.

6a
Appendix B
Date: 3/5/19
CLERK OF COURT
JOHN MORRILL, Clerk of Court
By: s/ A. Garcia			
			
A. Garcia, Deputy

7a
C the UNITED
Appendix C —Appendix
ORDER of
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF CALIFORNIA, FILED
MARCH 5, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
Case No.: 17cv2032-WQH-MSB
DON HIGGINSON,
Plaintiff,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants,
v.
CALIFORNIA LULAC, HIRAM SOTO, JUDY KI,
JACQUELINE CONTRERAS, XAVIER FLORES,
Intervenor-Defendants.
ORDER

8a
Appendix C
HAYES, Judge:
The matter before the Court is the status of Plaintiff’s
claims against Defendant City of Poway and IntervenorDefendants California LULAC, Hiram Soto, Judy Ki,
Jacqueline Contreras, and Xavier Flores.
On February 4, 2019, the Court granted the Motion
to Dismiss filed by Defendant Attorney General Xavier
Becerra, stating that “Higginson’s allegations do not
support the inference that state actors—those who passed
the CVRA, or those who implemented it through Map
133—classified Higginson into a district because of his
membership in a particular racial group.” (ECF No. 127
at 13). The Court ordered, “Plaintiff shall file any motions
for leave to file an amended complaint, or show cause why
the Complaint (ECF No. 1) should not be dismissed as
to Defendant City of Poway and Intervenor-Defendants
California LULAC, Hiram Soto, Judy Ki, Jacqueline
Contreras, and Xavier Flores, within thirty days of the
date of this Order.” Id. at 15. On February 18, 2019,
Plaintiff filed a response to the Court’s Order. (ECF No.
128). Plaintiff states,
Plaintiff does not intend to file a motion for
leave to amend the complaint. . . . [A]lthough
Plaintiff disagrees with the Court’s ruling,
Plaintiff acknowledges that the Court’s holding
forecloses his claims against the City and
Intervenor-Defendants. . . . Th[e] reasoning
would apply with equal force to Plaintiff’s claims
against the City and Intervenor-Defendants.

9a
Appendix C
Because any further litigation against the
City or Intervenor-Defendants would be futile
in light of the Court’s ruling on the Attorney
General’s motion to dismiss, the Court should
dismiss the claims against the remaining
Defendants and enter final judgment, thereby
allowing Plaintiff to seek review in the Ninth
Circuit against all Defendants.
Id. at 2–3.
The Ninth Circuit Court of Appeals has held that a
plaintiff who believes a complaint is adequately pled and
chooses not to amend following dismissal may obtain an
appealable final judgment by “filing in writing a notice
of intent not to file an amended complaint.” Edwards v.
Marin Park, Inc., 356 F.3d 1058, 1064 (9th Cir. 2004)
(citing WMX Technologies, Inc. v. Miller, 104 F.3d
1133, 1135 (9th Cir. 1997)). The request for entry of final
judgment is granted.
IT IS HEREBY ORDERED that pursuant to the
request of Plaintiff Don Higginson, the Complaint (ECF
No. 1) is dismissed with prejudice and the Clerk of Court
is directed to enter final judgment in this matter against
Plaintiff and in favor of all defendants.
Dated: March 5, 2019
/s/					
Hon. William Q. Hayes
United States District Court

10a
Appendix d —Appendix
ORDER D
of the united
states DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF CALIFORNIA, FILED
FEBRUARY 4, 2019
United States District Court
Southern District of California
Case No.: 17cv2032-WQH-MSB
DON HIGGINSON,
Plaintiff,
v.
Xavier Becerra, in his official capacity
as Attorney General of California;
City of Poway,
Defendants,
v.
California LULAC, Hiram Soto, Judy Ki,
Jacqueline Contreras, Xavier Flores,
Intervenor-Defendants.

11a
Appendix D
ORDER
HAYES, Judge:
The matter before the Court is the Motion to Dismiss
filed by Defendant Xavier Becerra. (ECF No. 103).
I.	PROCEDURAL BACKGROUND
On October 4, 2017, Higginson initiated this action by
filing the Complaint against Defendant Xavier Becerra,
Attorney General of California (the Attorney General),
and Defendant the City of Poway. (ECF No. 1). Higginson
brings this action pursuant to 42 U.S.C. §§ 1983 and
1988 for violation of his Fourteenth Amendment equal
protection rights. Higginson claims that the City of Poway
adopted by-districtd elections in order to comply with
the California Voting Rights Act (CVRA), and that such
elections “are the product of racial gerrymandering.” Id.
¶ 12.
On February 23, 2018, the Court dismissed the
Attorney General and the City of Poway for lack of
subject matter jurisdiction on standing grounds. (ECF
No. 68). The Court of Appeals reversed and remanded for
further proceedings. (ECF No. 115 at 5-6). The Court of
Appeals found that Higginson “adequately alleged that
he resides in a racially gerrymandered district and that
the City’s adoption of Map 133 reduced the number of
candidates for whom he can vote.” Id. at 5. The Court of
Appeals found that Higginson has standing to challenge
“the City’s actions, including his argument that the City

12a
Appendix D
violated his rights because the CVRA, with which the
City sought to comply, is unconstitutional under the Equal
Protection clause.” Id. The Court of Appeals stated, “We,
of course, express no view on the merits of any of Plaintiff’s
theories.” Id.
On August 2, 2018, the Attorney General filed a Motion
to Dismiss the Complaint “in its entirety” and “without
leave to amend,” on grounds that “Plaintiff has failed
to allege sufficient facts to state a claim for which relief
may be granted.” (ECF No. 103 at 2). On August 27, 2018,
Higginson filed an Opposition in response to the Motion to
Dismiss. (ECF No. 111). On August 31, 2018, the Attorney
General filed a Reply supporting the Motion to Dismiss.
(ECF No. 118). The docket reflects that the City of Poway
has made no filings with respect to the Motion to Dimiss.
II. ALLEGATIONS OF THE COMPLAINT
Higginson alleges that “[t]he Equal Protection Clause
of the Fourteenth Amendment ‘prevents a State, in the
absence of sufficient justification, from separating its
citizens into different voting districts on the basis of race.’”
(ECF No. 1 ¶ 1) (quoting Cooper v. Harris, 137 S. Ct.
1455, 1463, 197 L. Ed. 2d 837 (2017) (internal quotations
omitted)). Higginson alleges that Section 2 of the federal
Voting Rights Act (FVRA) “has been interpreted to
protect minorities against vote dilution.” Id. ¶ 2. Higginson
alleges that the Supreme Court has “emphasized” that
the FVRA “is in obvious tension with the Fourteenth
Amendment, because it, by definition, makes race the
predominant factor in districting decisions.” Id. Higginson

13a
Appendix D
alleges that “[t]he Supreme Court issued a series of
decisions, beginning with Thornburg v. Gingles” in order
to “ensure [the FVRA] is an anti-discrimination provision,
and not an unconstitutional mandate to maximize electoral
power on the basis of race.” Id. ¶ 3 (citing 478 U.S. 30, 106
S. Ct. 2752, 92 L. Ed. 2d 25 (1986)). Higginson alleges that
the Supreme Court “held that an at-large voting system
will violate [the FVRA] only if a minority group proves
both that it can form a compact single-member district
and that voting is racially polarized.” Id.
Higginson alleges that the California legislature
passed the CVRA “to override the constraints the
Supreme Court has imposed in an attempt to save [the
FVRA] from unconstitutionality.” Id. ¶ 4. Higginson
alleges that “[u]nder the CVRA, local governments must
abandon at-large voting systems if racially polarized
voting exists—regardless of whether the minority group is
sufficiently large and geographically compact to constitute
a majority in a single-member district.” Id. Higginson
alleges, “Accordingly, the CVRA flagrantly violates the
Fourteenth Amendment. Its ‘race-based sorting of voters’
does not serve a ‘compelling interest’ nor is it ‘narrowly
tailored.’” Id. ¶ 5 (quoting Cooper, 137 S. Ct. at 1464).
Higginson alleges that a 2016 CVRA amendment
created a safe harbor provision, requiring potential
plaintiffs to send advance notice that a political
subdivision’s election method may violate the CVRA.
Id. ¶ 28. The political subdivision has 45 days to “pass
a resolution outlining its intention to transition from
at-large to district-based elections,” in order to prevent
the “prospective plaintiff from commencing an action to

14a
Appendix D
enforce” the CVRA. Id. ¶ 29 (quoting Cal. Elec. Code
§ 10010(e)(3)(A)).
Higginson alleges that the City of Poway has used an
at-large voting system to elect its City Council for decades.
Id. ¶ 32. “On June 7, 2017, the City received a certified
letter from an attorney, Kevin Shenkman, asserting that
the City’s at-large system violates the CVRA.” Id. ¶ 33.
The letter stated that “Poway’s at-large system dilutes the
ability of Latinos (a ‘protected class’) to elect candidates of
their choice or otherwise influence the outcome of Poway’s
council elections.” Id. ¶ 34. The letter urged Poway “to
voluntarily change[] its at-large system of electing council
members.” Id. The letter “gave the City until July 21, 2017”
to notify Shenkman of a voluntary change, after which
Shenkman “w[ould] be forced to seek judicial relief.” Id.
Higginson alleges that during “a closed session” on
June 20, 2017, the Poway City Council discussed “the
threatened CVRA litigation,” and directed its “staff to
prepare a resolution of intention for establishing and
implementing by-district elections for . . . consideration
at the July 18, 2017 City Council meeting.” Id. ¶ 35. The
City Attorney recommended “adoption of the resolution
ahead of the July 18 meeting” to take advantage of the safe
harbor provision because “the risks and costs associated
with protracted CVRA litigation—particularly in light of
results in all other cities that have fought to retain at large
voting—cannot be ignored.” Id. ¶ 36. The City Attorney
stated that the “public interest may ultimately be better
served by a by-district electoral system if converting to
that system avoids significant attorneys’ fees and cost
award.” Id.

15a
Appendix D
Higginson alleges that at the July 18 meeting, an
outside attorney advised the City Council that the CVRA
“effectively removed burdens of proof that exist under
the [FVRA].” Id. ¶ 37. The attorney “provided examples
of prior attorney’s fees awards under the CVRA.” Id.
The attorney stated that “it is virtually impossible for
governmental agencies to defend against lawsuits brought
under the CVRA” and “that’s in fact why you see cities
throughout the State converting” from at-large to bydistrict elections “in the face of these demand letters.” Id.
Higginson alleges Councilmember Cunningham asked
the attorney if the City of Poway’s plan complied with the
safe harbor provision, stating that the provision “is truly
the shield . . . we are using to avoid attorney’s fees, and
costs, and protracted litigation.” Id. ¶ 42. Councilmember
Mullin stated,
We’ve gone through denial, and we’ve gone
through anger, and now we’re into acceptance.
So, to those of you in the audience who think
we should be fighting this, we concur, we were
there awhile back as well. I have no illusions
that this will lead to better government for our
city. . . . [W]e have a gun to our heads and we
have no choice.
Id. ¶ 44. Deputy Mayor Leonard stated, “I get it. I hate
it but I get it. . . . We don’t pick certain people in certain
neighborhoods and say we’ll treat them any differently.
There is no evidence of that whatsoever.” Id. ¶ 45. Mayor
Vaus concluded that “we’ve got to do what we’ve got to do.
And job one is to protect the treasure of our constituents.

16a
Appendix D
And it’s their money we’d be putting at risk [with litigation]
and none of us are willing to do that.” Id. ¶ 46.
Higginson alleges that the councilmembers then
“adopted Resolution No. 17-046, setting forth its intention
to transition from at-large to by-district elections.” Id. ¶ 47.
The resolution stated that the City of Poway had “received
a letter threatening action under the [CVRA].” Id. The
resolution stated that the City Council had “determined
that it is in the best interest of the City to move from its
current at-large electoral system to a by-district election
for members of the City Council, in furtherance of the
purposes of the California Voting Rights Act.” Id. ¶ 47. In
August 2017, the councilmembers unanimously approved
Map 133, a four-district plan. Id. ¶ 49. On October 3, 2017,
“the Council adopted the ordinance enacting Map 133.” Id.
¶ 51. Higginson alleges that the City of Poway “would not
have switched from at-large elections to single-districts
elections but for the prospect of liability under the CVRA.”
Id. ¶ 52. Higginson alleges that Attorney General, “in his
official capacity,” “is charged by Article V, Section 13 of
the California Constitution with the duty to see that the
laws of California are uniformly and adequately enforced.”
Id. ¶ 11.
Higginson requests that the Court “[d]eclare that
the [CVRA] requires California political subdivisions,
such as the City, to engage in racial gerrymandering in
violation of the Equal Protection Clause of the Fourteenth
Amendment” and “[p]ermanently enjoin Defendant
Becerra from enforcing or giving any effect to the
[CVRA].” (ECF No. 1 ¶ 63).

17a
Appendix D
III. CONTENTIONS OF THE PARTIES
The Attorney General contends that Higginson fails to
state a claim under the Equal Protection Clause because
Higginson “does not allege that he—or any other voter—
has been placed in a district based on race.” (ECF No.
103-1 at 6). The Attorney General contends that Higginson
does not allege facts showing that race predominated in
the drawing of Map 133. The Attorney General asserts
that the CVRA is not subject to strict scrutiny because
the statute makes no classification of voters based on their
race, and does not require that political subdivisions make
such classifications. (ECF No. 118 at 2). The Attorney
General contends that this Court should reach the same
conclusion as the court in Sanchez v. City of Modesto—that
the CVRA complies with the Equal Protection Clause. Id.
(citing 145 Cal. App. 4th 660, 51 Cal. Rptr. 3d 821, 837-41
(Ct. App. 2006)).
Higginson asserts that the lines of his voting district
are “tainted” because the City of Poway’s decision to
change from the at-large election system to a districted
system was “driven by race.” (ECF No. 111 at 24).
Higginson asserts that the CVRA causes race to be
the predominant redistricting factor, and that the City
of Poway’s decision to adopt districts was driven by
the CVRA. Higginson asserts that the CVRA causes
race to be the predominant redistricting factor because
CVRA liability “turns solely on the existence of racially
polarized voting, to the exclusion of all other factors.”
Id. at 24-25. Higginson asserts that compliance with the
CVRA caused race to be the “only factor in the City’s

18a
Appendix D
decision to abandon its at-large voting system in favor of
by-district elections.” Id. at 20. Higginson contends that
the CVRA cannot survive strict scrutiny under the Equal
Protection Clause because the CVRA provides a cause of
action for vote dilution based on racially polarized voting
alone, without regard to geographical compactness. Id.
at 20-21. Higginson contends that districts drawn using
predominantly racial considerations, in order to avoid
FVRA vote dilution liability, fail to satisfy strict scrutiny
without a showing of geographical compactness. Id. at 8,
25-27. Higginson contends that the ruling in Sanchez “is
flawed and should not be followed,” and that the reasoning
in Sanchez “conflicts with binding precedent.” Id. at 20.
IV. APPLICABLE STANDARD
Federal Rule of Civil Procedure 12(b)(6) permits
dismissal for “failure to state a claim upon which relief
can be granted.” In order to state a claim for relief, a
pleading “must contain . . . a short and plain statement of
the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). Dismissal under Rule 12(b)(6) “is
proper only where there is no cognizable legal theory or an
absence of sufficient facts alleged to support a cognizable
legal theory.” Shroyer v. New Cingular Wireless Servs.,
622 F.3d 1035, 1041 (9th Cir. 2010) (quotation omitted).
Stating a claim for relief “requires more than labels
and conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)
(quoting Fed. R. Civ. P. 8(a)(2)). When considering a motion

19a
Appendix D
to dismiss, a court must accept as true all “well-pleaded
factual allegations.” Ashcroft v. Iqbal, 556 U.S. 662, 679,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009). “[A]ccepting all
factual allegations in the complaint as true and drawing
‘all reasonable inferences in favor of the nonmoving
party,’” the plaintiff’s “allegations must ‘plausibly suggest
an entitlement to relief.’” Gregg v. Haw., Dep’t of Pub.
Safety, 870 F.3d 883, 886-87 (9th Cir. 2017) (first quoting
TwoRivers v. Lewis, 174 F.3d 987, 991 (9th Cir. 1999);
then quoting Iqbal, 556 U.S. at 681). “[E]stablishing only
a ‘possible’ entitlement to relief . . . [does] not support
further proceedings.” Eclectic Props. E. v. Marcus &
Millichap Co., 751 F.3d 990, 996-97 (9th Cir. 2014).
V.	SUBSTANTIVE LAW
A.	Equal Protection and Racial Gerrymandering
Claims
The Equal Protection Clause of the Fourteenth
Amendment “forbids ‘racial gerrymandering,’ that is,
intentionally assigning citizens to a district on the basis of
race without sufficient justification.” Abbott v. Perez, 138
S. Ct. 2305, 2341, 201 L. Ed. 2d 714 (2018) (quoting Shaw
v. Reno, 509 U.S. 630, 641, 113 S. Ct. 2816, 125 L. Ed. 2d
511 (1993)); see also Cooper v. Harris, 137 S. Ct. 1455,
1463, 197 L. Ed. 2d 837 (2017) (“The Equal Protection
Clause . . . prevents a State, in the absence of ‘sufficient
justification,’ from ‘separating its citizens into different
voting districts on the basis of race.’”) (quoting BethuneHill v. Va. State Bd. of Elections, 137 S. Ct. 788, 797, 197 L.
Ed. 2d 85 (2017)); see also Ala. Legislative Black Caucus

20a
Appendix D
v. Alabama, 135 S. Ct. 1257, 1265, 191 L. Ed. 2d 314
(2015) (“We have consistently described a claim of racial
gerrymandering as a claim that race was improperly used
in the drawing of the boundaries of one or more specific
electoral districts.”).
A racial gerrymandering claim requires “a two-step
analysis.” Cooper, 137 S. Ct. at 1463. First, to trigger strict
scrutiny, the plaintiff has the burden to “prove that ‘race
was the predominant factor motivating the legislature’s
decision to place a significant number of voters within
or without a particular district.’” Id. (quoting Miller v.
Johnson, 515 U.S. 900, 916, 115 S. Ct. 2475, 132 L. Ed.
2d 762 (1995)); see also Abbott, 138 S. Ct. at 2315 (stating
that cases have assumed “a State’s consideration of race
in making a districting decision is narrowly tailored and
thus satisfies strict scrutiny” in certain circumstances). To
carry that burden, the plaintiff must demonstrate “that
the legislature ‘subordinated’ other factors—compactness,
respect for political subdivisions, partisan advantage,
what have you—to ‘racial considerations.’” Cooper, 137 S.
Ct. at 1463-64. The inquiry to assess whether race “drove
a district’s lines”
is satisfied when legislators have placed a
significant number of voters within or without
a district predominantly because of their race,
regardless of their ultimate objective in taking
this step. . . . [T]heir action still triggers strict
scrutiny. . . . [T]he sorting of voters on the
grounds of their race remains suspect even if
race is meant to function as a proxy for other . . .
characteristics.

21a
Appendix D
Id. at 1473 n.7 (quotation omitted). A federal court’s review
“of districting legislation represents a serious intrusion
on the most vital of local functions,” and the first step
requires the plaintiff to overcome a “presumption of
legislative good faith.” Abbott, 138 S. Ct. at 2324 (quoting
Miller, 515 U.S. at 915).
Second, for a redistricting plan with predominantly
racial considerations to survive strict scrutiny, the state
has the burden “to prove that its race-based sorting of
voters serves a ‘compelling interest’ and is ‘narrowly
tailored’ to that end.” Cooper, 137 S. Ct. at 1464 (quoting
Bethune-Hill, 137 S. Ct. at 800).
B.	FVRA Liability
“At the same time that the Equal Protection Clause
restricts the consideration of race in the districting
process,” certain circumstances “may justify the
consideration of race in a way that would not otherwise
be allowed.” Abbott, 138 S. Ct. at 2314-15. For example,
“consideration of race in making a districting decision is
narrowly tailored and thus satisfies strict scrutiny if the
State has ‘good reasons’ for believing that its decision
is necessary in order to comply with the [F]VRA.” Id.
(quoting Cooper, 137 S. Ct. at 1464).
An electoral district may violate the FVRA if,
“under the totality of the circumstances,” the lines of the
district “dilute the votes of the members of [a] minority
group.” Id. at 2331. FVRA liability, whether postured as
an FVRA vote dilution claim or as a defense to a racial

22a
Appendix D
gerrymandering claim, requires a threshold showing of
the “three ‘Gingles factors’: (1) a geographically compact
minority population sufficient to constitute a majority in
a single-member district, (2) political cohesion among the
members of the minority group, and (3) bloc voting by the
majority to defeat the minority’s preferred candidate.” Id.
(quoting Thornburg v. Gingles, 478 U.S. 30, 48-51, 106 S.
Ct. 2752, 92 L. Ed. 2d 25 (1986)). In Growe v. Emison, a
unanimous Supreme Court stated:
The “geographically compact majority” and
“minority political cohesion” showings are
needed to establish that the minority has the
potential to elect a representative of its own
choice in some single-member district. And the
“minority political cohesion” and “majority bloc
voting” showings are needed to establish that
the challenged districting thwarts a distinctive
minority vote by submerging it in a larger
white voting population. Unless these points
are established, there neither has been a wrong
nor can be a remedy.
507 U.S. 25, 40-41, 113 S. Ct. 1075, 122 L. Ed. 2d 388
(1993) (citations omitted); see also Bartlett v. Strickland,
556 U.S. 1, 10, 13-17, 21, 129 S. Ct. 1231, 173 L. Ed. 2d 173
(2009) (plurality opinion) (declining to modify Gingles to
permit FVRA vote dilution liability without geographical
compactness; “avoiding serious constitutional concerns” by
not “plac[ing] courts in the untenable position of predicting
many political variables and tying them to race-based
assumptions,” or causing “a substantial increase in the

23a
Appendix D
number of mandatory districts drawn with race as ‘the
predominant factor motivating the legislature’s decision’”
(quoting Miller, 515 U.S. at 916)).
C.

CVRA Liability

The CVRA prohibits use of “[a]n at-large method of
election” to “impair[] the ability of a protected class to
elect candidates of its choice or its ability to influence
the outcome of an election, as a result of the dilution or
the abridgment of the rights of voters who are members
of a protected class.”1 Cal. Elec. Code § 14027. A CVRA
violation can be “established if it is shown that racially
polarized voting occurs in elections.” 2 Id. § 14028(a).
The CVRA provides that “[t]he fact that members of
a protected class are not geographically compact or
concentrated may not preclude a finding of racially
polarized voting, or a violation of Section 14027 and this
section, but may be a factor in determining an appropriate
remedy.” Id. § 14028(c). The CVRA includes a private right
of action for voters in protected classes. Id. § 14032.
1. “‘Protected class’ means a class of voters who are members of
a race, color, or language minority group, as this class is referenced
and defined in the federal Voting Rights Act of 1965.” Cal. Elec.
Code § 14026.
2. “Racially polarized voting” is defined as “voting in which
there is a difference, as defined in case law regarding enforcement
of the federal Voting Rights Act of 1965 (52 U.S.C. Sec. 10301 et
seq.), in the choice of candidates or other electoral choices that
are preferred by voters in a protected class, and in the choice of
candidates and electoral choices that are preferred by voters in the
rest of the electorate.” Cal. Elec. Code § 14026(e).

24a
Appendix D
In 2016, California amended the Elections Code to
require a prospective CVRA plaintiff to notify a political
subdivision before filing suit—commonly known as the
safe harbor provision. Cal. Elec. Code § 10010. The
amendment gives the political subdivision forty-five days
to “pass a resolution outlining its intention to transition
from at-large to district-based elections, specific steps
it will undertake to facilitate this transition, and an
estimated time frame for doing so,” which prohibits the
prospective plaintiff from suing “within 90 days of the
resolution’s passage.” Id. The prospective plaintiff “is
entitled . . . to reimbursement capped at $30,000.” Id.
§ 10010(f)(3).
VI.	DISCUSSION
In Shaw v. Reno, the Supreme Court defined racial
gerrymandering claims, concluding “that a plaintiff
challenging a reapportionment statute under the Equal
Protection Clause may state a claim by alleging that the
legislation, though race-neutral on its face, rationally
cannot be understood as anything other than an effort
to separate voters into different districts on the basis of
race.” 509 U.S. at 649. In Miller v. Johnson, the Supreme
Court stated that “the essence of the equal protection
claim recognized in Shaw is that the State has used race
as a basis for separating voters into districts”; “that race
for its own sake, and not other districting principles, was
the controlling rationale in drawing its district lines,”
and “that race was the predominant factor motivating
the legislature’s decision to place a significant number of
voters within or without a particular district.” 515 U.S.
at 911, 913, 916.

25a
Appendix D
To state a racial gerrymandering claim subject to
strict scrutiny under the Equal Protection Clause, a
plaintiff must allege facts to support the inference that
a districting decision was made “on the basis of race.”
Abbott, 138 S. Ct. at 2314. In Shaw, the Supreme Court
characterized racial gerrymandering as a specific type
of racial classification, applying the following Equal
Protection principles:
Classifications of citizens solely on the basis
of race . . . threaten to stigmatize individuals
by reason of their membership in a racial
group . . . . [W]e have held that the Fourteenth
Amendment requires state legislation that
expressly distinguishes among citizens because
of their race to be narrowly tailored to further
a compelling governmental interest.
509 U.S. at 643 (emphasis added) (citations omitted). The
appellants in Shaw did not claim to be members of any
particular racial group. The appellants instead claimed
violation of “their constitutional right to participate
in a ‘color-blind’ electoral process”—while “wise[ly]”
conceding “that race-conscious redistricting is not always
unconstitutional.” Id. at 641-42 (“This Court never has held
that race-conscious state decisionmaking is impermissible
in all circumstances.”); see also Bartlett, 556 U.S. at 23-24
(plurality opinion) (noting that “where no other prohibition
exists,” states using “proper factors” may “in the exercise
of lawful discretion . . . draw crossover districts as they
deemed appropriate”; recommending that states “defend
against alleged [FVRA] violations by pointing to crossover

26a
Appendix D
voting patterns and to effective crossover districts”).
The Supreme Court held that appellants stated an Equal
Protection claim, specifically framed as an objection
to “a reapportionment scheme so irrational on its face
that it can be understood only as an effort to segregate
voters into separate voting districts because of their
race.” Shaw, 509 U.S. at 642, 658 (emphasis added). The
Supreme Court remanded, stating that “[i]f the allegation
of racial gerrymandering remains uncontradicted, the
District Court further must determine whether the North
Carolina plan is narrowly tailored to further a compelling
governmental interest.” Id. at 658.
Racial gerrymandering claims trigger strict scrutiny
under the same basic principles that trigger strict
scrutiny under the Equal Protection Clause. See id. at
644 (“[R]edistricting legislation . . . that is unexplainable
on grounds other than race . . . demands the same close
scrutiny that we give other state laws that classify citizens
by race.”) (quotation omitted). Racial gerrymandering
claims, like other Equal Protection claims, trigger strict
scrutiny when a state actor has classified an individual
based on that individual’s membership in a racial group.
In Adarand Constructors v. Pena the Supreme Court
explained,
[T]he Fifth and Fourteenth Amendments to the
Constitution protect persons, not groups. . . .
[A]ll governmental action based on race—a
group classification long recognized as ‘in
most circumstances irrelevant and therefore
prohibited’—should be subjected to detailed

27a
Appendix D
judicial inquiry to ensure that the personal
right to equal protection of the laws has not
been infringed.
515 U.S. 200, 227, 115 S. Ct. 2097, 132 L. Ed. 2d 158
(1995) (internal citation omitted). In Parents Involved
in Community Schools v. Seattle School District, the
Supreme Court stated that strict scrutiny applies
pursuant to the Equal Protection Clause “when the
government distributes burdens or benefits on the basis
of individual racial classifications.” 551 U.S. 701, 720, 127
S. Ct. 2738, 168 L. Ed. 2d 508 (2007) (emphasis added).
In this case, Higginson alleges that California
legislators passed the CVRA to maximize minority voting
strength by making it easier to sue local governments for
vote dilution, “based on the existence of racially polarized
voting and nothing more.” (ECF No. 1 ¶ 57). Higginson
alleges that the City of Poway received a letter stating
that “Poway’s at-large system dilutes the ability of Latinos
(a ‘protected class’) to elect candidates of their choice
or otherwise influence the outcome of Poway’s council
elections,” and that litigation would follow unless the City
“voluntarily change[d]” to districted elections. Id. ¶ 34.
Higginson alleges that the City of Poway found it was
in the City’s best interest to avoid CVRA litigation and
adopted an ordinance enacting the voting districts of Map
133. Higginson alleges that he was sorted into a district
through the application of the CVRA. Higginson alleges
that other California municipalities are exposed to the
same system of potential CVRA liability that caused the
City of Poway to adopt by-district elections.

28a
Appendix D
Higginson’s allegations do not support the inference
that state actors—those who passed the CVRA, or
those who implemented it through Map 133—classified
Higginson into a district because of his membership in
a particular racial group. Higginson does not include
any factual allegations in the Complaint related to the
role of his, or any other voter’s, race in the application
of the CVRA. Higginson does not allege facts to
support the inference that the CVRA causes state
action that classifies any voter according to that voter’s
membership in a particular racial group. See Shaw, 509
U.S. at 642 (recognizing racial gerrymandering claim
for “[a] reapportionment plan that includes in one district
individuals who belong to the same race, but who are
otherwise widely separated by geographical and political
boundaries, and who may have little in common with one
another but the color of their skin”); Cooper, 137 S. Ct. at
1473 n.7 (referencing “the sorting of voters on the grounds
of their race” as action that “triggers strict scrutiny”);
see also Adarand, 515 U.S. at 227 (“[A]ll governmental
action based on race—a group classification . . .—should
be subjected to detailed judicial inquiry to ensure that
the personal right to equal protection of the laws has not
been infringed. . . . [A]ll racial classifications, imposed by
whatever federal, state, or local government actor, must
be analyzed by a reviewing court under strict scrutiny.”).
Higginson’s allegations that the California legislature
passed the CVRA “to maximize minority voting strength,”
(ECF No. 1 ¶ 57), do not trigger strict scrutiny absent facts
showing a state actor has classified individuals based on
the racial group to which those individuals belong. “[T]he

29a
Appendix D
good faith of the state legislature must be presumed.” See
Abbott, 138 S. Ct. at 2324 (quotation omitted). Higginson
has not overcome the presumption of good faith, or
demonstrated a legislative “effort to segregate the races
for purposes of voting,” by alleging “race-conscious state
decisionmaking.” See Shaw, 509 U.S. at 642 (“This Court
never has held that race-conscious state decisionmaking
is impermissible in all circumstances.”). The Court of
Appeals for the Third Circuit has stated,
It is also error to treat “‘racial motive’ as
a synonym for a constitutional violation” or
“racial classification.” This holds true even
for a decisionmaker’s racially discriminatory
purpose. Racially discriminatory purpose,
alone, is not a racial classification because racial
classification is more than a mere thought. . . .
[R]acial classification occurs when an action
“distributes burdens or benefits on the basis
of” race . . . . [R]acially discriminatory purpose
refers to the purpose or intent in selecting
an action and not to whether the selected
action resulted in actual discrimination or
classifications.
Doe ex rel. Doe v. Lower Merion Sch. Dist., 665 F.3d 524,
548 n.37 (3d Cir. 2011) (first quoting Raso v. Lago, 135 F.3d
11, 16 (1st Cir. 1998) (“[A] concern with race . . . does not
make such enactments or actions unlawful or automatically
‘suspect’ under the Equal Protection Clause.”); then
quoting Seattle, 551 U.S. at 720 (separating discussion of
racial classification and racially discriminatory purpose));

30a
Appendix D
see also Chen v. City of Hous., 206 F.3d 502 (5th Cir.
2000) (“[T]his Court has interpreted the Supreme Court’s
current position to include a majority in favor of Justice
O’Connor’s statement in Bush that the intentional creation
of minority-majority districts will not in and of itself
trigger strict scrutiny.” (citing Bush v. Vera, 517 U.S.
952, 958, 116 S. Ct. 1941, 135 L. Ed. 2d 248 (1996) (“Strict
scrutiny does not apply merely because redistricting is
performed with consciousness of race. Nor does it apply
to all cases of intentional creation of majority-minority
districts.”) (internal citations omitted))).
The Court finds that Higginson’s allegations, accepted
as true, with reasonable inferences drawn in his favor, do
not state a racial gerrymandering claim subject to strict
scrutiny analysis under the Equal Protection Clause.
See Gregg, 870 F.3d at 886-87 (“[A]ccepting all factual
allegations in the complaint as true and drawing all
reasonable inferences in favor of the nonmoving party,
the allegations must plausibly suggest an entitlement to
relief.”) (quotations omitted); Eclectic Props., 751 F.3d
at 996-97 (“[E]stablishing only a ‘possible’ entitlement
to relief . . . [does] not support further proceedings.”).
Higginson fails to state a claim under the Equal Protection
Clause of the Fourteenth Amendment, and the Complaint
must be dismissed. See Shroyer, 622 F.3d at 1041 (noting
propriety of dismissal “where there is no cognizable legal
theory or an absence of sufficient facts alleged to support
a cognizable legal theory”).

31a
Appendix D
VII.

CONCLUSION

IT IS HEREBY ORDERED that the Motion to
Dismiss filed by the Attorney General (ECF No. 103)
is GRANTED. IT IS FURTHER ORDERED that
Plaintiff shall file any motions for leave to file an amended
complaint, or show cause why the Complaint (ECF No. 1)
should not be dismissed as to Defendant City of Poway
and Intervenor-Defendants California LULAC, Hiram
Soto, Judy Ki, Jacqueline Contreras, and Xavier Flores,
within thirty days of the date of this Order.
Dated: February 4, 2019
/s/ William Q. Hayes
Hon. William Q. Hayes
United States District Court

32a
E the UNITED
Appendix E —Appendix
ORDER of
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF CALIFORNIA, Filed
October 2, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
Case No.: 17cv2032-WQH-JLB
DON HIGGINSON,
Plaintiff,
v.
XAVIER BECERRA, IN HIS OFFICIAL
CAPACITY AS ATTORNEY GENERAL OF
CALIFORNIA; AND CITY OF POWAY,
Defendants.
October 2, 2018, Decided
October 2, 2018, Filed
ORDER
HAYES, Judge:
The matter before the Court is the motion for a
preliminary injunction filed by Plaintiff Don Higginson.
(ECF No. 101).

33a
Appendix E
I. 	PROCEDURAL BACKGROUND
On October 4, 2017, Higginson initiated this action
by filing a complaint against Defendants Xavier Becerra,
Attorney General of California (the Attorney General),
and the City of Poway. (ECF No. 1). Higginson alleges a
cause of action pursuant to 42 U.S.C. §§ 1983 and 1988 for
violation of his Fourteenth Amendment rights. Higginson
asserts that the City of Poway adopted by-distict elections
in order to comply with the California Voting Rights Act
(CVRA), and that such districting segregates voters on
the basis of race without sufficient justification. Id. at 1-3.
On February 23, 2018, the Court dismissed the
Attorney General and the City of Poway for lack of subject
matter jurisdiction on standing grounds, denied a motion
for a preliminary injunction filed by Higginson, and denied
a motion to intervene (ECF No. 18) filed by DefendantIntervenors California League of United Latin American
Citizens, Jacqueline Contreras, Xavier Flores, Judy Ki,
and Hiram Soto (LULAC) as moot. Higginson appealed.
LULAC cross appealed.
The Court of Appeals reversed the dismissal of
the City of Poway and the Attorney General, granted
LULAC’s motion to intervene on the merits, and remanded
for further proceedings. (ECF No. 115 at 5-6). The Court
of Appeals found that Higginson “adequately alleged that
he resides in a racially gerrymandered district and that
the City’s adoption of Map 133 reduced the number of
candidates for whom he can vote.” Id. at 5. The Court of
Appeals found that Higginson has standing to challenge
“the City’s actions, including his argument that the City

34a
Appendix E
violated his rights because the CVRA, with which the
City sought to comply, is unconstitutional under the Equal
Protection clause.” Id.
On August 2, 2018, Higginson moved for a preliminary
injunction “temporarily enjoining Defendant Attorney
General Xavier Becerra and his agents from enforcing the
California Voting Rights Act and Defendant City of Poway
from using Map 133 for elections during the pendency of
this action.” (ECF No. 101 at 2). On August 27, 2018, the
City of Poway, the Attorney General, and LULAC filed
responses opposing the preliminary injunction. (ECF
Nos. 112-14). On August 31, Higginson filed a reply. (ECF
No. 117).
II. 	BACKGROUND FACTS
The CVRA prohibits use of “[a]n at-large method of
election” to “impair[] the ability of a protected class to
elect candidates of its choice or its ability to influence
the outcome of an election, as a result of the dilution or
the abridgment of the rights of voters who are members
of a protected class.”1 Cal. Elec. Code § 14027. A CVRA
violation can be “established if it is shown that racially
polarized voting occurs in elections.” 2 Whether “members
1. “‘Protected class’ means a class of voters who are members
of a race, color, or language minority group, as this class is
referenced and defined in the federal Voting Rights Act of 1965.”
Cal. Elec. Code § 14026.
2. “Racially polarized voting” is defined as “voting in which
there is a difference, as defined in case law regarding enforcement
of the federal Voting Rights Act of 1965 (52 U.S.C. Sec. 10301 et
seq.), in the choice of candidates or other electoral choices that

35a
Appendix E
of a protected class are not geographically compact
or concentrated may not preclude a finding of racially
polarized voting, or a violation of Section 14027 and this
section, but may be a factor in determining an appropriate
remedy.” Id. § 14028. The CVRA includes a private right
of action for voters in protected classes. Id. § 14032.
In 2016, California amended the Elections Code to
require a prospective CVRA plaintiff to notify a political
subdivision before filing suit—commonly known as the
safe harbor provision. Cal. Elec. Code § 10010. The
amendment gives the political subdivision forty-five days
to “pass a resolution outlining its intention to transition
from at-large to district-based elections, specific steps
it will undertake to facilitate this transition, and an
estimated time frame for doing so,” which prohibits the
prospective plaintiff from suing “within 90 days of the
resolution’s passage.” Id. The prospective plaintiff “is
entitled . . . to reimbursement capped at $30,000.” Id.
§ 10010(f)(3).
The City of Poway has used an at-large voting system
to elect its City Council for decades. (ECF No. 101-1 at 16).
“On June 7, 2017, the City received a certified letter from
an attorney, Kevin Shenkman, asserting that the City’s
at-large system violates the CVRA.” Id. The letter stated
that “Poway’s at-large system dilutes the ability of Latinos
(a ‘protected class’) to elect candidates of their choice
or otherwise influence the outcome of Poway’s council
are preferred by voters in a protected class, and in the choice of
candidates and electoral choices that are preferred by voters in
the rest of the electorate.” Cal. Elec. Code § 14026(e).

36a
Appendix E
elections.” (ECF No. 101-4 at 8). The letter “urge[d] Poway
to voluntarily change its at-large system of electing council
members,” and to respond by July 21, 2017, “[o]therwise,
on behalf of residents within the jurisdiction, we will be
forced to seek judicial relief.” Id. at 9.
During “a closed session on June 20, 2017,” the City
Council discussed “the threatened CVRA litigation,” and
directed the “staff to prepare a resolution of intention for
establishing and implementing by-district elections for
. . . consideration at the July 18, 2017 City Council meeting.”
Id. at 2. The City Attorney recommended “adoption of the
resolution ahead of the July 18 meeting” to take advantage
of the safe harbor provision—”not based on any admission
or concession that the City would ultimately be found to
have violated the CVRA,” but because “the risks and costs
associated with protracted CVRA litigation—particularly
in light of results in all other cities that have fought to
retain at large voting—cannot be ignored.” Id. at 3. The
City Attorney explained that the “public interest may
ultimately be better served by a by-district electoral
system if converting to that system avoids significant
attorneys’ fees and cost award.” Id.
At the July 18 meeting, an outside attorney advised
the City Council that “it is virtually impossible for
governmental agencies to defend against lawsuits brought
under the CVRA” because the statute “effectively removed
burdens of proof that exist under the federal Voting Rights
Act.” (ECF No. 101-3 at 3). The meeting agenda included
data showing that “every government defendant in the
history of the CVRA that has challenged the conversion

37a
Appendix E
to district elections has either lost in court or settled/
agreed to implement district elections.” (ECF No. 101-4
at 1). The agenda estimated that “voluntarily converting
to district elections” would cost the city “approximately
$82,500,” whereas a lawsuit would probably cost the city
over $1,000,000—and possibly “upwards of $4,500,000.”
Id. at 4.
Councilmember Cunningham asked the attorney if
the City of Poway’s plan complied with the safe harbor
provision, stating that the provision “is truly the shield
. . . we are using to avoid attorney’s fees, and costs, and
protracted litigation.” Id. at 4. Councilmember Mullin
stated,
We’ve gone through denial, and we’ve gone
through anger, and now we’re into acceptance.
So, to those of you in the audience who think
we should be fighting this, we concur, we were
there awhile back as well. I have no illusions
that this will lead to better government for our
city. . . . [W]e have a gun to our heads and we
have no choice.
Id. Deputy Mayor Leonard stated “I get it. I hate it
but I get it. . . . We don’t pick certain people in certain
neighborhoods and say we’ll treat them any differently.
There is no evidence of that whatsoever.” Id. Mayor Vaus
concluded, “we’ve got to do what we’ve got to do. And job
one is to protect the treasure of our constituents. And it’s
their money we’d be putting at risk [with litigation] and
none of us are willing to do that.” Id. at 5.

38a
Appendix E
The councilmembers then adopted Resolution No.
17-046, setting forth the intention to transition from
at-large to by-district elections. (ECF No. 101-6 at 1).
The resolution stated that “the City received a letter
threatening action under the California Voting Rights
Act.” Id. The resolution stated that “the City Council has
determined that it is in the best interest of the City to move
from its current at-large electoral system to a by-district
election for members of the City Council, in furtherance
of the purposes of” the “California Voting Rights Act.”
Id. In August, the councilmembers unanimously approved
Map 133, a four-district plan. (ECF No. 101-8 at 3). On
October 3, 2017, Ordinance 809 enacted Map 133, to be
used “beginning at the General Municipal Election in
November 2018.” (ECF No. 101-10 at 1, 3, 5-6).
The Poway City Council election is scheduled for
November 6, 2018. (ECF No. 112-2 at 3). The candidate
nomination period was July 16 to August 10, 2018, during
which election officials “spent approximately 250 hours
working with potential candidates, publication of notices,
website election page updates, preparation of candidate
materials, and processing nomination papers.” Id. On
August 16, 2018, the clerk’s office filed candidate materials
with the registrar, who began “the typesetting, layout,
proofing, and printing of the ballots” on August 31, 2018.
Id. “[T]he identity of the candidates” was “published in
. . . the local newspaper,” and “translated into Vietnamese,
Spanish, Traditional Chinese, and Tagalog, as required by
federal law,” to “be published in the appropriate foreign
language newspapers the first week of September.” Id.
“[S]ample ballot and voter information pamphlets” are

39a
Appendix E
“mailed to the voters between September 27, 2018 and
October 27, 2018,” and “actual, final” ballots were “sent
to military and overseas voters . . . September 22, 2018.”
Id.; ECF No. 112 at 9.
If election officials were enjoined from holding bydistrict elections for the November 2018 election, the
City of Poway would be responsible for “printing and
distributing its own ballots” because the registrar’s
deadlines have passed. Id. at 4-5. The cost “associated
with doing so would exceed $650,000 . . . and potentially
seven figures, if such a process is even possible.” Id. at 5.
Election officials would “likely spend[] at least 200 hours”
processing new materials and “would be forced to spend a
significant amount of time and resources on an extensive
public outreach campaign to inform both existing and
potential new candidates, as well as the public at large,
about the momentous last minute change to the City’s
Election.” Id. The additional time and resources required
to comply with such an injunction “would greatly disrupt
the normal operations of the City.” Id.
III.

CONTENTIONS OF THE PARTIES

Higginson seeks a preliminary injunction pursuant
to Federal Rule of Civil Procedure 65(a) to temporarily
enjoin “Defendant Attorney General Xavier Becerra and
his agents from enforcing the California Voting Rights
Act and Defendant City of Poway from using Map 133 for
elections during the pendency of this action.” (ECF No.
101 at 2). Higginson contends that he will succeed on the
merits of his Fourteenth Amendment claim because the

40a
Appendix E
CVRA, with which the City of Poway sought to comply,
caused race to be the “only factor in the City’s decisions
to abandon its at-large voting in favor of by-district
elections.” (ECF 101-1 at 22) (emphasis in original).
Higginson contends that districting decisions pursuant
to the CVRA are race-based classifications lacking the
compelling interest and narrow tailoring necessary to
comply with the Equal Protection Clause. 3 Id. at 22-23.
Higginson contends such a violation of his constitutional
rights is “per se irreparable harm.”4 Id. at 23.
Higginson contends that enjoining the use of Map 133
is in the public interest because his constitutional voting
rights have been violated. Higginson further contends
that “35,000 other Poway voters . . . will suffer the same
irreparable injury.” Higginson asserts that “the rights
millions of other California voters” are at risk of suffering
his fate, because other cities are “future targets” for notice
letters like the City of Poway received in this case. (ECF
3. Higginson contends that the CVRA cannot survive
strict scrutiny because districts predominantly based on racial
considerations—drawn to avoid federal Voting Rights Act
liability—are not narrowly tailored enough to avoid Equal
Protection violation absent proof “that the minority group is
‘geographically compact.’” Shaw v. Hunt, 517 U.S. 899, 916, 116
S. Ct. 1894, 135 L. Ed. 2d 207 (1996).
4. Higg inson contends that his ir reparable har m is
abridgement of his fundamental right to vote because of race.
(ECF No. 101 at 23-25). This contention merges “two separate
strands of equal protection doctrine: suspect classifications and
fundmental rights,” Short v. Brown, 893 F.3d 671, 678 (9th Cir.
2018), as well as Fifteenth Amendment doctrine.

41a
Appendix E
No. 101-1 at 26-27). Higginson contends that equitable
considerations favor an injunction because he “filed his
lawsuit the day after the ordinance passed,” he “filed
his motion for a preliminary injunction two weeks later,
more than a year before the 2018 election,” id. at 28, and
he “has sought to expedite this case at every potential
juncture,” (ECF No. 117 at 11). Higginson contends that
the injunction he requests would restore the status quo,
because this is the first election cycle affected by the
CVRA.
The City of Poway “intends to remain neutral
with respect to the ultimate merits” of Higginson’s
constitutional claims. (ECF No. 112 at 5). The City of
Poway contends, “without expressing any opinion as
to whether or not an injury exists,” that an “‘injury’ of
voting for two candidates instead of four, in one election
that is being conducted under a method of election that is
expressly permitted by state law for all general law cities,
is not ‘irreparable’ in nature.” Id. at 15. The City of Poway
contends any corresponding injury would be redressed
in this action as “the City’s method of election would, in
theory, be impacted in November 2020 and beyond.” Id.
The City of Poway opposes the motion “based on the
significant harm that would result to both the City and
the public if the Motion were to be granted on the eve of
the November 2018 election.” Id. at 5. The City of Poway
states that “[s]imply put, granting the Motion would wreak
havoc in the City.” Id. at 12. The City of Poway asserts
that its “election machinery is not only already in gear, it
has completed the majority of its tasks, and is far past the

42a
Appendix E
point of no return.” Id. at 10. The City of Poway asserts
that deadlines “dictated by the Registrar, state law, and
federal law” have come and gone. Id. at 8-9. The City of
Poway asserts it has spent “approximately 50 hours on
outreach efforts, assuring candidates and the public that
the Election is proceeding pursuant to the Ordinance
unless and until the City is ordered otherwise,” as a result
of the “confusion caused by this Action.” Id. at 8.
The City of Poway asserts that an order to change its
voting plans for the “November 2018 Election—assuming
arguendo that . . . the City [could] comply with such an
order—would result in hundreds of hours of extra work
by City staff, immense confusion among candidates and
the public, and additional, unbudgeted expenditures of
taxpayer money, ranging from $650,000 to the millions.”
Id. at 12. The City of Poway contends that the preliminary
injunction Higginson seeks “would have the practical
effect of enjoining the entire Election.” Id. at 14. The
City of Poway further contends that it “is particularly
inequitable to foist the foregoing hardships on the City
and its citizens in light of the fact that the City has . . . not
been accused [of] any wrongdoing.” Id.
The Attorney General contends that Higginson’s claim
fails on the merits. The Attorney General contends that
Higginson must challenge “district maps or district lines
themselves,” rather than a decision to switch from at-large
to by-district elections, in order to make out a Fourteenth
Amendment racial gerrymandering claim. (ECF No.
113 at 11). The Attorney General asserts Higginson
must challenge the maps or lines using evidence of “the

43a
Appendix E
number of voters from protected classes included in the
district, whether the districts are bizarrely shaped, [or]
the legislative purpose behind the line drawing.” Id. at
12-13. The Attorney General asserts that by failing to
provide such evidence, Higginson fails to demonstrate
that the City of Poway considered race when adopting
Map 133. The Attorney General further contends the
“CVRA does not sort voters by race” or “require political
subdivisions to do so when crafting a remedy for a CVRA
violation.” Id. at 13.
The Attorney General contends that Higginson “has
not demonstrated a likelihood of success on the merits”
and “he has also failed to demonstrate that he will suffer
irreparable harm absent an injunction.” Id. at 18. The
Attorney General asserts the balance of hardships weighs
against injunctive relief because “[r]eturning to the atlarge election system at this late date would only cause
confusion for candidates, voters, and election officials.” Id.
at 19. The Attorney General asserts the public interest
weighs against Higginson because “the minority voters
the CVRA protects” may be harmed by a preliminary
injunction requiring the City of Poway to return to atlarge voting. Id. at 21.
LULAC contends that Higginson “lacks standing
to enjoin statewide enforcement of the CVRA,” and that
Higginson has not satisfied any of the requisite preliminary
injunction factors. (ECF No. 114 at 8). LULAC asserts
that “the record in this action is devoid of allegations or
evidence of the City placing Poway residents, including
Plaintiff, in specific districts in Map 133 on the basis

44a
Appendix E
of their race.” Id. at 16. LULAC asserts that Map 133
created districts that are “similar in demographics” and
“reasonably shapely,” and that there are no “allegations
or evidence of racially discriminatory comments or
actions by City officials.” Id. LULAC further asserts the
CVRA did not compel the City of Poway to adopt Map
133. LULAC asserts the City of Poway’s “adoption of bydistrict elections . . . reflected an overarching concern with
preserving taxpayer dollars and avoiding costs associated
with litigation.” Id. at 17. LULAC contends that CVRA
liability requires “a showing of racially polarized voting,”
and that, upon such a finding, “[t]he CVRA does not
prescribe a particular remedy.” Id. LULAC asserts that
“the City adopted by-district elections voluntarily” and
that “the factual question of whether voting in Poway was
racially polarized has not been adjudicated.” Id. LULAC
contends Higginson’s “right to vote will not be violated
simply because he cannot vote for representatives for
districts where he does not reside,” because Higginson
has no right to vote for a particular number of candidates.
Id. at 19-20.
LULAC contends the balance of equities and public
interest weigh against Higginson because an injunction
would “outright disrupt the election process, upsetting
the expectations and electoral activities of Poway
residents, candidates for Poway’s city council, and election
administrators.” Id. at 22. LULAC further asserts that
voters would lose “numerous benefits” from voting by
district pursuant to Map 133. Id. at 21.

45a
Appendix E
IV. LEGAL STANDARD
“[A] preliminary injunction is an extraordinary and
drastic remedy, one that should not be granted unless
the movant, by a clear showing, carries the burden of
persuasion.” Mazurek v. Armstrong, 520 U.S. 968, 972,
117 S. Ct. 1865, 138 L. Ed. 2d 162 (1997) (emphasis in
original) (quotation omitted). “[T]he the burden of proof
at the preliminary injunction phase tracks the burden of
proof at trial.” Thalheimer v. City of San Diego, 645 F.3d
1109, 1116 (9th Cir. 2011). To obtain preliminary injunctive
relief, a movant must “meet one of two variants of the same
standard.” All. for the Wild Rockies v. Pena, 865 F.3d 1211,
1217 (9th Cir. 2017). Under the first standard, the movant
must show “that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in his
favor, and that an injunction is in the public interest.” Id.
(quoting Winter v. Natural Res. Def. Council, Inc., 555
U.S. 7, 20, 129 S. Ct. 365, 172 L. Ed. 2d 249 (2008)).
Under the second standard, the movant must show
“that there are serious questions going to the merits—a
lesser showing than likelihood of success on the merits,”
that the “balance of hardships tips sharply in the
plaintiff’s favor,” and that “the other two Winter factors
are satisfied.” Id. (quotation omitted). The balance of
equities and public interest factors merge “[w]hen the
government is a party.” Drakes Bay Oyster Co. v. Jewell,
747 F.3d 1073, 1092 (9th Cir. 2014) (quoting Nken v. Holder,
556 U.S. 418, 435, 129 S. Ct. 1749, 173 L. Ed. 2d 550 (2009)).
Under the second standard, when the government is a

46a
Appendix E
party, the movant must show serious questions going to the
merits; a balance of hardships, merged with public interest
considerations, tipping sharply in the movant’s favor; and
a likelihood of irreparable harm absent preliminary relief.
V. 	DISCUSSION
A. 	Balance of Equities, Public Interest, and
Feldman Factors
In Southwest Voter Registration Education Project v.
Shelley, the Court of Appeals stated “[t]here is no doubt
that the right to vote is fundamental, but a federal court
cannot lightly interfere with or enjoin a state election.”
344 F.3d 914, 918-19 (9th Cir. 2003). The court stated that
“[i]nterference with impending elections is extraordinary,”
and that the “decision to enjoin an impending election is so
serious that the Supreme Court has allowed elections to
go forward even in the face of an undisupted constitutional
violation.” Id. (citations omitted). In Reynolds v. Sims, the
Supreme Court explained
[O]nce a State’s legislative apportionment
scheme has been found to be unconstitutional,
it would be the unusual case in which a court
would be justified in not taking appropriate
action to insure that no further elections are
conducted under the invalid plan. However,
under certain circumstances, such as where an
impending election is imminent and a State’s
election machinery is already in progress,
equitable considerations might justify a court

47a
Appendix E
in withholding the granting of immediately
effective relief in a legislative apportionment
case, even though the existing apportionment
scheme was found invalid. . . . With respect to the
timing of relief, a court can reasonably endeavor
to avoid a disruption of the election process
which might result from requiring precipitate
changes that could make unreasonable or
embarrassing demands on a State . . . .
377 U.S. 533, 585, 84 S. Ct. 1362, 12 L. Ed. 2d 506 (1964)
(emphasis added); see also Abbott, 138 S. Ct. 2324 (“If a
plan is found to be unlawful long before the next scheduled
election, a court may defer any injunctive relief until the
case is completed. And if a plan is found to be unlawful
very close to the election date, the only reasonable option
may be to use the plan one last time.”).
The Court of Appeals has identified “considerations
specific to election cases” for courts to “weigh, in addition
to the harms attendant upon issuance or nonissuance of
an injunction.” Feldman v. Ariz. Sec’y of State’s Office,
843 F.3d 366, 367-68 (9th Cir. 2016) (quoting Purcell v.
Gonzalez, 549 U.S. 1, 4, 127 S. Ct. 5, 166 L. Ed. 2d 1 (2006)).
In Feldman, the Court of Appeals enjoined enforcement of
a recent Arizona election statute that “ma[d]e the collection
of legitimate ballots by third parties a felony.” Id. at 368.
The court determined that enjoining enforcement of the
statutue would not “affect the state’s election processes
or machinery” because “legitimate ballots collected by
third parties [we]re accepted and counted, and there
[we]re no criminal penalties to the voter”—meaning “[n]o

48a
Appendix E
one else in the electoral process [wa]s affected,” and “no
electoral process [wa]s affected.” Id. The court determined
an injunction was particularly appropriate because the
statute “newly criminalize[d] activity associated with
voting.” Id. The court found an injunction would not
“disrupt long standing state procedures” because it would
restore the status quo “prior to the recent legislative
action,” which was “affecting th[e] election cycle for the
first time.” Id. at 369. The court found it equitable to grant
the injunction because the plaintiff had not delayed in
bringing the action. Id. The court found it lacked “prima
facie reason to believe that the challenged statute was
not discriminatory” because there had been no other
meaningful legal review to “alleviat[e] the concern that
the law violated voting rights.” Id. The court concluded
it had given “careful and thorough consideration” to the
election-specific issues, and granted injunctive relief. Id.
In this case, the November 2018 election is “impending,”
and the declaration and exhibit provided by the City of
Poway show that the “election machinery is already in
progress.” See Reynolds, 377 U.S. at 585. Whether or
not the “existing apportionment scheme” is ultimately
“found invalid,” enjoining the City of Poway from using
Map 133 would be expensive, confusing, and disruptive—it
would “requir[e] precipitate changes that [w]ould make
unreasonable or embarrassing demands” on the election
authorities. 5 See id.
5. LULAC contends that Higginson’s requested injunction is
mooted because the County Registrar, a nonparty, has assumed
responsibility for conducting the City of Poway’s elections as
of July 4, 2018. (ECF No. 114 at 13). LULAC contends that

49a
Appendix E
Unlike in Feldman, the requested injunction would
require a different voting plan and new election materials,
which would “affect the . . . processes [and] machinery” of
the election. See 843 F.3d at 368; ECF No. 112. Unlike in
Feldman, enjoining the use of Map 133 would confuse, and
affect the conduct of, voters and election officials. Id. Map
133 is “affecting this election cycle for the first time,” and
Higginson “did not delay in bringing this action.” See id.
at 369. However, the recent change is not due to conduct
by the state legislature this year—the CVRA passed in
2002 and the safe harbor provision passed in 2016. See
California Voting Rights Act of 2001, ch. 129, 2002 Cal.
Legis. Serv. (West) (codified at Cal. Elec. Code §§ 1402532); Act of Sept. 28, 2016, ch. 737, 2016 Cal. Legis. Serv.
(West) (codified at Cal. Elec. Code. § 10010). Map 133 is
the status quo in this case, and reversion to the previous
method would be the far greater disruption. (ECF No.
112-1).
The CVRA has survived an equal protection challenge
in California state court. See Sanchez v. City of Modesto,
145 Cal. App. 4th 660, 51 Cal. Rptr. 3d 821, 837-41 (Cal.
Ct. App. 2006) (finding the CVRA constitutional). If the
the County Registrar is not an agent of the City of Poway, and
would not be “subject to an injunction against the City.” Id. at
14. LULAC contends that the County Registrar could not “as a
practical matter . . . restart the entire pre-election process and
. . . comply with a City directive to use its former at-large system.”
Id. Higginson contends that “the county is merely acting as the
City’s agent” and would be bound by an injunction. (ECF No.
117 at 13). The Court does not reach contentions regarding the
County Registrar.

50a
Appendix E
CVRA is found to be constitutional, and the Court enjoins
Map 133 at this stage, “the inability to enforce its duly
enacted plans clearly inflicts irreparable harm on the
State.” Abbott, 138 S. Ct. 2324 & n.17.
After careful and thorough assessment of the electionspecific Feldman considerations, the Court finds that
the balance of equities does not tip in Higginson’s favor,
and that the public interest counsels against granting a
preliminary injunction. An injunction at this stage in the
proceedings would disrupt the status quo and harm the
public interest.
B. Merits and Irreparable Injury
1. 	The City of Poway and Map 133
W h e t h e r a Fo u r t e e nt h A m e n d m e nt r a c i a l
gerrymandering claim can prevail on the merits requires
“a two-step analysis.” Cooper v. Harris, 137 S. Ct. 1455,
1463, 197 L. Ed. 2d 837 (2017). First, the plaintiff has the
burden to “prove that ‘race was the predominant factor
motivating the legislature’s decision to place a significant
number of voters within or without a particular district.’”
Id. (quoting Miller v. Johnson, 515 U.S. 900, 916, 115 S.
Ct. 2475, 132 L. Ed. 2d 762 (1995)). To carry that burden,
the plaintiff must demonstrate “that the legislature
‘subordinated’ other factors—compactness, respect for
political subdivisions, partisan advantage, what have
you—to ‘racial considerations.’” Id. at 1463-64. Because a
federal court’s review “of districting legislation represents
a serious intrusion on the most vital of local functions,” the

51a
Appendix E
plaintiff must overcome a “presumption of legislative good
faith.” Abbott, 138 S. Ct. 2324 (quoting Miller, 515 U.S. at
915). The plaintiff may use “‘direct evidence’ of legislative
intent, ‘circumstantial evidence of a district’s shape
and demographics,’ or a mix of both.” Id. Second, if the
challenger has shown racial considerations predominated
the districting decision, the “design of the district must
withstand strict scrutiny.” Id. at 1464. The burden shifts
to the state “to prove that its race-based sorting of voters
serves a ‘compelling interest’ and is ‘narrowly tailored’ to
that end.” Id.
Initially, the Court must address whether the
adoption of district lines constitutes a “decision to place a
significant number of voters within or without a particular
district” for purposes of a Fourteenth Amendment
racial gerrymandering claim, compared to typical racial
gerrymandering claims challenging specific features
of resulting districts. Cooper v. Harris, 137 S. Ct. at
1463. The Court must also address whether the CVRA
constitutes a “racial consideration” for purposes of a
Fourteenth Amendment racial gerrymandering claim.
See Cooper, 137 S. Ct. at 1463; see also Mazurek, 520 U.S.
at 972 (requiring the movant to make “a clear showing”).
Higginson presents evidence showing that the City
of Poway adopted by-district elections in response to a
letter threatening a CVRA lawsuit. Higginson asserts
that the CVRA is “dominated by racial considerations.”
(ECF No. 101-1 at 22). However, the Attorney General and
LULAC maintain that “the CVRA does not, as Plaintiff
contends, require political subdivisions to engage in racial

52a
Appendix E
gerrymandering,” or “prescribe a particular remedy
where vote dilution occurs.” (ECF No. 113 at 13; ECF
No. 114 at 17).
At this stage in the proceedings, given the unresolved
questions of law and fact, the Court finds that Higginson
has not shown a likelihood of prevailing on the merits of
his Fourteenth Amendment racial gerrymandering claim.
Higginson is injured only if the CVRA caused the City
of Poway to adopt Map 133 using predominantly racial
considerations, and if Map 133 was not narrowly tailored
to a compelling interest. Pena, 865 F.3d at 1217 (“[A] party
must show . . . that he is likely to suffer irreparable harm
in the absence of preliminary relief.”); see also Hale v.
Dep’t of Energy, 806 F.2d 910, 918 (9th Cir. 1986) (finding
that plaintiffs who failed to show a likelihood of success on
the merits had “failed to establish that irreparable harm
will flow from a failure to preliminarily enjoin defendants’
actions”); Lecky v. Va. State Bd. of Elections, 285 F. Supp.
3d 908, 921 (E.D. Va. 2018) (“[E]ven if this single factor
weighs in favor of plaintiffs, plaintiffs’ failure to make
a clear showing of likelihood of success on the merits
nonetheless ends the matter.”).
2. 	The Attorney General
Higginson moves the Court to enjoin the Attorney
General “and his agents” from enforcing the CVRA
“during the pendency of this action.” (ECF No. 101 at
2). The Attorney General contends that he “has taken no
action and made no threats to enforce the CVRA at this
time,” and that “there is no reason to assume he would

53a
Appendix E
do so between now and the November election.” (ECF
No. 113 at 19-20). The Attorney General further contends
that enjoining him from CVRA enforcement would not
“forestall the injuries that Plaintiff contends would result
from voting under Map 133.” Id. at 6.
The Supreme Court has explained that “a plaintiff
who alleges that he is the object of a racial gerrymander
. . . has standing to assert only that his own district has
been so gerrymandered.” Gill v. Whitford, 138 S. Ct. 1916,
1930, 201 L. Ed. 2d 313 (2018). Such plaintiffs “cannot sue
to invalidate the whole State’s legislative districting map;
such complaints must proceed ‘district-by-district.’” Id. at
1930 (quoting Ala. Legislative Black Caucus, 135 S. Ct.
1257, 1265, 191 L. Ed. 2d 314 (2015)). The “remedy must
of course be limited to the inadequacy that produced the
injury in fact that the plaintiff has established.” Id. at 1931
(quotation omitted).
The claimed “irreparable harm must be causally
connected to the activity to be enjoined” to support a
preliminary injunction. Nat. Wildlife v. Nat. Marine
Fisheries, 886 F.3d 803, 819 (9th Cir. 2018). In this case,
Higginson has not come forward with facts to show
a causal connection between the alleged irreparable
harm—infringement of his constitutional rights under
Map 133—and the Attorney General’s enforcement of
the CVRA. The Court finds that Higginson has failed to
carry his burden to show he is entitled to a preliminary
injunction against the Attorney General and his agents.

54a
Appendix E
VI. CONCLUSION
The Court finds that Higginson has not demonstrated
sufficient likelihood of success on the merits of his claim
or irreparable injury absent injunctive relief, or that the
balance of equities or public interest weigh in his favor.
IT IS HEREBY ORDERED that the motion for a
preliminary injunction (ECF No. 101) is DENIED.
Dated: October 2, 2018

/s/ William Q. Hayes
Hon. William Q. Hayes
United States District Judge

55a
Appendix F
Appendix F — AMENDED
MEMORANDUM of
the UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT, FILED JULY 31, 2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55455
D.C. No. 3:17-cv-02032-WQH-JLB
DON HIGGINSON,
Plaintiff-Appellant,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants-Appellees.
––––––––––––––––––––––––––––––
No. 18-55506
D.C. No. 3:17-cv-02032-WQH-JLB
DON HIGGINSON,
Plaintiff-Appellee,
v.

56a
Appendix F
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants,
v.
CALIFORNIA LEAGUE OF UNITED LATIN
AMERICAN CITIZENS; JACQUELINE
CONTRERAS; XAVIER FLORES; JUDY KI; HIRAM
SOTO, PROPOSED DEFENDANT-INTERVENORS,
Movants-Appellants.
June 7, 2018, Argued and Submitted, Portland, Oregon
July 31, 2018, Filed
Appeals from the United States District Court
for the Southern District of California.
D.C. No. 3:17-cv-02032-WQH-JLB
William Q. Hayes, District Judge, Presiding.
AMENDED MEMORANDUM*
Before: GRABER and M. SMITH, Circuit Judges,
and HELLERSTEIN,** District Judge.
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Alvin K. Hellerstein, United States
District Judge for the Southern District of New York, sitting by
designation.

57a
Appendix F
Plaintiff Don Higginson timely appeals the district
court’s dismissal of this action for lack of subject matter
jurisdiction. The district court ruled that Plaintiff does
not have standing to sue either the Attorney General of
California, Xavier Becerra, or the City of Poway (“the
City”) for allegedly violating his rights under the Equal
Protection Clause when the City adopted the by-district
election scheme of Map 133 to avoid litigation under the
California Voting Rights Act (“CVRA”). Reviewing de
novo, Arakaki v. Lingle, 477 F.3d 1048, 1056 (9th Cir.
2007), we reverse and remand.
1. We reverse the dismissal of the City. Plaintiff has
standing to sue the City to challenge its adoption of Map
133. See Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 180-81, 120 S. Ct. 693,
145 L. Ed. 2d 610 (2000) (laying out the requirements of
Article III standing). Plaintiff has adequately alleged
that he resides in a racially gerrymandered district and
that the City’s adoption of Map 133 reduced the number
of candidates for whom he can vote. This alleged injury
is concrete and particularized, directly traceable to the
City’s adoption of Map 133, and potentially redressable
by an injunction requiring the City to return to its former
system of at-large elections. Accordingly, Plaintiff can
bring this as-applied challenge to the City’s actions,
including his argument that the City violated his rights
because the CVRA, with which the City sought to comply,
is unconstitutional under the Equal Protection Clause.
See, e.g., Branch v. Smith, 538 U.S. 254, 123 S. Ct. 1429,
155 L. Ed. 2d 407 (2003) (considering on the merits a
challenge to a redistricting plan by individual voters in the

58a
Appendix F
affected geographic area). We, of course, express no view
on the merits of any of Plaintiff’s theories. See Ariz. State
Legislature v. Ariz. Independent Redistricting Comm’n,
135 S. Ct. 2652, 2663, 192 L. Ed. 2d 704 (2015) (holding
that the state legislature had standing to challenge
redistricting and cautioning that courts must not conflate
the potential weakness of a claim on the merits with an
absence of Article III standing).
2. We also reverse the dismissal of the Attorney
General. On remand, the Attorney General will remain
a defendant unless, at his request, the district court
redesignates him as an intervenor.
3. Our holdings above render Proposed Intervenors’
motion to participate in the litigation not moot. We now
grant that motion on the merits. See United States v.
Sprint Commc’ns, Inc., 855 F.3d 985, 995 (9th Cir. 2017)
(concluding, first, that the motion to intervene was not
moot and then deciding the motion on the merits). We
review de novo the district court’s decision regarding
intervention as a matter of right under Federal Rule
of Civil Procedure 24(a)(2), and we construe that rule
liberally. Arakaki v. Cayetano, 324 F.3d 1078, 1082-83
(9th Cir. 2003). We conclude that Proposed Intervenors
meet all four requirements for intervention as of right.
REV ER SED a nd REM A NDED for f u r t her
proceedings consistent with this disposition.

59a
G
Appendix G —Appendix
MEMORANDUM
of the
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED JUNE 14, 2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55455
D.C. No. 3:17-cv-02032-WQH-JLB
DON HIGGINSON,
Plaintiff-Appellant,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants-Appellees.
––––––––––––––––––––––––––––––
No. 18-55506
D.C. No. 3:17-cv-02032-WQH-JLB
DON HIGGINSON,
Plaintiff-Appellee,
v.

60a
Appendix G
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants,
v.
CALIFORNIA LEAGUE OF UNITED LATIN
AMERICAN CITIZENS; JACQUELINE
CONTRERAS; XAVIER FLORES; JUDY KI; HIRAM
SOTO, PROPOSED DEFENDANT-INTERVENORS,
Movants-Appellants.
Appeal from the United States District Court
for the Southern District of California.
D.C. No. 3:17-cv-02032-WQH-JLB.
William Q. Hayes, District Judge, Presiding.
June 7, 2018, Argued and Submitted, Portland, Oregon
June 14, 2018, Filed
MEMORANDUM*
Before: GRABER and M. SMITH, Circuit Judges, and
HELLERSTEIN,** District Judge.
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Alvin K. Hellerstein, United States
District Judge for the Southern District of New York, sitting by
designation.

61a
Appendix G
Plaintiff Don Higginson timely appeals the district
court’s dismissal of this action for lack of subject matter
jurisdiction. The district court ruled that Plaintiff does
not have standing to sue either the Attorney General of
California, Xavier Becerra, or the City of Poway (“the
City”) for allegedly violating his rights under the Equal
Protection Clause when the City adopted the by-district
election scheme of Map 133 to avoid litigation under the
California Voting Rights Act (“CVRA”). Reviewing de
novo, Arakaki v. Lingle, 477 F.3d 1048, 1056 (9th Cir.
2007), we reverse and remand.
1. We reverse the dismissal of the City. Plaintiff has
standing to sue the City to challenge its adoption of Map
133. See Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 180-81, 120 S. Ct. 693,
145 L. Ed. 2d 610 (2000) (laying out the requirements of
Article III standing). Plaintiff has adequately alleged
that he resides in a racially gerrymandered district and
that the City’s adoption of Map 133 reduced the number
of candidates for whom he can vote. This alleged injury
is concrete and particularized, directly traceable to the
City’s adoption of Map 133, and potentially redressable
by an injunction requiring the City to return to its former
system of at-large elections. Accordingly, Plaintiff can
bring this asapplied challenge to the City’s actions,
including his argument that the City violated his rights
because the CVRA, with which the City sought to comply,
is unconstitutional under the Equal Protection Clause.
2. We also reverse the dismissal of the Attorney
General. On remand, the Attorney General will remain

62a
Appendix G
a defendant unless, at his request, the district court
redesignates him as an intervenor.
3. Our holdings above render Proposed Intervenors’
motion to participate in the litigation not moot. We now
grant that motion on the merits. See United States v.
Sprint Commc’ns, Inc., 855 F.3d 985, 995 (9th Cir. 2017)
(concluding, first, that the motion to intervene was not
moot and then deciding the motion on the merits). We
review de novo the district court’s decision regarding
intervention as a matter of right under Federal Rule
of Civil Procedure 24(a)(2), and we construe that rule
liberally. Arakaki v. Cayetano, 324 F.3d 1078, 1082-83
(9th Cir. 2003). We conclude that Proposed Intervenors
meet all four requirements for intervention as of right.
REV ER SED a nd REM A NDED for f u r t her
proceedings consistent with this disposition.

63a
Appendix H —Appendix
order H
of the united
states district court for the southern
district of california, filed
february 23, 2018
United States District Court
Southern District of California
Case No.: 17cv2032-WQH-JLB
DON HIGGINSON,
Plaintiff,
v.
XAVIER BECERRA, in his official capacity
as ATTORNEY GENERAL OF CALIFORNIA;
and CITY OF POWAY, CALIFORNIA,
Defendants.
February 23, 2018, Decided
February 23, 2018, Filed
ORDER
HAYES, Judge:
The matters before the Court are the motion for a
preliminary injunction filed by Plaintiff Don Higginson
(ECF No. 11); the motion to intervene filed by California
League of United Latin American Citizens, Jacqueline
Contreras, Xavier Flores, Judy Ki, and Hiram Soto (ECF

64a
Appendix H
No. 18); the motion to dismiss filed by Defendant Xavier
Becerra (ECF No. 33); and the motion for leave to file
amici curiae brief of the San Gabriel Valley Council of
Governments, et al. (ECF No. 53).
I. 	BACKGROUND
On October 4, 2017, Plaintiff Don Higginson initiated
this action by filing the Complaint against Defendants
Attorney General Xavier Becerra (the “Attorney
General”) and the City of Poway (the “City”). (ECF No.
1). Higginson alleges a cause of action pursuant to 42
U.S.C. §§ 1983 and 1988 for a violation of his rights under
the Fourteenth Amendment. Higginson asserts that the
California Voting Rights Act (“CVRA”) and the City’s Map
133, allegedly enacted as a result of the CVRA, violate
the equal protection clause. Higginson seeks an order
declaring the CVRA and Map 133 unconstitutional and
enjoining their enforcement and use.
On October 19, 2017, Higginson filed a motion for a
preliminary injunction. (ECF No. 11). Higginson seeks a
preliminary injunction pursuant to Federal Rule of Civil
Procedure 65(a) which temporarily enjoins “Defendant
Attorney General Xavier Becerra and his agents from
enforcing the California Voting Rights Act and Defendant
City of Poway from using Map 133 for elections during
the pendency of this action.” Id. at 2.
On November 6, 2017, the City filed a response to the
motion for a preliminary injunction stating that it takes
a neutral position in this litigation and “does not intend

65a
Appendix H
to defend the constitutionality of the CVRA or otherwise
actively support or oppose the Motion.” (ECF No. 16 at 2).
The City states that “unless and until this (or any) Court
orders otherwise, the City will continue implementing bydistrict elections pursuant to the Ordinance, which means
that the City will begin the transition to the election system
adopted therein during the November 2018 election.” Id.
at 2. The City requests that the Court make its ruling
prior to May 1, 2018 to “provide potential candidates with
sufficient time to make decisions in advance of the formal
July nominations filing period.” Id. at 3.
On November 6, 2017, the California League of
United Latin American Citizens (“LULAC”), Jacqueline
Contreras, Xavier Flores, Judy Ki, and Hiram Soto
(“the Proposed Intervenors”) filed a motion to intervene
and lodged an opposition to the motion for a preliminary
injunction. (ECF Nos. 18, 19).
On November 7, 2017, the Attorney General filed a
response in opposition to the motion for a preliminary
injunction. The Attorney General asserts that Higginson
lacks standing and “has not established a likelihood of
success on the merits on his Fourteenth Amendment
claim” or “any of the remaining factors . . . necessary to
show he is entitled to a preliminary injunction.” (ECF
No. 22).
On November 22, 2017, the Attorney General filed a
motion to dismiss the complaint pursuant to Federal Rule
of Civil Procedure 12(b)(1) and 12(b)(6). The Attorney
General asserts that Higginson lacks Article III standing

66a
Appendix H
to bring this action and that Higginson fails to state a
claim upon which relief can be granted. (ECF No. 33).
On December 12, 2017, Higginson filed a response in
opposition. (ECF No. 48). On December 12, 2017, the City
filed a response stating that the City intends to maintain
a “neutral position in this action” and “will not support or
oppose” the motion to dismiss. (ECF No. 47 at 2).
On December 14, 2017, the City of Mission Viejo filed
a motion for leave to file an amicus curiae brief in support
of the motion for a preliminary injunction. (ECF No. 49).
On December 18, 2017, the Court granted the motion and
deemed the Mission Viejo amicus curiae brief to be filed.
(ECF No. 51).
On December 18, 2017, the San Gabriel Valley Council
of Governments, the City of Arcadia, the City of Barstow,
the City of Fullerton, the City of Glendora, the City of
South Pasadena, and the City of West Covina filed an
application for leave to file an amicus curiae brief in
support of the motion for a preliminary injunction. (ECF
No. 53).
On January 5, 2018, the Attorney General filed a
motion for leave to file a response to the amicus curiae
brief filed by the City of Mission Viejo. (ECF No. 59).
On January 9, 2018, the Court granted the motion and
allowed the City of Mission Viejo to file a response. (ECF
No. 62). On January 10, 2018, the Attorney General filed
a response to the amicus curiae brief filed by the City of
Mission Viejo. (ECF No. 63).

67a
Appendix H
On January 12, 2018, the Court heard oral argument
on the motion for a preliminary injunction.
II. ALLEGATIONS OF THE COMPLAINT
The City is a “California general law city and a
municipal corporation organized and existing under and
by virtue of the laws of the State of California.” (ECF No.
1 at ¶ 12). The City is subject to the CVRA. Id. “As a direct
result of that statute, the City has abandoned its at-large
voting system and switched to by-district elections that
are the product of racial gerrymandering.” Id.
The City has used an at-large voting system to elect
its City Council for decades. Id. ¶ 31. “On June 7, 2017,
the City received a certified letter from an attorney,
Kevin Shenkman, asserting that the City’s at-large
system violates the CVRA.” Id. ¶ 32. “According to Mr.
Shenkman, ‘Poway’s at-large system dilutes the ability of
Latinos (a ‘protected class’) to elect candidates of their
choice or otherwise influence the outcome of Poway’s
council elections.’ Therefore, unless the City ‘voluntarily
change[s] its at-large system of electing council members
. . . [he] will be forced to seek judicial relief.’” Id. ¶ 34. “Mr.
Shenkman gave the City until June 21, 2017 to notify him
whether it would come into compliance with the CVRA.”
Id.
“On June 20, 2017, in response to the Shenkman
letter, the City Council held a closed session to discuss
the threatened CVRA litigation.” Id. ¶ 35. “[T]he City
Council provided direction to staff to prepare a resolution

68a
Appendix H
of intention for establishing and implementing by-district
elections for the City Council members to be presented for
consideration at the July 18, 2017 City Council meeting.”
Id.
In recommending the adoption of the resolution
ahead of the July 18 meeting, the City Attorney
explained that “the risks and costs associated
with protracted CVRA litigation—particularly
in light of results in all other cities that have
fought to retain at large voting—cannot be
ignored. The public interest may ultimately be
better served by a by-district electoral system
if converting to that system avoids significant
attorneys’ fees and cost award.”
Id. ¶ 36. “At the City Council meeting on July 18, an outside
attorney the City hired to advise it on the Shenkman letter
outlined the difficulty in defending CVRA lawsuits.” Id.
¶ 37. “Each member of the City Council . . . expressed his
strong disapproval of the changes that the CVRA was
forcing the City to make.” Id. ¶ 41. “City councilmember
Jim Cunningham explained that ‘the [safe-harbor
provision] is truly the shield ... we are using to avoid
attorney’s fees, and costs, and protracted litigation.’ He
then specifically sought advice from the outside attorney
on whether they were utilizing that provision correctly to
avoid those burdens.” Id. ¶ 42.
City councilmember John Mullin . . . concluded:
“We’ve gone through denial, and we’ve gone
through anger, and now we’re into acceptance.

69a
Appendix H
So, to those of you in the audience who think
we should be fighting this, we concur, we were
there awhile back as well. I have no illusions
that this will lead to better government for
our city.”
Id. ¶ 44. “Deputy Mayor Barry Leonard . . . explained
his view that . . . ‘We don’t pick certain people in certain
neighborhoods and say we’ll treat them any differently.
There is no evidence of that whatsoever.’” Id. ¶ 45.
Mayor Steve Vaus concluded, “I’ll just echo that
this council does a remarkable job [with at-large
elections] . . . But we’ve got to do what we’ve got
to do. And job one is to protect the treasure of
our constituents. And it’s their money we’d be
putting at risk [with litigation] and none of us
are willing to do that.”
Id. ¶ 46.
The City Council adopted Resolution No. 17046 setting forth its intention to transition
from at-large to by-district elections, pursuant
to Elections Code section 10010(e)(3)(A). The
Resolution stated that after “the City [had]
received a letter threatening action under
the California Voting Rights Act,” it had
“determined that it is in the best interest of the
City to move from its current at-large electoral
system to a by-district election for members of
the City Council, in furtherance of the purposes
of [the] California Voting Rights Act.”

70a
Appendix H
Id. ¶ 47 (first alteration in original). “On August 31, 2017, the
Council voted 5-0 to proceed with Map 133, an election plan
that divides the City into four districts.” Id. ¶ 49. “On October
3, 2017, the Council adopted the ordinance enacting Map
133.” Id. ¶ 51. “The City would not have switched from atlarge elections to single-district elections but for the prospect
of liability under the CVRA.” Id. ¶ 52. “City elections using
these new districts will be held in 2018.” Id. ¶ 6.
Higginson is a resident of Poway, California and a
registered voter. Id. ¶ 10. “Because the California Voting
Rights Act has forced the City to abandon at-large
elections, he will now reside in and vote in District 2.”
Id. “District 2, like all of the City’s districts, is racially
gerrymandered as a result of the redistricting the
California Voting Rights Act has imposed on the City.” Id.
“The CVRA makes race the predominant factor in
drawing electoral districts. Indeed, it makes race the
only factor given that a political subdivision, such as
the City, must abandon its at-large system based on the
existence of racially polarized voting and nothing more.”
Id. ¶ 56. “California does not have a compelling interest
in requiring any political subdivision, including the City,
to abandon its at-large system based on the existence
of racially polarized voting and nothing more.” Id. ¶ 57.
“The CVRA also is not narrowly tailored to ensure that
minority voters do not have their votes diluted because,
among other reasons, it overrides the compactness
precondition of Section 2 of the [federal Voting Rights
Act].” Id. ¶ 58. “[T]he CVRA violates the Equal Protection
Clause of the Fourteenth Amendment.” Id. ¶ 59.

71a
Appendix H
Higginson requests the following relief from the Court:
62. Declare that the California Voting Rights Act
requires California political subdivisions, such
as the City, to engage in racial gerrymandering
in violation of the Equal Protection Clause of
the Fourteenth Amendment.
63. Permanently enjoin Defendant Becerra
from enforcing or giving any effect to the
California Voting Act.
6 4. Declare Map 133 in violation of the
Equal Protection Clause of the Fourteenth
Amendment.
65. Permanently enjoin Defendant City of Poway
from using Map 133 in any future election.
Id. ¶¶ 62-65.
III.	THE CALIFORNIA VOTING RIGHTS ACT
The CVRA provides, in relevant part,
An at-large method of election may not be
imposed or applied in a manner that impairs the
ability of a protected class to elect candidates of
its choice or its ability to influence the outcome
of an election, as a result of the dilution or
the abridgment of the rights of voters who
are members of a protected class, as defined
pursuant to Section 14026.1
1. “‘Protected class’ means a class of voters who are members of a
race, color, or language minority group, as this class is referenced and
defined in the federal Voting Rights Act of 1965.” Cal. Elec. Code § 14026.

72a
Appendix H
Cal. Elec. Code § 14027. Pursuant to the CVRA,
(a) A violation of Section 14027 is established if
it is shown that racially polarized voting2 occurs
in elections for members of the governing
body of the political subdivision or in elections
incorporating other electoral choices by the
voters of the political subdivision. Elections
conducted prior to the filing of an action
pursuant to Section 14027 and this section
are more probative to establish the existence
of racially polarized voting than elections
conducted after the filing of the action.
(b) The occurrence of racially polarized voting
shall be determined from examining results
of elections in which at least one candidate
is a member of a protected class or elections
involving ballot measures, or other electoral
choices that affect the rights and privileges of
members of a protected class. One circumstance
that may be considered in determining a
violation of Section 14027 and this section is the
extent to which candidates who are members
of a protected class and who are preferred by
2. “Racially polarized voting” is defined as “voting in which
there is a difference, as defined in case law regarding enforcement
of the federal Voting Rights Act of 1965 (52 U.S.C. Sec. 10301 et
seq.), in the choice of candidates or other electoral choices that
are preferred by voters in a protected class, and in the choice of
candidates and electoral choices that are preferred by voters in the
rest of the electorate.” Cal. Elec. Code § 14026(e).

73a
Appendix H
voters of the protected class, as determined by
an analysis of voting behavior, have been elected
to the governing body of a political subdivision
that is the subject of an action based on Section
14027 and this section. . . .
(c) The fact that members of a protected class
are not geographically compact or concentrated
may not preclude a finding of racially polarized
voting, or a violation of Section 14027 and this
section, but may be a factor in determining an
appropriate remedy.
(d) Proof of an intent on the part of the voters
or elected officials to discriminate against a
protected class is not required.
(e) Other factors such as the histor y of
discrimination, the use of electoral devices or
other voting practices or procedures that may
enhance the dilutive effects of at-large elections,
denial of access to those processes determining
which groups of candidates will receive financial
or other support in a given election, the extent
to which members of a protected class bear
the effects of past discrimination in areas such
as education, employment, and health, which
hinder their ability to participate effectively
in the political process, and the use of overt or
subtle racial appeals in political campaigns are
probative, but not necessary factors to establish
a violation of Section 14027 and this section.

74a
Appendix H
Cal. Elec. Code § 14028. The CVRA includes a private
right of action for voters. “Any voter who is a member of
a protected class and who resides in a political subdivision
where a violation of Sections 14027 and 14028 is alleged
may file an action pursuant to those sections in the superior
court of the county in which the political subdivision is
located.” Cal. Elec. Code § 14032.
In 2016, California amended the Elections Code to
add language requiring that a prospective CVRA plaintiff
provide written notice to a political subdivision before
filing suit under the CVRA.
(e)(1) Before commencing an action to enforce
Sections 14027 and 14028, a prospective plaintiff
shall send by certified mail a written notice to
the clerk of the political subdivision against
which the action would be brought asserting
that the political subdivision’s method of
conducting elections may violate the California
Voting Rights Act of 2001.
(2) A prospective plaintiff shall not commence
an action to enforce Sections 14027 and 14028
within 45 days of the political subdivision’s
receipt of the written notice described in
paragraph (1).
(3)(A) Before receiving a w ritten notice
described in paragraph (1), or within 45 days
of receipt of a notice, a political subdivision
may pass a resolution outlining its intention

75a
Appendix H
to transition from at-large to district-based
elections, specific steps it will undertake to
facilitate this transition, and an estimated time
frame for doing so.
(B) If a political subdivision passes a resolution
pursuant to subparagraph (A), a prospective
plaintiff shall not commence an action to enforce
Sections 14027 and 14028 within 90 days of the
resolution’s passage.
Cal. Elec. Code § 10010. The Elections Code provides that
a prospective plaintiff who sent a written notice pursuant
to section 10010(e)(1) is entitled, upon written demand,
to reimbursement capped at $30,000. Cal. Elec. Code
§ 10010(f)(3).
IV. MOTION TO DISMISS
The Attorney General brings a facial attack on
the Court’s subject matter jurisdiction asserting that
Higginson lacks standing to bring this action. The
Attorney General contends that Higginson has not
sufficiently alleged injury to himself as a result of the
CVRA because his claim that “all districts drawn in an
effort to correct for vote dilution resulting from at-large
district elections violate the Fourteenth Amendment” is a
generalized grievance that cannot support standing. (ECF
No. 33-1 at 9). The Attorney General contends that the
Supreme Court redistricting cases addressing challenges
to the way district lines are drawn are inapplicable to this
case which challenges the decision to draw the district

76a
Appendix H
lines in the first place. The Attorney General contends
that Higginson cannot establish standing under these
redistricting cases because he does not allege that he “has
been personally subjected to a racial classification” and he
does not allege sufficient facts to support the conclusory
allegation that District 2 has been racially gerrymandered.
Id. at 11. The Attorney General further contends that
Higginson has not established that the City’s decision to
switch from at-large to by-district elections is traceable
to any action by the Attorney General. The Attorney
General contends that the Complaint does not contain
any allegations that the ordinance enacting Map 133 was
enacted to address a CVRA violation or racially-polarized
voting in the City. The Attorney General contends that
the CVRA does not require any political subdivision to
abandon at-large voting unless racially-polarized voting
exists. The Attorney General contends that a demand
letter from a private party prompted the City’s switch
to by-district elections and that the allegations of the
Complaint indicate that “the costs of litigation under the
CVRA rather than the CVRA itself lead to the City’s
decision.” Id. at 13. In addition, the Attorney General
contends that the requested relief in the Complaint would
not redress Higginson’s alleged injury because enjoining
the Attorney General from enforcing the statute would not
preclude individuals from bringing private claims under
the CVRA. The Attorney General contends that enjoining
the enforcement of the CVRA would not ensure that the
City abandons Map 133 because the City “voluntarily
changed” to a by-district system and did not change due
to any finding of a CVRA violation. Id. at 14.

77a
Appendix H
Higginson contends that the Complaint alleges a
cognizable harm to him because the City has segregated
all City voters into separate voting districts on the basis
of race and without sufficient justification. (ECF No.
48 at 20). Higginson contends that he does not assert a
generalized grievance because he alleges that “there was
no sufficient justification for making race the predominant
factor in creating his district.” Id. Higginson contends
that the CVRA was a “substantial motivating factor” in
the “decision to switch to by-district elections” because
the Complaint “plausibly alleges that the City would
have retained at-large elections absent the CVRA.” Id.
at 21. Higginson asserts that he properly brings this
action against the Attorney General and that the Court
can enjoin the Attorney General from enforcing the law
under Ex Parte Young. 3 Higginson asserts that the City
“had every reason to believe it was violating the CVRA”
and that the allegations of the Complaint demonstrate
that the City had a “real and reasonable apprehension”
of liability under the CVRA. Id. at 22. Higginson
contends that the Court can redress Higginson’s injury
by “enjoining Map 133 and restoring the preexisting atlarge system.” Id. Higginson contends a declaration that
the CVRA is unconstitutional will preclude private parties
from enforcing the CVRA. Higginson contends that the
Attorney General’s assertion that the City voluntarily
changed to by-district elections is “speculation divorced
from the Complaint’s allegations.” Id. at 23.

3. 209 U.S. 123, 28 S. Ct. 441, 52 L. Ed. 714 (1908)

78a
Appendix H
A.

Applicable Law

Rule 12(b)(1) of the Federal Rules of Civil Procedure
allows a defendant to move for dismissal on the grounds
that the court lacks jurisdiction over the subject matter.
Fed. R. Civ. P. 12(b)(1). A jurisdictional attack pursuant
to Rule 12(b)(1) may be facial or factual. White v. Lee,
227 F.3d 1214, 1242 (9th Cir. 2000). “In a facial attack,
the challenger asserts that the allegations contained
in the complaint are insufficient on their face to invoke
federal jurisdiction.” Safe Air for Everyone v. Meyer,
373 F.3d 1035, 1039 (9th Cir. 2004). In a facial attack on
subject matter jurisdiction under Rule 12(b)(1), the court
assumes the factual allegations of the complaint to be
true and draws all reasonable inferences in favor of the
plaintiff. Doe v. Holy See, 557 F.3d 1066, 1073 (9th Cir.
2009). However, the court does not accept “the truth of
legal conclusions merely because they are cast in the form
of factual allegations.” Warren v. Fox Family Worldwide,
Inc., 328 F.3d 1136, 1139 (9th Cir. 2003); see also Roberts
v. Corrothers, 812 F.2d 1173, 1177 (9th Cir. 1987).
The Article III standing doctrine limits federal court
jurisdiction. See La Asociacon de Trabajadores de Lake
Forest v. City of Lake Forest, 624 F.3d 1083, 1088 (9th
Cir. 2010). “[T]he ‘irreducible constitutional minimum’
of standing consists of three elements.” Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635 (2016)
(citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560,
112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)). In order “to
satisfy Article III’s standing requirements, a plaintiff
must show (1) it has suffered an ‘injury in fact’ that is (a)

79a
Appendix H
concrete and particularized and (b) actual or imminent,
not conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged action of the defendant; and
(3) it is likely, as opposed to merely speculative, that the
injury will be redressed by a favorable decision.” Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528
U.S. 167, 180-81, 120 S. Ct. 693, 145 L. Ed. 2d 610 (2000)
(citing Lujan, 504 U.S. at 560-61). The party invoking
federal jurisdiction bears the burden of establishing that
the standing requirements of Article III are satisfied.
Spokeo, 136 S. Ct. at 1547.
B. 	Discussion
In United States v. Hays, 515 U.S. 737, 115 S. Ct. 2431,
132 L. Ed. 2d 635 (1995) and Sinkfield v. Kelley, 531 U.S.
28, 121 S. Ct. 446, 148 L. Ed. 2d 329 (2000), plaintiffs
challenged the way district boundary lines were drawn
as unconstitutional racial gerrymanders in violation of
the equal protection clause. In Hays, the Supreme Court
addressed the requirements of injury in fact, stating:
Any citizen able to demonstrate that he or she,
personally, has been injured by that kind of
racial classification has standing to challenge the
classification in federal court. Demonstrating
the individualized harm our standing doctrine
requires may not be as easy in the racial
gerrymander context, as it will frequently be
difficult to discern why a particular citizen
was put in one district or another . . . . Where
a plaintiff resides in a racially gerrymandered
district, however, the plaintiff has been denied

80a
Appendix H
equal treatment because of the legislature’s
reliance on racial criteria, and therefore has
standing to challenge the legislature’s action.
Hays, 515 U.S. at 744-45. The Court stated, “[W]e have
repeatedly refused to recognize a generalized grievance
against allegedly illegal governmental conduct as sufficient
for standing to invoke the federal judicial power.” Id. at
743. In Sinkfield and Hays, the Supreme Court determined
that the challengers lacked standing to assert an equal
protection claim because they did not allege or produce
any evidence to establish that they “had been personally
subjected to a racial classification.” Sinkfield, 531 U.S. at
30; see also Hays, 515 U.S. at 746 (“The fact that Act 1
affects all Louisiana voters by classifying each of them
as a member of a particular congressional district does
not mean - even if Act 1 inflicts race-based injury on some
Louisiana voters - that every Louisiana voter has standing
to challenge Act 1 as a racial classification.”); Sinkfield, 531
U.S. at 30 (“Appellees are challenging their own majoritywhite districts as the product of unconstitutional racial
gerrymandering under a redistricting plan whose purpose
was the creation of majority-minority districts, some of
which border appellees’ district. Like the appellees in
Hays, they have neither alleged nor produced any evidence
that any of them was assigned to his or her district as a
direct result of having ‘personally been subjected to a
racial classification.’”).
Higginson’s equal protection claim is distinguishable
from the claims in Hays and Sinkfield. Higginson does
not challenge the boundaries of his particular district.
Higginson asserts that he has been personally subjected

81a
Appendix H
to a racial classification because he is now limited to voting
in District 2 and that all of the City’s districts are racially
gerrymandered as a result of the districting imposed on
the City by the facially-unconstitutional CVRA. See ECF
No. 1 at ¶ 10. Higginson alleges, “District 2, like all of the
City’s districts is racially gerrymandered as a result of
the redistricting the [CVRA] has imposed on the City.”
Id. Higginson contends that a political subdivision that
changes its election system in an effort to comply with
the CVRA denies each of its citizens equal treatment
because of the CVRA’s reliance on race-based criteria.
Under Higginson’s theory of liability, all citizens of Poway
have suffered an injury in fact and have standing to bring
an equal protection claim against the Attorney General
challenging the constitutionality of the CVRA.
California law expressly permits the City to elect
members of a legislative body through by-district
elections. Section 34886 of the California Government
Code provides:
[T]he legislative body of a city may adopt an
ordinance that requires the members of the
legislative body to be elected by district or by
district with an elective mayor, as described
in subdivisions (a) and (c) of Section 34871,
without being required to submit the ordinance
to the voters for approval. An ordinance
adopted pursuant to this section shall include
a declaration that the change in the method
of electing members of the legislative body is
being made in furtherance of the purposes of
the California Voting Rights Act of 2001.

82a
Appendix H
Cal. Gov’t Code § 34886. Section 34886 expressly
authorizes a political subdivision like the City to adopt
by-district elections without voter approval and in
furtherance of the CVRA. See also Cal. Gov’t Code § 34871
(authorizing a legislative body to submit to voters an
ordinance providing for by-district elections for members
of the legislative body). Assuming that Higginson’s
inability to vote for councilmembers in three of the four
districts after the enactment of Map 133 could constitute
an “invasion of a legally protected interest” under Ninth
Circuit precedent in an equal protection case, Higginson
must plead facts to demonstrate that his injury is “fairly
traceable” to requirements imposed on the City by the
CVRA. Lujan, 504 U.S. at 560; see League of United Latin
American Citizens, Dist. 19 v. City of Boerne, 659 F.3d
421, 430 (Fifth Cir. 2011) (determining that the deprivation
of a “pre-existing right to vote for all the members of the
city council which has jurisdiction over the city where he
lives” constituted an injury sufficient to satisfy Article
III). Higginson’s claim that he suffered an injury because
District 2 is a product of racial gerrymandering relies on
his allegation that the requirements of the CVRA forced
the City to create District 2 and his legal conclusion that
the CVRA is a facially unconstitutional law requiring
political subdivisions to violate the equal protection
clause.4 Id. ¶¶ 5, 10, 59.
4. In Sanchez v. City of Modesto, a California appellate court
considered a facial challenge on equal protection grounds to the
CVRA and determined that the CVRA was constitutional. 145 Cal.
App. 4th 660, 51 Cal. Rptr. 3d 821, 837 (Ct. App. 2006) (“The CVRA
is nondiscriminatory, not subject to strict scrutiny, and passed
rational basis review”).

83a
Appendix H
To satisfy the causation element of Article III
standing, “there must be a causal connection between the
injury and the conduct complained of - the injury has to be
fairly traceable to the challenged action of the defendant,
and not the result of the independent action of some third
party not before the court.” Lujan, 504 U.S. at 560; see
also Bennett v. Spear, 520 U.S. 154, 167, 117 S. Ct. 1154, 137
L. Ed. 2d 281 (1997). “To plausibly allege that the injury
was ‘not the result of the independent action of some third
party’ . . . the plaintiff must offer facts showing that the
government’s unlawful conduct ‘is at least a substantial
factor motivating the third parties’ actions.’” Mendia
v. Garcia, 768 F.3d 1009, 1013 (9th Cir. 2014). “Lujan
states that when ‘causation and redressability . . . hinge
on response of the regulated (or regulable) third party to
the government action,’ more particular facts are needed
to show standing.” Nat’l Audubon Soc’y, Inc. v. Davis,
307 F.3d 835, 849 (9th Cir.), opinion amended on denial
of reh’g, 312 F.3d 416 (9th Cir. 2002) (citing Lujan, 504
U.S. at 561-62). “That’s so because the third parties may
well have engaged in their injury-inflicting actions even
in the absence of the government’s challenged conduct.”
Mendia, 768 F.3d at 1013 (citing Americans for Safe
Access v. DEA, 706 F.3d 438, 448, 403 U.S. App. D.C. 388
(D.C. Cir. 2013)); see Novak v. United States, 795 F.3d 1012,
1019 (9th Cir. 2015) (quoting Mendia, 768 F.3d at 1013)
(“Plaintiffs themselves have alleged facts showing that
the two companies ‘may well have engaged in their injuryinflicting actions even in the absence of the government’s
challenged conduct.’ . . . This is fatal to Plaintiffs’ effort
to allege causation.”)

84a
Appendix H
In this case, the Complaint does not allege any existing
or threatened enforcement action under the CVRA against
the City by the Attorney General or other state agency
which motivated the City’s switch to by-district elections.
However, Higginson asserts that the Attorney General
is the appropriate party to sue in this facial challenge to
the CVRA because the Attorney General is the individual
responsible for enforcing the CVRA, relying on Ex Parte
Young, 209 U.S. 123, 28 S. Ct. 441, 52 L. Ed. 714 (1908).
In Ex Parte Young, the Supreme Court established
an exception to Eleventh Amendment sovereign immunity
which otherwise protects states against suits by citizens
in federal court. 209 U.S. 123, 28 S. Ct. 441, 52 L. Ed.
714 (1908). The Ex Parte Young exception to Eleventh
Amendment sovereign immunity provides that “private
individuals may sue state officials for prospective relief
against ongoing violations of federal law.” Nat’l Audubon
Soc’y, 307 F.3d at 847. For the exception to apply, the state
official “must have some connection with enforcement of
the act.” Association des Eleveurs de Canards et d’Oies
du Quebec v. Harris, 729 F.3d 937, 943 (9th Cir. 2013)
(citing Ex Parte Young, 209 U.S. at 157). However, “a
present threat of enforcement” is not required to satisfy
Ex Parte Young. Nat’l Audubon Soc’y, 307 F.3d at 847.
The Ninth Circuit Court of Appeals has determined
any “imminence” requirement is addressed by “general
Article III and prudential ripeness requirements.” Id.
(“We decline to read additional ‘ripeness’ or ‘imminence’
requirements into the Ex Parte Young exception to
Eleventh Amendment immunity in actions for declaratory
relief beyond those already imposed by a general Article

85a
Appendix H
III and prudential ripeness analysis. The Article III
and prudential ripeness requirements . . . are tailored to
address problems occasioned by an unripe controversy.”);
Association des Eleveurs, 729 F.3d at 944 (“[A] plaintiff
need not show that a ‘present threat of enforcement’
exists before invoking the Ex Parte Young exception . . . .
Instead, a state official who contends that he or she will
not enforce the law may challenge plaintiff’s Article III
standing based on an ‘unripe controversy.’”). In this case,
the Attorney General has not challenged Higginson’s
action on Eleventh Amendment grounds and Ex Parte
Young does not provide support for Higginson’s contention
that the causation element of Article III standing is met
simply because the Attorney General enforces the CVRA.
In cases challenging the constitutionality of legislation,
the Ninth Circuit Court of Appeals has consistently held
that the “mere existence of a statute” or a “generalized
threat of prosecution” are insufficient to satisfy Article
III standing. See San Diego Cty. Gun Rights Comm.
v. Reno, 98 F.3d 1121, 1126 (9th Cir. 1996) (quoting
Stoianoff v. Montana, 695 F.2d 1214, 1223 (9th Cir.
1983)) (“We have repeatedly admonished, however, that
‘[t]he mere existence of a statute, which may or may not
ever be applied to plaintiffs, is not sufficient to create a
case or controversy within the meaning of Article III.’”);
Thomas v. Anchorage Equal Rights Comm’n, 220 F.3d
1134, 1139 (9th Cir. 2000) (“We have held that neither the
mere existence of a proscriptive statute nor a generalized
threat of prosecution satisfies the ‘case or controversy’
requirement. . . . Rather, there must be a ‘genuine threat
of imminent prosecution.’”).

86a
Appendix H
In this case, Higginson alleges,
The City Council adopted Resolution No. 17046 setting forth its intention to transition
from at-large to by-district elections, pursuant
to Elections Code section 10010(e)(3)(A). The
Resolution stated that after “the City [had]
received a letter threatening action under
the California Voting Rights Act,” it had
“determined that it is in the best interest of the
City to move from its current at-large electoral
system to a by-district election for members of
the City Council, in furtherance of the purposes
of California Voting Rights Act.”
(ECF No. 1 at ¶ 47). Higginson alleges, “The City would
not have switched from at-large elections to single-district
elections but for the prospect of liability under the CVRA.”
Id. ¶ 52. However, the conclusory allegation that the City
would not have “switched from at-large elections to bydistrict elections but for the prospect of liability under the
CVRA” is unsupported by the facts of the Complaint. Id.
The CVRA does not require political subdivisions to
take action in the absence of racially-polarized voting.
See Cal. Elec. Code. §§ 14027, 14028. Higginson does not
allege facts supporting an inference that the decision to
adopt by-district elections was motivated by an effort to
address racially-polarized voting in the City’s at-large
elections or an effort to address a CVRA violation. The
factual allegations of the Complaint demonstrate that
the members of the City Council uniformly denied the
existence of any CVRA violation under the at-large

87a
Appendix H
elections. See ECF No. 1 at ¶¶ 44-46. The facts alleged in
the Complaint support the conclusion that the decision to
change to by-district elections was a voluntary business
decision made in the “best interest” of the City and to avoid
the costs of litigation. See, e.g., id. ¶ 47 (“The Resolution
stated . . . ‘it is in the best interest of the City to move
from its current at-large electoral system to a by-district
election for members of the City Council, in furtherance
of the purposes of [the] California Voting Rights Act.’”);
id. ¶ 42 (“City councilmember Jim Cunningham explained
that ‘the [safe-harbor] provision is truly the shield
. . . we are using to avoid attorney’s fees, and costs, and
protracted litigation.’”); id. ¶ 45 (“We don’t pick certain
people in certain neighborhoods and say we’ll treat them
any differently. There is no evidence of that whatsoever.”);
id. ¶ 46 (“Mayor Steve Vaus concluded, ‘I’ll just echo that
this council does a remarkable job [with at-large elections]
. . . . But we’ve got to do what we’ve got to do. And job one
is to protect the treasure of our constituents. And it’s their
money we’d be putting at risk [with litigation] and none
of us are willing to do that.’”). Higginson does not allege
sufficient facts to support an inference that the switch to
by-district elections was motivated by an effort to comply
with the requirements imposed on the City by the CVRA.
During oral argument, Higginson compared this
case to National Audubon Society and argued that the
CVRA was a but-for cause of the City’s decision to switch
to by-district elections. In National Audubon Society,
the Ninth Circuit Court of Appeals determined that a
nonprofit organization focused on bird life conservation
had Article III standing to challenge a state proposition
which banned the use of certain types of animal traps.

88a
Appendix H
Nat’l Audubon Soc’y, 307 F.3d at 848-49. Following the
enactment of the state statute, the federal government
removed certain animal traps in California in order to
comply with the requirements of the state statute. The
nonprofit organization sought a declaration that the
state statute was preempted and could not be enforced
by state officials against federal trapping efforts. Id. at
848. The Court concluded that the organization alleged
sufficient injury to “the aesthetic, recreational, and
scientific interest of its members in the observation of
birds and other wildlife” that occurred when the federal
government removed its traps and exposed the bird
population to “immediate risk of harm.” Id. at 849. The
Court of Appeals determined that the injury was “‘fairly
traceable’ to Proposition 4 because the federal government
removed traps in direct response to Proposition 4.” Id. The
Court stated that “there was no need to probe precisely
why the federal government removed the traps . . . beyond
the uncontested fact that the traps would not have been
removed but for Proposition 4.” Id.
In this case, the allegations of the Complaint do not
support an inference that the requirements imposed on
the City by the CVRA were a but-for cause of the City’s
decision to switch to by-district elections. Rather than
adopting by-district elections in an effort to comply
with the requirements imposed by the CVRA, the City
allegedly adopted by-district elections after receiving the
demand letter from a private party5 in an effort to avoid
5. The CVRA provides for a private cause of action by
“[a]ny voter who is a member of a protected class and who resides in
a political subdivision where a violation of Sections 14027 and 14028
is alleged.” Cal. Elec. Code § 14032.

89a
Appendix H
the costs of litigation. The Court concludes that Higginson
does not allege sufficient facts to support an inference
that the decision to switch to by-district elections and
any resulting injury to Higginson is “fairly traceable” to
the requirements imposed on the City by the CVRA. See
Lujan, 504 U.S. at 560.
To satisfy A rticle III standing requirements,
Higginson must further establish that “it is likely, as
opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Friends of the Earth,
528 U.S. at 180-81 (citing Lujan, 504 U.S. at 560-61).
California law permits the City to use a by-district
election system. See Cal. Gov’t Code §§ 34886, 34871. The
allegations of the Complaint support a conclusion that the
City “determined that it [was] in the best interest of the
City to move from its current at-large electoral system
to a by-district election for members of the City Council,
in furtherance of the purposes of [the] California Voting
Rights Act.” (ECF No. 1 at ¶ 47). Even accepting the legal
conclusion that the CVRA is unconstitutional, a decision
favorable to Higginson would not preclude the City
from using Map 1336 or require the City to ensure that
Higginson could vote for all four councilmembers under
the facts alleged in the Complaint. The allegations of the
Complaint are insufficient to establish that “it is likely,
as opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Friends of the Earth,
528 U.S. at 180-81 (citing Lujan, 504 U.S. at 560-61).
6. At oral argument, counsel for the City opposed an injunction
permanently enjoining use of Map 133.

90a
Appendix H
Higginson fails to allege sufficient facts to establish
Article III standing to bring this equal protection claim
against the Attorney General. The Attorney General’s
motion to dismiss the complaint for lack of subject matter
jurisdiction is granted.
V. 	THE CITY OF POWAY
The City has not filed a motion to dismiss and has
repeatedly asserted that it intends to maintain a neutral
position in this litigation. The Court has “the power and
duty to raise the adequacy of . . . standing sua sponte.”
Bernhardt v. County of L.A., 279 F.3d 862, 868 (9th Cir.
2002). The Court concludes that the Complaint must be
dismissed as to the City because Higginson has failed to
allege sufficient facts to establish that the City’s decision
to switch to by-district elections is fairly traceable to
the requirements imposed by the CVRA on the City or
that the City’s decision to pass the ordinance changing
to by-district elections was otherwise driven by race.
In addition, Higginson fails to allege sufficient facts to
establish that a favorable outcome is likely to redress
any harm to Higginson. The Complaint is dismissed with
respect to the City for lack of subject matter jurisdiction.
VI. MOTION FOR PRELIMINARY INJUNCTION
Higginson seeks a preliminary injunction pursuant to
Federal Rule of Civil Procedure 65(a) which temporarily
enjoins “Defendant Attorney General Xavier Becerra and
his agents from enforcing the California Voting Rights
Act and Defendant City of Poway from using Map 133

91a
Appendix H
for elections during the pendency of this action.” (ECF
No. 11). In the opposition to the preliminary injunction,
the Attorney General raises Article III standing as
a “threshold matter” precluding this suit and the
preliminary injunction. (ECF No. 22). The City maintains
its neutral position in this litigation with respect to the
preliminary injunction.
“[A] preliminary injunction is an extraordinary and
drastic remedy, one that should not be granted unless
the movant, by a clear showing, carries the burden of
persuasion.” Mazurek v. Armstrong, 520 U.S. 968, 972, 117
S. Ct. 1865, 138 L. Ed. 2d 162 (1997) (quotation omitted). To
obtain preliminary injunctive relief, a movant must show
“that he is likely to succeed on the merits, that he is likely
to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and
that an injunction is in the public interest.” Winter v.
NRDC, Inc., 555 U.S. 7, 20, 129 S. Ct. 365, 172 L. Ed. 2d
249 (2008); see also Am. Trucking Ass’ns v. City of Los
Angeles, 559 F.3d 1046, 1052 (9th Cir. 2009).
The Court cannot conclude that Higginson has
demonstrated a likelihood of success on the merits in light
of the determination that the Complaint fails to allege
sufficient facts to establish subject matter jurisdiction.
The motion for a preliminary injunction is denied.
VII. AMICUS BRIEFS
The City of Mission Viejo and the San Gabriel Council
of Governments have both filed applications to file amicus

92a
Appendix H
briefs in this case. (ECF Nos. 49, 53). The Court has
previously granted the City of Mission Viejo’s application.
(ECF No. 51). The Court grants the Application for Leave
to File Amici Curiae Brief of the San Gabriel Council of
Governments et al. in support of Plaintiff’s Motion for
Preliminary Injunction. (ECF No. 53). The Amicus Curiae
Brief attached to the motion is deemed filed. The Court
has considered both briefs in ruling on the motion for a
preliminary injunction.
VIII. MOTION TO INTERVENE
Because the Court has determined that it lacks
subject matter jurisdiction over this action, the motion to
intervene as defendants filed by the Proposed Intervenors
is denied without prejudice as moot. See United States v.
Ford, 650 F.2d 1141, 1143 (9th Cir. 1981) (“Since there is
no longer any action in which appellants can intervene,
judicial consideration of the question would be fruitless.”).
IX.	CONCLUSION
IT IS HEREBY ORDERED that the motion to dismiss
for lack of subject matter jurisdiction filed by Defendant
Attorney General Xavier Becerra is GRANTED. (ECF
No. 33). The Complaint is dismissed without prejudice as to
Defendant City of Poway and Defendant Attorney General
Xavier Becerra. Any motion for leave to file an amended
complaint shall be filed within 30 days of the date of this
Order and pursuant to Local Rule 7.1.
IT IS FURTHER ORDERED that the motion for a
preliminary injunction filed by Plaintiff Don Higginson
is DENIED. (ECF No. 11).

93a
Appendix H
IT IS FURTHER ORDERED that the motion to
intervene filed by California League of United Latin
American Citizens, Jacqueline Contreras, Xavier Flores,
Judy Ki, and Hiram Soto is DENIED. (ECF No. 18).
IT IS FURTHER ORDERED that the motion for
leave to file an amicus brief in support of the motion for
a preliminary injunction filed by the San Gabriel Valley
Council of Governments et al. is GRANTED. (ECF No.
53). The amicus brief attached to the motion is deemed
filed.
IT IS FURTHER ORDERED that the Request for
Leave to File Supplemental Joinder Letters in Support of
San Gabriel Governments’ Amicus Brief is GRANTED.
(ECF No. 64).
Dated: February 23, 2018
/s/ William Q. Hayes
Hon. William Q. Hayes
United States District Judge

94a
Appendix
I UNITED STATES
Appendix I — ORDER
of the
COURT OF APPEALS FOR THE NINTH CIRCUIT,
FILED JULY 31, 2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55455
D.C. No. 3:17-cv-02032-WQH-JLB
Southern District of California, San Diego
DON HIGGINSON,
Plaintiff-Appellant,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants-Appellees.
––––––––––––––––––––––––––––––
No. 18-55506
D.C. No. 3:17-cv-02032-WQH-JLB
DON HIGGINSON,
Plaintiff-Appellee,
v.

95a
Appendix I
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF CALIFORNIA;
CITY OF POWAY,
Defendants,
v.
CALIFORNIA LEAGUE OF UNITED LATIN
AMERICAN CITIZENS; JACQUELINE
CONTRERAS; XAVIER FLORES; JUDY KI; HIRAM
SOTO, PROPOSED DEFENDANT-INTERVENORS,
Movants-Appellants.
July 31, 2018, Filed
Southern District of California, San Diego.
D.C. No. 3:17-cv-02032-WQH-JLB
Before: GRABER and M. SMITH, Circuit Judges, and
HELLERSTEIN,* District Judge.
ORDER
Movants-Appellants’ petition for panel rehearing
filed in case No. 18-55506 is GRANTED in part. The
memorandum disposition filed June 14, 2018, is amended
* The Honorable Alvin K. Hellerstein, United States
District Judge for the Southern District of New York, sitting by
designation.

96a
Appendix I
by the memorandum disposition filed concurrently with
this order, as follows:
On page 3, at the end of paragraph 1, insert the
following:
See, e.g., Branch v. Smith, 538 U.S. 254, 123 S.
Ct. 1429, 155 L. Ed. 2d 407 (2003) (considering
on the merits a challenge to a redistricting plan
by individual voters in the affected geographic
area). We, of course, express no view on
the merits of any of Plaintiff’s theories. See
Ariz. State Legislature v. Ariz. Independent
Redistricting Comm’n, 135 S. Ct. 2652, 2663,
192 L. Ed. 2d 704 (2015) (holding that the
state legislature had standing to challenge
redistricting and cautioning that courts must
not conflate the potential weakness of a claim
on the merits with an absence of Article III
standing).
With this amendment, Judges Graber and M.
Smith have voted to deny Movants-Appellants’ petition
for rehearing en banc, and Judge Hellerstein has so
recommended.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested
a vote on it.
Movants-Appellants’ petition for rehearing en banc
is DENIED.

97a
Appendix I
Movants-Appellants’ “Motion for Designation as
Party-Respondents” in case No. 18-55455 is DENIED
and “Motion to Recall the Mandate” in case No. 18-55455
is GRANTED only for the limited purpose of filing this
order to amend the memorandum disposition filed June
14, 2018.
No further petitions for panel rehearing or for
rehearing en banc may be filed. The mandates in these
cases shall issue forthwith.

98a
Appendix Jconstitutional
Appendix J — relevant
provisions and statutes
U.S. Const. Amend. XIV, Section 1
Section 1. All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they reside.
No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.

99a
Appendix J
52 U.S.C.A. § 10301
Formerly cited as 42 USCA § 1973
§ 10301. Denial or abridgement of right to vote on
account of race or color through voting qualifications or
prerequisites; establishment of violation
(a) No voting qualification or prerequisite to voting or
standard, practice, or procedure shall be imposed or
applied by any State or political subdivision in a manner
which results in a denial or abridgement of the right of
any citizen of the United States to vote on account of race
or color, or in contravention of the guarantees set forth in
section 10303(f)(2) of this title, as provided in subsection
(b).
(b) A violation of subsection (a) is established if, based on
the totality of circumstances, it is shown that the political
processes leading to nomination or election in the State or
political subdivision are not equally open to participation
by members of a class of citizens protected by subsection
(a) in that its members have less opportunity than other
members of the electorate to participate in the political
process and to elect representatives of their choice. The
extent to which members of a protected class have been
elected to office in the State or political subdivision is
one circumstance which may be considered: Provided,
That nothing in this section establishes a right to have
members of a protected class elected in numbers equal
to their proportion in the population.

100a
Appendix J
West’s Ann.Cal.Elec.Code § 10010
§ 10010. Political subdivision changing from atlarge method of election to district-based election or
establishing district-based elections; public hearings;
application; notice of action
(a) A political subdivision that changes from an at-large
method of election to a district-based election, or that
establishes districtbased elections, shall do all of the
following before a public hearing at which the governing
body of the political subdivision votes to approve or defeat
an ordinance establishing district-based elections:
(1) Before drawing a draft map or maps of the proposed
boundaries of the districts, the political subdivision shall
hold at least two public hearings over a period of no more
than 30 days, at which the public is invited to provide
input regarding the composition of the districts. Before
these hearings, the political subdivision may conduct
outreach to the public, including to non-English-speaking
communities, to explain the districting process and to
encourage public participation.
(2) After all draft maps are drawn, the political subdivision
shall publish and make available for release at least one
draft map and, if members of the governing body of the
political subdivision will be elected in their districts at
different times to provide for staggered terms of office,
the potential sequence of the elections. The political
subdivision shall also hold at least two additional hearings
over a period of no more than 45 days, at which the public

101a
Appendix J
is invited to provide input regarding the content of the
draft map or maps and the proposed sequence of elections,
if applicable. The first version of a draft map shall be
published at least seven days before consideration at a
hearing. If a draft map is revised at or following a hearing,
it shall be published and made available to the public for
at least seven days before being adopted.
(b) In determining the final sequence of the district
elections conducted in a political subdivision in which
members of the governing body will be elected at
different times to provide for staggered terms of office,
the governing body shall give special consideration to the
purposes of the California Voting Rights Act of 2001, and
it shall take into account the preferences expressed by
members of the districts.
(c) This section applies to, but is not limited to, a proposal
that is required due to a court-imposed change from an
at-large method of election to a district-based election.
(d) For purposes of this section, the following terms have
the following meanings:
(1) “At-large method of election” has the same meaning
as set forth in subdivision (a) of Section 14026.
(2) “District-based election” has the same meaning as set
forth in subdivision (b) of Section 14026.
(3) “Political subdivision” has the same meaning as set
forth in subdivision (c) of Section 14026.

102a
Appendix J
(e)(1) Before commencing an action to enforce Sections
14027 and 14028, a prospective plaintiff shall send by
certified mail a written notice to the clerk of the political
subdivision against which the action would be brought
asserting that the political subdivision’s method of
conducting elections may violate the California Voting
Rights Act of 2001.
(2) A prospective plaintiff shall not commence an action
to enforce Sections 14027 and 14028 within 45 days of
the political subdivision’s receipt of the written notice
described in paragraph (1).
(3)(A) Before receiving a written notice described in
paragraph (1), or within 45 days of receipt of a notice, a
political subdivision may pass a resolution outlining its
intention to transition from at-large to district-based
elections, specific steps it will undertake to facilitate this
transition, and an estimated timeframe for doing so.
(B) If a political subdivision passes a resolution pursuant
to subparagraph (A), a prospective plaintiff shall not
commence an action to enforce Sections 14027 and 14028
within 90 days of the resolution’s passage.
(C)(i) A political subdivision and the prospective plaintiff
who first sends a notice pursuant to paragraph (1) may
enter into a written agreement to extend the time period
described in subparagraph (B) for up to an additional 90
days in order to provide additional time to conduct public
outreach, encourage public participation, and receive
public input. The written agreement shall include a

103a
Appendix J
requirement that the district boundaries be established
no later than six months before the political subdivision’s
next regular election to select governing board members.
However, in a political subdivision that holds a primary
election as part of its process for selecting governing
board members, the written agreement shall include a
requirement that district boundaries be established no
later than six months before the political subdivision’s
next regular primary election.
(ii) No later than 10 days after a political subdivision
enters into a written agreement pursuant to clause (i),
the political subdivision shall prepare and make available
on its internet website a tentative schedule of the public
outreach events and the public hearings held pursuant to
this section. If a political subdivision does not maintain an
internet website, the political subdivision shall make the
tentative schedule available to the public upon request.
(f)(1) If a political subdivision adopts an ordinance
establishing district-based elections pursuant to
subdivision (a), a prospective plaintiff who sent a written
notice pursuant to paragraph (1) of subdivision (e) before
the political subdivision passed its resolution of intention
may, within 30 days of the ordinance’s adoption, demand
reimbursement for the cost of the work product generated
to support the notice. A prospective plaintiff shall make
the demand in writing and shall substantiate the demand
with financial documentation, such as a detailed invoice for
demography services. A political subdivision may request
additional documentation if the provided documentation
is insufficient to corroborate the claimed costs. A political

104a
Appendix J
subdivision shall reimburse a prospective plaintiff for
reasonable costs claimed, or in an amount to which the
parties mutually agree, within 45 days of receiving the
written demand, except as provided in paragraph (2). In all
cases, the amount of the reimbursement shall not exceed
the cap described in paragraph (3).
(2) If more than one prospective plaintiff is entitled to
reimbursement, the political subdivision shall reimburse
the prospective plaintiffs in the order in which they sent
a written notice pursuant to paragraph (1) of subdivision
(e), and the 45-day time period described in paragraph (1)
shall apply only to reimbursement of the first prospective
plaintiff who sent a written notice. The cumulative amount
of reimbursements to all prospective plaintiffs shall not
exceed the cap described in paragraph (3).
(3) The amount of reimbursement required by this section
is capped at thirty thousand dollars ($30,000), as adjusted
annually to the Consumer Price Index for All Urban
Consumers, United States city average, as published by
the United States Department of Labor.

105a
Appendix J
West’s Ann.Cal.Elec.Code § 14026
§ 14026. Definitions
***
(d) “Protected class” means a class of voters who are
members of a race, color, or language minority group, as
this class is referenced and defined in the federal Voting
Rights Act of 1965 (52 U.S.C. Sec. 10301 et seq.).
(e) “Racially polarized voting” means voting in which
there is a difference, as defined in case law regarding
enforcement of the federal Voting Rights Act of 1965 (52
U.S.C. Sec. 10301 et seq.), in the choice of candidates or
other electoral choices that are preferred by voters in
a protected class, and in the choice of candidates and
electoral choices that are preferred by voters in the rest
of the electorate. The methodologies for estimating group
voting behavior as approved in applicable federal cases to
enforce the federal Voting Rights Act of 1965 (52 U.S.C.
Sec. 10301 et seq.) to establish racially polarized voting
may be used for purposes of this section to prove that
elections are characterized by racially polarized voting.

106a
Appendix J
West’s Ann.Cal.Elec.Code § 14027
§ 14027. At-large method of election
affecting protected class voters
An at-large method of election may not be imposed or
applied in a manner that impairs the ability of a protected
class to elect candidates of its choice or its ability to
influence the outcome of an election, as a result of the
dilution or the abridgment of the rights of voters who
are members of a protected class, as defined pursuant to
Section 14026.

107a
Appendix J
West’s Ann.Cal.Elec.Code § 14028
§ 14028. Violation of protected class voter rights;
determination
(a) A violation of Section 14027 is established if it is shown
that racially polarized voting occurs in elections for
members of the governing body of the political subdivision
or in elections incorporating other electoral choices by the
voters of the political subdivision. Elections conducted
prior to the filing of an action pursuant to Section 14027
and this section are more probative to establish the
existence of racially polarized voting than elections
conducted after the filing of the action.
(b) The occurrence of racially polarized voting shall be
determined from examining results of elections in which
at least one candidate is a member of a protected class
or elections involving ballot measures, or other electoral
choices that affect the rights and privileges of members
of a protected class. One circumstance that may be
considered in determining a violation of Section 14027
and this section is the extent to which candidates who are
members of a protected class and who are preferred by
voters of the protected class, as determined by an analysis
of voting behavior, have been elected to the governing body
of a political subdivision that is the subject of an action
based on Section 14027 and this section. In multiseat atlarge election districts, where the number of candidates
who are members of a protected class is fewer than the
number of seats available, the relative groupwide support
received by candidates from members of a protected class
shall be the basis for the racial polarization analysis.

108a
Appendix J
(c) The fact that members of a protected class are not
geographically compact or concentrated may not preclude
a finding of racially polarized voting, or a violation of
Section 14027 and this section, but may be a factor in
determining an appropriate remedy.
(d) Proof of an intent on the part of the voters or elected
officials to discriminate against a protected class is not
required.
(e) Other factors such as the history of discrimination,
the use of electoral devices or other voting practices
or procedures that may enhance the dilutive effects of
at-large elections, denial of access to those processes
determining which groups of candidates will receive
financial or other support in a given election, the extent to
which members of a protected class bear the effects of past
discrimination in areas such as education, employment,
and health, which hinder their ability to participate
effectively in the political process, and the use of overt or
subtle racial appeals in political campaigns are probative,
but not necessary factors to establish a violation of Section
14027 and this section.

109a
Appendix J
West’s Ann.Cal.Elec.Code § 14029
§ 14029. Remedies for violation of §§ 14027 and 14028
Upon a finding of a violation of Section 14027 and Section
14028, the court shall implement appropriate remedies,
including the imposition of district-based elections, that
are tailored to remedy the violation.

110a
Appendix J
West’s Ann.Cal.Elec.Code § 14030
§ 14030. Attorney’s fees and costs
In any action to enforce Section 14027 and Section 14028,
the court shall allow the prevailing plaintiff party, other
than the state or political subdivision thereof, a reasonable
attorney’s fee consistent with the standards established in
Serrano v. Priest (1977) 20 Cal.3d 25, 48-49, and litigation
expenses including, but not limited to, expert witness fees
and expenses as part of the costs. Prevailing defendant
parties shall not recover any costs, unless the court
finds the action to be frivolous, unreasonable, or without
foundation.

111a
Appendix K to the UNITED
Appendix K — COMPLAINT
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF CALIFORNIA, FILED
OCTOBER 4, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
CASE NO. 17CV2032WQHJLB
DON HIGGINSON,
Plaintiff,
v.
XAVIER BECERRA, in his official capacity
as ATTORNEY GENERAL OF CALIFORNIA; and
CITY OF POWAY, CALIFORNIA,
Defendants.
COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF
Plaintiff Don Higginson brings this action against
Defendants Attorney General Xavier Becerra and the City
of Poway, California to have the California Voting Rights
Act and Map 133 declared unconstitutional and to enjoin
their enforcement. Plaintiff alleges as follows:

112a
Appendix K
INTRODUCTION
The Equal Protection Clause of the Fourteenth
Amendment “prevents a State, in the absence of ‘sufficient
justification,’ from ‘separating its citizens into different
voting districts on the basis of race.’” Cooper v. Harris,
137 S. Ct. 1455, 1463 (2017) (citation omitted). “[I]f racial
considerations predominated over others, the design of
the district must withstand strict scrutiny.” Id. at 1464.
2. The Supreme Court has assumed—but not yet
decided—that complying with Section 2 of the Voting
Rights Act of 1965 (“VRA”), which has been interpreted
to protect minorities against vote dilution, could be a
compelling interest that upholds a districting plan. Id.
But the Court also has emphasized that Section 2 is in
obvious tension with the Fourteenth Amendment because
it, by definition, makes race the predominant factor in
districting decisions.
3. The Supreme Court issued a series of decisions,
beginning with Thornburg v. Gingles, 478 U.S. 30 (1986),
in an attempt to address this concern. Ultimately, the
Court held that an at-large voting system will violate
Section 2 only if a minority group proves both that it can
form a compact single-member district and that voting
is racially polarized. These requirements, the Court has
warned, ensure that Section 2 is an anti-discrimination
provision, and not an unconstitutional mandate to
maximize electoral power on the basis of race.

113a
Appendix K
4. The California Legislature did not heed the
Supreme Court’s warning. Instead, California passed its
own voting rights act—the California Voting Rights Act of
2001 (“CVRA”)—to override the constraints the Supreme
Court has imposed in an attempt to save Section 2 from
unconstitutionality. Under the CVRA, local governments
must abandon at-large voting systems if racially polarized
voting exists—regardless of whether the minority group is
sufficiently large and geographically compact to constitute
a majority in a single-member district.
5. Accordingly, the CVRA flagrantly violates the
Fourteenth Amendment. Its “race-based sorting of
voters” does not serve a “compelling interest” nor is it
“narrowly tailored.” Cooper, 137 S. Ct. at 1464.
6. The City of Poway is one of many California localities
that for decades used at-large voting to elect its City
Council. Recently, however, the City received a demand
letter alleging that racially polarized voting existed in
the City, and that the City therefore would be sued under
the CVRA—and exposed to legal liability and millions of
dollars of fees—unless it switched to by-district elections.
Given the prospect of liability, the City complied with the
CVRA and abandoned at-large voting. On October 3, 2017,
the City enacted four single-member districts solely as a
consequence of the CVRA. City elections using these new
districts will be held in 2018.
7. Don Higginson is a City resident and a registered
voter. Because of the redistricting that the CVRA has
imposed on the City, Mr. Higginson will now reside

114a
Appendix K
in and vote in District 2. The creation of that district,
like all of the City’s new districts, is traceable to the
CVRA’s requirement that the City engage in racial
gerrymandering. Mr. Higginson thus has brought this
action to vindicate his constitutional rights under the
Fourteenth Amendment.
JURISDICTION AND VENUE
8. This Court has jurisdiction to hear and decide
Plaintiff’s claim brought under the Fourteenth Amendment
to the United States Constitution pursuant to 42 U.S.C.
§§ 1983 and 1988, and 28 U.S.C. §§ 1331, 1343(a)(3), and
1357. Declaratory relief is authorized by 28 U.S.C. §§ 2201
and 2202 and Federal Rule of Civil Procedure 57.
9. Venue is proper in this district pursuant to 28 U.S.C.
§ 1391(b).
PARTIES
10. Plaintiff Don Higginson is a City resident and a
registered voter. Because the California Voting Rights
Act has forced the City to abandon at-large elections, he
will now reside in and vote in District 2. Mr. Higginson
alleges that District 2, like all of the City’s districts, is
racially gerrymandered as a result of the redistricting
the California Voting Rights Act has imposed on the City.
11. Defendant Xavier Becerra is the Attorney General
of California. Defendant Becerra is charged by Article
V, Section 13 of the California Constitution with the

115a
Appendix K
duty to see that the laws of California are uniformly and
adequately enforced. He is sued in his official capacity.
12. Defendant City of Poway is a California general law
city and a municipal corporation organized and existing
under and by virtue of the laws of the State of California.
The City is subject to the California Voting Rights Act. As
a direct result of that the City has abandoned its at-large
voting system and switched to by-district elections that
are the product of racial gerrymandering.
FACTUAL ALLEGATIONS
A. The Fourteenth Amendment
13. The Fourteenth Amendment prohibits “racial
gerrymanders in legislative districting plans.” Cooper,
137 S. Ct. at 1463. Absent a “sufficient justification,”
the Fourteenth Amendment forbids a State or political
subdivision from “‘separating its citizens into different
voting districts on the basis of race.’” Bethune-Hill v.
Virginia State Bd. of Elections, 137 S. Ct. 788, 797 (2017)
(quoting Miller v. Johnson, 515 U.S. 900, 911 (1995)).
14. Under controlling precedent, “strict scrutiny
applies when race is the ‘predominant’ consideration
in drawing the district lines such that ‘the legislature
subordinates traditional race-neutral districting
principles ... to racial considerations.’” Shaw v. Hunt,
517 U.S. 899, 907 (1996) (quoting Miller, 515 U.S. at 916).
Once strict scrutiny is triggered, the burden “shifts to the
State to prove that its race-based sorting of voters serves

116a
Appendix K
a ‘compelling interest’ and is ‘narrowly tailored’ to that
end.” Cooper, 137 S. Ct. at 1464.
B. Section 2 of the Voting Rights Act
15. Congress passed the Voting Rights Act of 1965
(“VRA”) to enforce the right to vote free from racial
discrimination. Section 2 thus bars practices “imposed
or applied ... in a manner which results in a denial or
abridgment” of the right to vote. 52 U.S.C. § 10301(a)
(formerly 42 U.S.C. § 1973). A violation of Section 2 “is
established if, based on the totality of circumstances, it is
shown that the political processes leading to nomination or
election in the State or political subdivision are not equally
open to participation by members of a class of citizens
… in that its members have less opportunity than other
members of the electorate to participate in the political
process and to elect representatives of their choice.” Id.
§ 10301(b).
16. Section 2 has been interpreted to protect
minorities against vote dilution, and the Supreme Court
has held that a municipality’s use of multimember and
at-large districts can, in some circumstances, “dilute[]
minority voting strength by submerging [minority] voters
into the white majority, denying them an opportunity to
elect a candidate of their choice.” Bartlett v. Strickland,
556 U.S. 1, 11 (2009). At the same time, the Supreme Court
has tried to interpret Section 2 in a way that might keep it
from violating the Fourteenth Amendment’s ban on racial
gerrymandering.

117a
Appendix K
17. To that end, there are “ three ‘necessar y
preconditions’ for a claim that the use of multimember
[or at-large] districts constitute[s] actionable vote dilution
under § 2: (1) The minority group must be ‘sufficiently
large and geographically compact to constitute a majority
in a single-member district,’ (2) the minority group must
be ‘politically cohesive,’ and (3) the majority must vote
‘sufficiently as a bloc to enable it ... usually to defeat the
minority’s preferred candidate.’” Id. (quoting Gingles,
478 U.S. at 50-51). “In a § 2 case,” therefore, “only when
a party has established the Gingles requirements does a
court proceed to analyze whether a violation has occurred
based on the totality of the circumstances.” Id. at 11-12.
18. The Supreme Court has repeatedly emphasized
the importance of the first Gingles factor—i.e., that the
minority group be sufficiently large and geographically
compact to constitute a majority in a single-member
district—in ensuring that Section 2 enforces the right
to vote instead of requiring racial gerrymandering. The
requirement is “needed to establish that the minority has
the potential to elect a representative of its own choice in
some single-member district.” Growe v. Emison, 507 U.S.
25, 40 (1993). “Without such a showing, ‘there neither has
been a wrong nor can be a remedy.’” Bartlett, 556 U.S. at 15
(quoting Growe, 507 U.S. at 41). Absent this requirement,
in other words, Section 2 would entitle “minority groups
to the maximum possible voting strength,” id. at 16, which
“causes its own dangers, and they are not to be courted,”
Johnson v. De Grandy, 512 U.S. 997, 1016 (1994).

118a
Appendix K
19. The compactness requirement thus has been
indispensable—at least to date—in saving Section 2
from constitutional doubt. Section 2 undeniably makes
race the predominant factor—even with the compactness
precondition in place—when it requires creation of
majority-minority districts. See Shaw, 517 U.S. at 90608. The Supreme Court has “assumed,” but not held,
“that one compelling interest is complying with operative
provisions of the Voting Rights Act of 1965.” Cooper, 137
S. Ct. at 1464. But compliance with Section 2 is assumed
to be a compelling interest only because it is understood
to remedy racial discrimination in voting. Bartlett, 556
U.S. at 10. There is no discrimination to remedy if the
minority population is not sufficiently “compact” such
that it would have “the potential to elect a representative
of its own choice in some single-member district.” Growe,
507 U.S. at 40.
20. Furthermore, the use of race in districting must
be narrowly tailored even assuming the existence of a
compelling interest. Cooper, 137 S. Ct. at 1464. Section 2
could never meet that requirement in the absence of the
compactness precondition. “Racial gerrymandering, even
for remedial purposes, may balkanize us into competing
racial factions; it threatens to carry us further from
the goal of a political system in which race no longer
matters—a goal that the Fourteenth and Fifteenth
Amendments embody, and to which the Nation continues
to aspire.” Shaw v. Reno, 509 U.S. 630, 657 (1993).
Eliminating the compactness requirement, in other words,
would “unnecessarily infuse race into virtually every
redistricting, raising serious constitutional questions.”
Bartlett, 556 U.S. at 21 (citation omitted).

119a
Appendix K
C. The California Voting Rights Act
21. Over time, the California Legislature became
dissatisfied with the Supreme Court’s interpretation of
Section 2 and wanted to “provide a broader basis for
relief from vote dilution than available under the [VRA].”
Jauregui v. City of Palmdale, 172 Cal. Rptr. 3d 333, 350
(Cal. Ct. App. 2014). The Legislature believed that the
Court’s “[r]estrictive interpretations” of Section 2, which
were adopted to try to avoid racial-gerrymandering
concerns, were simply wrong. Assem. Com. on Judiciary,
Analysis of Sen. Bill No. 976 (2001-2002 Reg. Sess.) as
amended Apr. 9. 2002, p.2. Flouting the Supreme Court,
the Legislature concluded that “geographical compactness
would not appear to be an important factor in assessing
whether the voting rights of a minority group have been
diluted or abridged by an at-large election system.” Id.
at 3.
22. The California Voting Rights Act of 2001 (“CVRA”)
was enacted to “avoid that problem.” Id. at 2. The CVRA
thus was designed to “make it easier to successfully
challenge at-large districts” by eliminating the Gingles
precondition that “a minority community be sufficiently
concentrated geographically to create a district in which
the minority community could elect its own candidate.”
Sen. Rules Com., Off. of Sen. Floor Analyses, 3d reading
analysis of Sen. Bill No. 976 (2001–2002 Reg. Sess.) as
amended Jun. 11, 2002, p.4. The CVRA thus overrides
the “[r]estrictive interpretations given to the [VRA]”
by allowing a plaintiff to establish “[vote] dilution or
abridgment of minority voting rights” merely “by showing
the [other] two [Gingles] requirements.” Assem. Com. on
Judiciary, supra, at 2-3.

120a
Appendix K
23. To that end, the CVRA provides that “[a]n at-large
method of election may not be imposed or applied in a
manner that impairs the ability of a protected class to
elect candidates of its choice or its ability to influence the
outcome of an election ... as a result of the dilution,” Cal.
Elec. Code § 14027, and that “[a] violation of Section 14027
is established if it is shown that racially polarized voting
occurs in elections for members of the governing body of
the political subdivision or in elections incorporating other
electoral choices by the voters of the political subdivision,”
Cal. Elec. Code § 14028(a).
24. No other showing is needed to establish a CVRA
violation. “The fact that members of a protected class
are not geographically compact or concentrated may
not preclude a finding of racially polarized voting, or a
violation of Section 14027 and this section, but may be a
factor in determining an appropriate remedy.” Cal. Elec.
Code § 14028(c).
25. Moreover, “[p]roof of an intent on the part of
the voters or elected officials to discriminate against
a protected class is not required.” Cal. Elec. Code
§ 14028(d). Factors “such as the history of discrimination
... are probative, but not necessary factors to establish a
violation of Section 14027 and this section.” Id. § 14028(e).
26. Once there is a finding of racially polarized voting,
the political subdivision must abandon its at-large system.
“Upon a finding of a violation of Section 14027 and Section
14028, the court shall implement appropriate remedies,
including the imposition of district-based elections, that

121a
Appendix K
are tailored to remedy the violation.” Cal. Elec. Code
§ 14029.
27. And, no matter the remedy, the political subdivision
will be liable for attorneys’ fees and costs because it will
have been found liable under the CVRA. “In any action to
enforce Section 14027 and Section 14028, the court shall
allow the prevailing plaintiff party, other than the state or
political subdivision thereof, a reasonable attorney’s fee, ...
and litigation expenses including, but not limited to, expert
witness fees and expenses as part of the costs. Prevailing
defendant parties shall not recover any costs, unless the
court finds the action to be frivolous, unreasonable, or
without foundation.” Cal. Elec. Code § 14030.
28. In 2016, the election code was amended to afford a
political subdivision in violation of the CVRA a safe harbor
from the expense of litigation. “Before commencing an
action to enforce Sections 14027 and 14028, a prospective
plaintiff shall send by certified mail a written notice
to the clerk of the political subdivision against which
the action would be brought asserting that the political
subdivision’s method of conducting elections may violate
the California Voting Rights Act.” Cal. Elec. Code
§ 10010(e)(1). “A prospective plaintiff shall not commence
an action to enforce Sections 14027 and 14028 within 45
days of the political subdivision’s receipt of the written
notice described in paragraph (1).” Id. § 10010(e)(2).
29. The political subdivision then must decide whether
it will comply with the demand or be sued under the
CVRA. “Before receiving a written notice described in

122a
Appendix K
paragraph (1), or within 45 days of receipt of a notice, a
political subdivision may pass a resolution outlining its
intention to transition from at-large to district-based
elections, specific steps it will undertake to facilitate this
transition, and an estimated time frame for doing so.”
Cal. Elec. Code § 10010(e)(3)(A). “If a political subdivision
passes a resolution pursuant to subparagraph (A), a
prospective plaintiff shall not commence an action to
enforce Sections 14027 and 14028 within 90 days of the
resolution’s passage.” Id. § 10010(e)(3)(B).
30. In sum, the political subdivision can limit its legal
exposure under the CVRA only by quickly agreeing
to abandon its at-large system and begin the process
of transitioning to by-district elections. Only if the
political subdivision capitulates, in other words, will the
complaining party have his or her fees “capped at $30,000.”
Cal. Elec. Code § 10010(f)(3).
D. The Shenkman Demand Letter
31. Like many California localities, the City of Poway
for decades used an at-large voting system to elect its
City Council.
32. On June 7, 2017, the City received a certified letter
from an attorney, Kevin Shenkman, asserting that the
City’s at-large system violates the CVRA.
33. In particular, Mr. Shenkman asserted that
“voting within Poway is racially polarized, resulting in
minority vote dilution, and therefore Poway’s at-large

123a
Appendix K
elections violate the [CVRA].” He added that the CVRA
is “different” from the VRA “in several key respects, as
the [California] Legislature sought to remedy what it
considered restrictive interpretations given to the federal
act.” “The California Legislature dispensed with the
requirement in Gingles that a minority group demonstrate
that it is sufficiently large and geographically compact
to constitute a ‘majority-minority district.’ Rather, the
CVRA requires only that a plaintiff show the existence
of racially polarized voting to establish that an at-large
method of election violates the CVRA, not the desirability
of any particular remedy.”
34. According to Mr. Shenkman, “Poway’s at-large
system dilutes the ability of Latinos (a ‘protected class’)
to elect candidates of their choice or otherwise influence
the outcome of Poway’s council elections.” Therefore,
unless the City “voluntarily change[s] its at-large system
of electing council members ... [he] will be forced to seek
judicial relief.” He reminded the City that he had sued “the
City of Palmdale for violating the CVRA. After an eightday trial, we prevailed. After spending millions of dollars,
a district-based remedy was ultimately imposed upon
the Palmdale city council, with districts that combine all
incumbents into one of the four districts.” Mr. Shenkman
gave the City until July 21, 2017 to notify him whether it
would come into compliance with the CVRA.
E. The City’s Response
35. On June 20, 2017, in response to the Shenkman
letter, the City Council held a closed session to discuss

124a
Appendix K
the threatened CVRA litigation. As reported out by the
City Attorney after the closed session, the City Council
provided direction to staff to prepare a resolution of
intention for establishing and implementing by-district
elections for the City Council members to be presented
for consideration at the July 18, 2017 City Council meeting.
36. In recommending the adoption of the resolution
ahead of the July 18 meeting, the City Attorney explained
that “the risks and costs associated with protracted
CVRA litigation—particularly in light of results in all
other cities that have fought to retain at-large voting—
cannot be ignored. The public interest may ultimately
be better served by a by-district electoral system if
converting to that system avoids significant attorneys’
fees and cost award.”
37. At the City Council meeting on July 18, an outside
attorney the City hired to advise it on the Shenkman
letter outlined the difficulty in defending CVRA lawsuits.
He provided examples of prior attorney’s fees awards
under the CVRA and explained that “[t]he state statutory
scheme when it was adopted by the state legislature
effectively removed burdens of proof that exist under
the federal Voting Rights Act. And what that effectively
means is that it is virtually impossible for governmental
agencies to defend against lawsuits brought under the
CVRA. And that’s in fact why you see cities throughout the
State converting … in the face of these demand letters.”
38. Three citizens spoke during the public discussion
portion of the meeting. The first speaker, a long-time

125a
Appendix K
advocate for by-district elections, said “I thought we’d have
to go through the initiative process to make it happen. It’s
amazing what … one letter from a lawyer can do.”
39. The second speaker supported change to the
electoral process in the City more generally but was
not an advocate for by-district elections necessarily. He
stated: “I think what you are doing as far as changing to
districts is not [the] optimum but [] certainly will get rid
of the problem of getting the lawsuit.”
40. The third speaker opposed a change to by-district
elections but acknowledged to the City Council that, due
to the threatened lawsuit, “I understand you don’t really
have a choice here.”
41. Each member of the City Council then expressed
his strong disapproval of the changes that the CVRA was
forcing the City to make.
42. City councilmember Jim Cunningham explained
that “the [safe-harbor provision] is truly the shield …
we are using to avoid attorney’s fees, and costs, and
protracted litigation.” He then specifically sought advice
from the outside attorney on whether they were utilizing
that provision correctly to avoid those burdens.
43. City councilmember Dave Grosch explained that
he supported by-district elections eight years ago. But
his experience as an at-large councilmember where he
serves and supports the entire community—and not just
one district—convinced him that at-large elections were

126a
Appendix K
better. In reference to Mr. Schenkman’s letter, he added,
“I really hate that the City is … being told to do this by
someone who doesn’t live in Poway” and made clear that
the letter was the only reason the City was changing to
by-district elections.
44. City councilmember John Mullin asked the
outside attorney, “If at some point in time, … somebody
does succeed in challenging any or all of the portions of
the act, would we … then have the option to revisit the
decision to use district elections?” The attorney explained
the City would be able to do so. Councilmember Mullin
concluded: “We’ve gone through denial, and we’ve gone
through anger, and now we’re into acceptance. So, to those
of you in the audience who think that we should be fighting
this, we concur, we were there awhile back as well. I have
no illusions that this will lead to better government for
our city. I’m pretty proud of the job we do as we are now
constituted… . But having said all of that, again we have
a gun to our heads and we have no choice.”
45. Deputy Mayor Barry Leonard said, “I get it. I hate
it but I get it.” He explained his view that “we respond
to everybody in the City. We don’t pick certain people
in certain neighborhoods and say we’ll treat them any
differently. There is no evidence of that whatsoever. So, I
feel like we’re already being found guilty of something and
we don’t have a chance to prove our innocence. It’s just the
deck is stacked. So, rather than spend a million dollars of
the taxpayers’ money, we roll over to these bullies.”

127a
Appendix K
46. Mayor Steve Vaus concluded, “I’ll just echo that
this council does a remarkable job [with at-large elections].
… But we’ve got to do what we’ve got to do. And job one is
to protect the treasure of our constituents. And it’s their
money we’d be putting at risk [with litigation] and none
of us are willing to do that.”
47. The City Council adopted Resolution No. 17-046
setting forth its intention to transition from at-large to
by-district elections, pursuant to Elections Code section
10010(e)(3)(A). The Resolution stated that after “the
City [had] received a letter threatening action under
the California Voting Rights Act,” it had “determined
that it is in the best interest of the City to move from its
current at-large electoral system to a by-district election
for members of the City Council, in furtherance of the
purposes of California Voting Rights Act.”
48. On August 1, 2017, August 8, 2017, and August 18,
2017, the Council held meetings where it received public
input on drawing new districts, consulted a demographer
on how to draw new districts, and evaluated potential
maps for the new districts.
49. On August 31, 2017, the Council voted 5-0 to
proceed with Map 133, an election plan that divides the
City into four districts.
50. On September 19, 2017, the Council introduced
an ordinance for first reading and public comment that
enacted Plan 133. For his part, councilmember Mullin
reiterated his view that the City “went down this path

128a
Appendix K
with the full recognition that this was our only reasonable
option. Never did I, nor do I now, believe that this will
lead to better governance for our city. … I support the
[proposed ordinance] because of a lack of choice and
not because I think it’s best for the City. … I’m still
begrudgingly doing this.”
51. On October 3, 2017, the Council adopted the
ordinance enacting Map 133. In voting for the ordinance,
councilmember Mullin stated, “I don’t want my affirmative
vote on this item to be construed in any way as my support
for this notion for district elections. … I will support the
motion because we have no choice not because I think
district elections are what’s best for the city.”
52. The City would not have switched from at-large
elections to single-districts elections but for the prospect
of liability under the CVRA.
CAUSE OF ACTION
42 U.S.C. §§ 1983, 1988
(Violation of the Equal Protection Clause of the
Fourteenth Amendment to the United States
Constitution)
53. Plaintiff realleges paragraphs 1 through 52 as if
fully stated herein.
54. Section 1 of the Fourteenth Amendment to the
United States Constitution provides in relevant part: “No

129a
Appendix K
State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.”
55. The Equal Protection Clause prohibits the use
of race as the predominant factor in drawing electoral
districts unless the State or political subdivision has a
compelling interest in doing so and the use of race is
narrowly tailored to that interest.
56. The CVRA makes race the predominant factor in
drawing electoral districts. Indeed, it makes race the only
factor given that a political subdivision, such as the City,
must abandon its at-large system based on the existence
of racially polarized voting and nothing more.
57. California does not have a compelling interest in
requiring any political subdivision, including the City,
to abandon its at-large system based on the existence of
racially polarized voting and nothing more. The Supreme
Court has assumed that there is a compelling interest in
ensuring that minority voters are not denied the ability
to form a compact district in which they will have the
opportunity to elect a candidate of their choice. That is
not the interest the CVRA advances. The CVRA seeks
to maximize minority voting strength.
58. The CVRA also is not narrowly tailored to
ensure that minority voters do not have their votes

130a
Appendix K
diluted because, among other reasons, it overrides the
compactness precondition of Section 2 of the VRA. The
California Legislature, in enacting the VRA, thus lacked
a strong basis in evidence to believe that it was necessary
to override Section 2’s compactness requirement in order
to protect minorities from vote dilution.
59. As a consequence, the CVRA violates the Equal
Protection Clause of the Fourteenth Amendment to the
United States Constitution.
60. Plaintiff has no adequate remedy at law other
than the judicial relief sought here. The failure to enjoin
the CVRA will irreparably harm Plaintiff by violating is
constitutional rights.
COSTS AND ATTORNEYS’ FEES
61. Pursuant to 42 U.S.C. § 1988, Plaintiff seeks an
award of their costs, including reasonable attorneys’ fees,
incurred in the litigation of this case.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff requests that this Court:
62. Declare that the California Voting Rights Act
requires California political subdivisions, such
as the City, to engage in racial gerrymandering
in violation of the Equal Protection Clause of the
Fourteenth Amendment.

131a
Appendix K
63. 	Permanently enjoin Defendant Becerra from
enforcing or giving any effect to the California
Voting Rights Act.
64. Declare Map 133 in violation of the Equal
Protection Clause of the Fourteenth Amendment.
65. 	Permanently enjoin Defendant City of Poway
from using Map 133 in any future election.
Grant such other or further relief the Court deems to
be appropriate, including but not limited to an award of
Plaintiff’s attorneys’ fees and reasonable costs.
Respectfully submitted,
/s/ Bryan K. Weir
Bryan K. Weir, CA Bar # 310964
William S. Consovoy, VA Bar # 47704
(pro hac vice to be filed)
Thomas R. McCarthy, VA Bar # 47154
(pro hac vice to be filed)
J. Michael Connolly, VA Bar # 77632
(pro hac vice to be filed)
CONSOVOY MCCARTHY PARK PLLC
3301 Wilson Boulevard
Suite 700
Arlington, VA 22201
(703) 243-9423

